             October 1, 1998 - March 31, 1999




                               OFFICE OF INSPECTOR GENERAL




Semiannual Report
      to Congress
Including Significant Activities of the Inspection Service
Contents

A Message from the Inspector General......................................................1
Executive Summary ..................................................................................3
Major Management Issues Facing the Postal Service ................................9
Overview ................................................................................................17
   Office of Inspector General ..............................................................18
   Inspection Service..............................................................................23
Organization ............................................................................................25
   Office of Inspector General ..............................................................26
   Inspection Service..............................................................................29
Goals ......................................................................................................31
Voice of the Customer ............................................................................35
   Office of Inspector General ..............................................................36
   Inspection Service..............................................................................39
Voice of the Employee ............................................................................45
   Office of Inspector General ..............................................................46
   Inspection Service..............................................................................51
Voice of the Business ..............................................................................53
   Office of Inspector General ..............................................................54
   Inspection Service..............................................................................60
Legislative and Regulatory Review ..........................................................69
Appendices ..............................................................................................79
     Appendix A - Closed Congressional Inquiries ..................................80
     Appendix B - Reports Issued to Postal Management ........................83
     Appendix C - Findings of Questioned Costs......................................95
     Appendix D - Recommendations That Funds Be Put to Better Use 96
     Appendix E - Unresolved Reports ....................................................98
     Appendix F - Summary of Inspection Service Actions
         Under 39 USC 3005 and 3007..................................................102
     Appendix G - Criminal Statistics ....................................................104
Exhibits ................................................................................................105
 US Postage Stamps
 ISSUED FROM OCTOBER 1, 1998 THROUGH MARCH 31, 1999

PAGE
 8     LOVE-VICTORIAN - represents one of two romantic, Victorian designs that
       were the first die-cut, self-adhesive stamps issued by the Postal Service.
 15    LUNAR NEW YEAR - celebrates the Year of the Hare, the fourth animal in the
       Chinese astrological calendar.
 16    ARCTIC ANIMALS - represents five animals uniquely adapted to survive in one
       of the harshest environments: Arctic Fox, Arctic Hare, Grey Wolf, Polar Bear,
       and Snowy Owl.
 30    WREATHS - continues the Holiday Contemporary series with four beautiful
       stamps: Evergreen, Tropical, Chili Pepper, and Victorian wreaths.
 34    GIVING AND SHARING - recognizes the time-honored tradition of
       humanitarianism and goodwill through the issuance of a philanthropy stamp.
 52    ALFRED LUNT & LYNN FONTANNE - pays tribute to the greatest husband-
       and-wife team in the history of the American stage.
 58    HOSPICE CARE - continues the Postal Service tradition of raising awareness of
       social causes such as end-of life care.
 67    IRISH IMMIGRATION - recognizes the Irish emigration to America of the more
       than 40 million Americans who are of Irish descent.
 68    FLORENTINE MADONNA AND CHILD - commemorates a master work of
       art based on a 15th sculpture.




                                                                                       The OIG Management Committee would like
                                PHOTO TO COME                                          to thank the many OIG staff members who
                                                                                       helped produce this report and our OIG
                                                                                       and Inspection Service employees whose
                                                                                       contributions are included in this
                                                                                       semiannual report.
                     A Message from the
                     Inspector General

                     I
                         n our fifth Semiannual Report to Congress, we are proud to report the
                         significant accomplishments of the Office of Inspector General (OIG)
                         and the Inspection Service in helping the United States Postal Service
                     retain its competitive edge. As we move into the 21st century, the Postal Ser-
                     vice enters its third century of delivering the mail and OIG enters its third
KARLA W. CORCORAN
 Inspector General   year of operation. Both organizations are preparing for some of the greatest
                     challenges of their existence.
                           The Year 2000 (Y2K) issue is one of those challenges. Over the past six
                     months, one of our most significant accomplishments has been our ongoing
                     and enhanced effort to assist the Postal Service in addressing its Y2K
                     challenge. During this reporting period, up to 25 percent of our evaluators
                     have been devoted to Y2K issues, and we believe our efforts have produced
                     positive results for the Postal Service. On February 23, 1999, I testified at a
                     joint hearing of three Congressional subcommittees regarding the Postal
                     Service’s Y2K readiness. During my testimony, I communicated the urgency
                     the Postal Service needs to place on addressing its Y2K readiness and recom-
                     mended actions to help ensure that it meets its goals. We will continue to
                     devote considerable resources to assist the Postal Service in meeting this
                     challenge.
                           Looking ahead, we are becoming actively involved in protecting Postal
                     Service information and revenue by establishing a computer intrusion unit.
                     We believe this area will be increasingly important to the Postal
                     Service as it becomes more dependent on computers to move the mail,
                     process financial transactions, and become more competitive in the world of
                     electronic commerce.
                           We are proud of building a new and dynamic organization based on
                     cutting-edge technology and the most advanced management principles
                     available today. Our greatest resource is our staff – 310 of us now – who
                     understand and appreciate the diverse culture of the OIG and who recognize
                     the Postal Service as a unique institution. We are committed to helping the
                     Postal Service maintain and even strengthen its reputation through sound
                     programs and practices that promote good business.
                           As we become more established, we have been able to undertake more
                     projects that add value to the Postal Service. In this reporting period, our
                     office issued 15 audit reports, 55 management advisory reports and other
                     products, and closed 31 investigations. The audit and investigative work of
                     the nearly 2,200 Postal Inspectors included 40 contract audits that identified
                     $8,954,959 in questioned and unsupported costs and more than $54,715,624
                     in funds put to better use, plus 161 other audits and 133 investigative reports.
                     Our combined efforts resulted in more than 372 written products to strength-
                     en Postal Service programs and operations. In addition, Inspection Service
                     investigations resulted in the arrests of 5,142 individuals and in the convic-
                     tions of 4,466 individuals stemming from charges brought during this and
                     prior reporting periods.



                                                                             PAGE 00
                                                This Semiannual Report to Congress details the significant activities and accomplishments of
                                           the OIG and the Inspection Service from October 1, 1998 through March 31, 1999. Submission
                                           of the report fulfills the OIG reporting requirements of the Inspector General Act and the Inspec-
                                           tion Service requirements under the Mail Order Consumer Protection Act. The information pre-
                                           sented in this report reflects the work of both the OIG and the Inspection Service, providing a com-
                                           plete picture of what is being done to combat fraud, waste, abuse, and mismanagement within the
                                           Postal Service.
                                                I would like to thank Congress, the Governors, the Postmaster General, and Postal Service
                                           management for their continued cooperation and support. We stand ready to help the Postal Ser-
                                           vice meet its challenges through efficient and effective practices that will enable it to continue its
                                           vital role in our nation’s communication and commercial infrastructure.

                                               Sincerely,




The Postal Service Management Committee
recognizes Sylvia Owens and Tom Coogan         Karla W. Corcoran
at the National Executive Conference.
                                               Inspector General

                                               April 30, 1999




                                  PAGE 2   A MESSAGE FROM THE INSPECTOR GENERAL
Executive Summary




  DID YOU
  KNOW?
 How do OIG responsibilities differ from those of
 the Inspection Service?
 The OIG’s main responsibilities are detecting fraud,
 waste, abuse, and mismanagement, and
 promoting efficiency of operations. The Inspection
 Service is mainly concerned with the security and
 safety of Postal Service employees, and the sanctity
 of the mail.




                                            PAGE 3
                                    This Executive Summary highlights Office            ◆   Created the Commission on a Safe and
                                    of Inspector General (OIG) and Inspection               Secure Workplace (sometimes called the
                                    Service accomplishments from October 1,                 Califano Commission) to provide leader-
                                                                                            ship to eliminate violence at the work-
        DID YOU                     1998 through March 31, 1999, that are
                                    contained in this Semiannual Report to                  place.
        KNOW?                       Congress.                                                This, our fifth Semiannual Report to Con-
                                                                                        gress, highlights how we and the Inspection Ser-
                                         Our goal is to work in concert to assist the   vice continue to help the Postal Service
What is the value of a joint        Postal Service in maintaining its leadership role   improve operations and services, promote
                                    of ensuring that the American people continue       process improvements and employee integrity,
Office of Inspector                 to receive the best postal service in the world.    and achieve CustomerPerfect! goals. Before dis-
General/Inspection Service          OIG and Inspection Service efforts add value to     cussing OIG and Inspection Service activities,
                                    the Postal Service by promoting continued           we would like to highlight the top management
report to Congress?                 effectiveness and efficiency through audits and     issues facing the Postal Service.
A consolidated Semiannual           investigations that identify and eliminate waste,
                                                                                        MAJOR MANAGEMENT ISSUES
                                    fraud, abuse, and mismanagement in Postal Ser-
Report to Congress provides a                                                           FACING THE POSTAL SERVICE
                                    vice programs and activities.
                                                                                             With the assistance of Postal Service man-
complete accounting to Postal
                                        During this reporting period, the Postal        agement, its unions, and its management associ-
Service stakeholders on the         Service:                                            ations, the OIG’s January 1998 response to a
                                    ◆ After holding rates steady for four con-          congressional request identified 10 major man-
efforts within the Postal Service
                                        secutive years, delayed a rate increase         agement issues facing the Postal Service. We
to combat fraud, waste, abuse,          until January 1999, in effect delivering        continued to monitor these issues, which are:
                                        an $800 million dividend to the Ameri-          Year 2000 Readiness; Competition, Rate-
and mismanagement within its
                                        can people.
                                                                                        Making, and Legislative Reform; Eliminating
operations and programs.            ◆   For the first time in many years, achieved      Violence in the Workplace; Financial Man-
                                        negotiated agreements with two of its           agement; Service Delivery; Electronic Com-
                                        major unions, and continued negotia-            merce; Postal Employees Safety Enhance-
                                        tions with a third.                             ment Act of 1998; Systems Automation
                                    ◆   Introduced delivery confirmation service        and Data Integrity; Labor-Management
                                        for Priority Mail and Parcel Post, which        and Employee Relations; and Workers’
                                        lets senders know if their messages             Compensation.
                                        arrived.
                                                                                        ◆   Year 2000 (Y2K) Readiness: It is impor-
                                    ◆   Achieved the highest opinion ranking                tant for the Postal Service’s automated
                                        among federal agencies according to a               and information systems, suppliers, and
                                        national poll, with 78 percent of Ameri-            data exchange partners to be Y2K com-
                                        cans having a highly favorable or moder-            pliant by the close of the year in order to
                                        ately favorable opinion of the                      ensure that mail, including millions of
                                        Postal Service.                                     Social Security checks and $9 trillion in
                                    ◆   Achieved 17 of 23 initiatives approved              remittance mail, is delivered.
                                        by the Board of Governors to improve            ◆   Competition, Rate-Making, and Legisla-
                                        diversity, including programs to help               tive Reform: The existing legislative
                                        Postal employees better manage their                framework has served the Postal Service
                                        careers, and new guidelines to expand               and the nation for almost 30 years. In
                                        the base of suppliers by including eligible         that time, however, the evolving market-
                                        minority and woman-owned small                      place has changed many of the premises
                                        businesses.                                         upon which regulation and oversight of
                                    ◆   Confirmed through an independent study              the Postal Service are currently based.
                                        that more than 82 percent of American           ◆   Eliminating Violence in the Workplace:
                                        households send their packages through              The Postal Service is the largest civilian
                                        the Postal Service.                                 employer, with over 775,000 career
                                                                                            employees. Over the past several years,


                           PAGE 4   EXECUTIVE SUMMARY
    there have been a number of instances of          hibits the Postal Service from basing
    violence within the Postal Service.               business decisions upon Occupational
    These situations diminish Postal                  Safety and Health Administration
    Service credibility, decrease productivity,       requirements.
    create work-specific tension, and damage      ◆   Systems Automation and Data Integrity:
    property.                                         Successful decision-making by Postal
◆   Financial Management: The Postal Ser-             Service managers depends on the
    vice relies on strong financial manage-           accuracy and integrity of computer data.
    ment to control costs and maximize rev-           Further, to maintain excellent customer
    enues. Unlike other government agen-              service and aggressively manage costs,
    cies, its operations are funded mainly by         the Postal Service must continue to
    revenues, which are derived from mail             develop automated solutions to process
    services. This year, Postal Service pro-          mail more efficiently and accurately.
    jects that revenues for fiscal year (FY)      ◆   Labor-Management and Employee Rela-
    1999 will exceed expenses by $200 mil-            tions: While the Postal Service has
    lion. However, the Postal Service faces           reached agreements with two of the
    significant challenges in meeting this            three major unions, improving work-          The OIG and Inspection Service
    revenue projection because of costs asso-         place relationships with employees           celebrate the retirement of Jim
    ciated with Y2K readiness, increased cap-         remains a key objective of the Postal Ser-   Hanney and Al Lamden, Senior
    ital expenditures, the delay in implemen-         vice. Postal initiatives focus on conflict   Executives. Chief Inspector Hunter
    tation of the rate increase, the effects of       in the workplace, identifying and elimi-     offers his congratulations.
    implementing the Postal Employees Safe-           nating root causes of labor disputes,
    ty Enhancement Act, and increased                 building knowledge of labor contracts,
    competition.                                      and improving the effectiveness of griev-
◆   Service Delivery: In a competitive envi-          ance-arbitration procedures to resolve
    ronment, the Postal Service needs to              labor disputes.
    develop a wider range of messaging and        ◆   Workers’ Compensation: For FY 1998,
    delivery choices. Timely, accurate, and           the Postal Service paid $566 million for
    consistent delivery performance is one            employee injury claims. Injury cost con-
    measure of quality service as perceived by        tainment is key to the Postal Service’s
    the customers. Over the past two years,           financial well-being.
    the integrity of the service delivery mea-
    surement system for First-Class Mail has      OVERVIEW OF THE OIG AND
    been questioned. Service delivery perfor-     INSPECTION SERVICE
    mance goals must have integrity to be
                                                       Internally the OIG and Inspection Service
    effective.
                                                  have continued to grow and develop. High-
◆   Electronic Commerce: With the advent          lights of the past six months include:
    of electronic media, the Postal Service
    must find ways to keep the revenue gen-       ◆   The Postmaster General signed the audit
    erated from remittance mail from being            cognizance letter for the OIG.
    diverted into electronic means or must        ◆   The OIG became a Co-Contracting
    itself become an active participant in            Officer’s Representative for the financial
    electronic services, while protecting the         statements.
    integrity of its customers’ electronic
                                                  ◆   The OIG and Inspection Service partici-
    transactions.
                                                      pated in team-building to improve coop-
◆   Postal Employees Safety Enhancement               eration and coordination.
    Act of 1998: The new occupational
                                                  ◆   The Chief Inspector testified about
    safety and health requirements require
                                                      sweepstakes promotions.
    the Postal Service to renew its commit-
    ment to and involvement in the safety         ◆   The Inspection Service produced a con-
    and health programs. The law places the           sumer protection video.
    Postal Service in the same category as
    private sector employers. It also pro-


                                                                                                    PAGE 5
                                                                                       OIG AND INSPECTION SERVICE                             bombs, mailing harmful articles, narcotics
                                                                                       ACCOMPLISHMENTS UNDER                                  trafficking, mail theft, mail fraud, and
                                                                                       CUSTOMERPERFECT! GOALS                                 other criminal acts.
                                                                                            The following are the combined accom-
                                                                                                                                          VOICE OF THE EMPLOYEE
                                                                                       plishments of the OIG and the Inspection Ser-
                                                                                       vice that added value to Postal Service programs   The OIG and the Inspection Service help
                                                                                       and operations.                                    the Postal Service improve employee and
                                                                                                                                          organizational effectiveness, ensure employee
                                                                                       VOICE OF THE CUSTOMER
                                                                                                                                          safety, prevent and investigate threats, and
                                                                                       The OIG and the Inspection Service help
                                                                                                                                          enhance the workplace environment for all
                                                                                       the Postal Service improve customer satis-
                                                                                                                                          its employees. For example:
                                                                                       faction by assessing its performance in pro-
                                                                                                                                          ◆   OIG assisted the Postal Service by
                                                                                       viding customer value, meeting the public’s
                                                                                                                                              assessing why workplace disputes were
                                                                                       expectations, and increasing customer confi-           not resolved before they became formal
                                                                                       dence in using the mail. For example:                  grievances or as early as possible.
                                                                                                                                          ◆   OIG made recommendations to improve
                                                                                       ◆   OIG and the Inspection Service aided
                                                                                                                                              the handling of equal opportunity
                                                                                           the Postal Service during the 1998
                                                                                                                                              complaints.
                                                                                           Christmas season by recommending that
                 CONGRESSIONAL INQUIRIES BY AGE                                            contingency plans be developed to divert       ◆   The OIG completed a workplace assess-
                                    601-820 DAYS                                           mail to other locations and to increase            ment at a postal facility and conducted
                     481-600 DAYS
                                        1                                                  surface transportation to improve net-             a follow-up review of alleged retaliation
                                                   0-60 DAYS
                          21                         8                                     work Priority Mail movement.                       against a cooperating employee.
                                                                     61-120 DAYS       ◆   OIG and the Inspection Service assisted        ◆   The Inspection Service helped ensure
  361-480 DAYS
                                                                       120                 the Postal Service in assuring the integri-        the safety of the workplace by investigat-
    21                                                                                     ty of service delivery systems by review-          ing 551 assaults or credible threats
                                                                                           ing allegations of the creation of a sepa-         against employees and making 227
                                                                                           rate mailstream for external First-Class           arrests; investigating 75 robberies
                 241-360 DAYS                                  121-240 DAYS                test mail in two locations.                        committed against employees at Postal
                     21                                         22                                                                            facilities, letter carriers, or motor vehicle
                                                                                       ◆   OIG completed 48 congressional
                                                                                                                                              service operators; and arresting 14
                                                                                           inquiries, ranging from questions regard-
                                                                                                                                              employees for narcotics violations.
                                                                                           ing major Postal Service programs to
                                                                                           specific constituent concerns.
                                                                                                                                          VOICE OF THE BUSINESS
        CONGRESSIONAL INQUIRIES BY STATUS                                              ◆   OIG received more than 7,500 inquiries
                                                                                           to our national hotline. Nearly 1,000          The OIG and the Inspection Service help
                         FINAL REPORT
                                                                                           were OIG-related matters, mainly per-          improve Postal Service financial self-suffi-
                                9
                                                                                           taining to employee and labor relations
                                                               Work On-Going                                                              ciency by assessing its business strategies
DRAFT RESPONSE                                                     27                      issues.
    15                                                                                                                                    and performance, preventing the loss of rev-
                                                                                       ◆   The Inspection Service performed two
                                                                                           national audits of the Priority Mail pro-      enue and assets, strengthening management
PLANNED AUDIT                                                                              cessing and delivery system, and the           controls, and reducing costs.
3
                                                                                           logistics and transportation system,
            SYSTEMIC REVIEW                                                                designed to improve customer service.          ◆   OIG provided an independent assess-
                                             AWAITING FURTHER ACTION
                   12                                                                                                                         ment of Postal Service’s Y2K process in
                                                     18                                ◆   The Inspection Service helped make the             testimony before Congress. Further, in
                                                                                           United States a better place to live by            its continuing reviews of the Y2K
                                                                                           participating in more than 5,100 arrests           process, the OIG recommended improve-
                                                                                           and 4,400 convictions of individuals               ments to the quality and accuracy of Y2K
                                                                                           involved in child pornography, mail                management reports.
                                                                                                                                          ◆   OIG cautioned management that suffi-



                                                                              PAGE 6   EXECUTIVE SUMMARY
    cient spare parts were not on hand to
    ensure that the Tray Management Sys-
    tem would maintain its state of readiness.
◆   OIG independently determined that cost
    allocations between international and                    DID YOU
    domestic products were appropriate and
    that Postal Service’s corporate treasury
                                                             KNOW?
    internal control environment was sound.
◆   OIG raised concerns that Postal Service        How is OIG funded?
    resources were not being used economi-
    cally or effectively in the area of personal   The OIG is funded from Postal
    service contracts.                             Service revenues. The OIG is
◆   OIG audits and reviews identified nearly
                                                   not funded through specific
    $7 million in questioned costs, which
    helped the Postal Service contain costs.       Congressional appropriations.
◆   Inspection Service installation financial
    audits and business investigations identi-
    fied over $12 million in revenue defi-
    ciencies Postal-wide.
◆   Postal Inspectors helped to ensure the
    integrity of Postal Service funds by
    arresting 157 Postal employees at all lev-
    els who were involved in embezzlements
    of nearly $3 million.
◆   Inspection Service Workers’ Compensa-
    tion investigations identified cost avoid-
    ance savings of over $60 million and
    resulted in the arrest of 29 individuals.




                                                             The OIG Management Committee (sitting,
                                                             left to right): Tom Coogan, Karla
                                                             Corcoran; (standing): Dutch Merryman,
                                                             Sylvia Owens, Norm Hancock, Colleen
                                                             McAntee and Billy Sauls.




                                                    PAGE 7
PAGE 8   EXECUTIVE SUMMARY
Major Management Issues
Facing the Postal Service




     DID YOU
     KNOW?
    Why must OIG report all of its findings and
    issues to the Governors and Congress?
    The OIG is required by law to keep the
    Governors and Congress fully and currently
    informed. The OIG also reports its findings
    and issues to Postal management so that they
    can take appropriate action to further improve
    the efficiency and effectiveness of Postal
    programs and operations.



                                                 PAGE 9
                                                                                            data exchange partners to be Y2K compliant by
                                     MAJOR MANAGEMENT                                       the close of 1999 in order to ensure that mail,
                                     ISSUES FACING THE                                      including millions of Social Security checks and
                                     POSTAL SERVICE                                         $9 trillion in remittance mail, is delivered.
        DID YOU                                                                                  The Y2K problem results from computer


                                     T
                                              he mission of the Postal Service is to
                                                                                            systems using the last two digits rather than four
        KNOW?                                 provide prompt, reliable, and efficient
                                              universal mail service at reasonable
                                                                                            digits to designate the calendar year. In many
                                                                                            systems, the year 2000 will be indistinguishable
                                     rates. To fulfill this mission, the Postal Service’s
Can management reinvestigate         goals are to satisfy its customers, improve
                                                                                            from the year 1900, thereby causing potential
                                                                                            system failures. The Y2K problem, although
an issue after the OIG has           employee and organizational effectiveness, and
                                                                                            technology-based, creates a business problem for
                                     strengthen financial performance. These corpo-
reported on it?                      rate goals are categorized into three Voices —
                                                                                            both Postal Service internal operations as well
To avoid duplication of effort and                                                          as key Postal Service vendors and service
                                     Customer, Employee, and Business — empha-
                                                                                            providers.
interference, Postal management      sizing that the organization is listening to, dri-
                                                                                                 The Postal Service continues to make
                                     ven by, and focused on the marketplace and
should avoid reinvestigation. If                                                            progress in achieving Y2K readiness in the areas
                                     Postal Service employees.
                                                                                            of critical core business infrastructure, informa-
management has questions or needs         To achieve these goals, the Postal Service
                                                                                            tion systems infrastructure, and business conti-
                                     must address a number of significant challenges.
additional information concerning    These challenges arise from external factors
                                                                                            nuity and contingency planning. However, the
                                                                                            Postal Service is still faced with significant chal-
an OIG report, they should contact   such as new legislation, regulations, and compe-
                                                                                            lenges as the urgency of this problem multiplies
                                     tition. Another major challenge is the increas-
the OIG.                                                                                    in the remaining months in 1999.
                                     ing use of technology that can divert significant
                                     volumes of mail, particularly in the advertising       What Are We Doing to Add Value?
                                     and remittance mail areas, away from tradition-
                                     al mail delivery to electronic venues. The                   The Postal Service’s Y2K initiative contin-
                                     Postal Service must also be continually respond-       ues to be one of the OIG’s highest priorities for
                                     ing to new customer demands arising from               review. During this reporting period, the
                                     increased competition in the mail delivery             Inspector General testified before Congress on
                                     arena.                                                 the Y2K challenges faced by the Postal Service
                                          In order to identify some of the high-prior-      and the current status of the Y2K initiative. In
                                     ity challenges that the Postal Service will face,      addition, the OIG issued a report on the quality
                                     the OIG — with the assistance of Postal Service        and reliability of Y2K reporting, which recom-
                                     management, unions, and management associa-            mended additional actions to ensure the Postal
                                     tions — responded in January 1998, to a Con-           Service meets its readiness goals. Further, the
                                     gressional request and identified 10 major man-        OIG has expanded the scope of ongoing reviews
                                     agement issues facing the Postal Service. The          to include areas such as the Y2K budget, suppli-
                                     following ten major challenges have been               er readiness, and continuity planning and
                                     updated from the original list: Year 2000 Readi-       recovery management.
                                     ness; Competition, Rate-Making and Legisla-                  The Postal Inspection Service assisted
                                     tive Reform; Eliminating Violence in the Work-         management by reviewing Y2K contract admin-
                                     place; Financial Management; Service Delivery;         istration and management practices. The OIG
                                     Electronic Commerce; Postal Employees Safety           and Inspection Service will continue to work
                                     Enhancement Act of 1998; Systems Automa-               closely with Postal Service management to help
                                     tion and Data Integrity; Labor-Management              identify challenges and minimize the risk of
                                     and Employee Relations; and Workers’ Com-              Y2K-related failures.
                                     pensation.                                             COMPETITION, RATE-MAKING,
                                                                                            AND LEGISLATIVE REFORM
                                     YEAR 2000 (Y2K) READINESS
                                                                                            Why Is This Important?
                                     Why Is This Important?
                                                                                                The existing legislative framework that cre-
                                         It is important for the Postal Service’s auto-     ated the Postal Service has served the Postal
                                     mated and information systems, suppliers, and


                           PAGE 10   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
Service and the nation for almost 30 years. In             The Postal Service places strong emphasis
that time, however, the evolving marketplace         on creating and maintaining a violence-free
has changed many of the premises upon which          work environment for its employees. Work-
regulation and oversight of the Postal Service       place antiviolence initiatives are focused on
are currently based. Changes to rate-making          improving employees’ sense of safety and the
mechanisms are being proposed to allow the           refinement of the employee assistance program
Postal Service to respond to a competitive mar-      to better meet changing workplace needs. The
ketplace in a more timely manner.                    components of the workplace violence preven-
     Further, the Postal world is changing. For-     tion program include physical security mea-
eign postal services are liberalizing, commercial-   sures, training and education, and the develop-
izing, and competing for business within the         ment of threat assessment teams and crisis man-
United States. Electronic communications are         agement plans.
becoming more commonplace and threaten                     The joint Postal Service Threat Assess-
some of the Postal Service’s most important          ment Team and Crisis Management Systems
sources of revenue, including bills and corre-       and Process Team are examples of employees
spondence. Established private firms compete         working together to reduce the risks of work-
for expedited and package delivery services.         place violence. These teams address issues
     The Postal Service needs to be able to          related to pre-employment, post-employment,          Assistant Inspector General Sylvia
deliver the promise of quality service today and     and current employees; communication; and            Owens welcomes Kristen Hammond, one
into the future considering competition, rate-       crisis management. The Postmaster General            of the 15 new special agents to
making, and legislation.                             established a Commission for a Safe and Secure       graduate from the Federal Law
                                                                                                          Enforcement Training Center.
                                                     Workplace to investigate, analyze, and report
What Are We Doing to Add Value?                      on several factors, including work-related stress,
     The OIG will continue to monitor major          substance abuse, and the workplace environ-
management initiatives affecting costs and ser-      ment. In addition, the Postal Service continues
vice quality. For example, the OIG is monitor-       to identify systemic hot spots within the Area
ing the Postal Service’s implementation of the       offices and has developed an action plan to deal
Government Performance and Results Act. As           with workplace problems and solutions.
legislative reform develops, the OIG will help
management identify issues associated with
                                                     What Are We Doing to Add Value?
implementing, funding, and complying with                 To support management’s efforts, the OIG
aspects of Postal reform. It also will work with     participates in and monitors the activities of the
management to identify goals and measures that       Postal Service Threat Assessment Team; the
promote high performance and help the Postal         Crisis Management Systems and Process Team;
Service meet changing customer needs. The            and the Commission. The OIG meets regular-
OIG will monitor Postal Service activities in        ly with committee representatives of the Postal
order to help identify ways to consistently meet     Service Workplace Environment Improvement,
its universal service mandate, increase its levels   Human Resources, and Labor Management to
of quality while reducing costs, and continue to     discuss strategies for improving labor and
be a trusted American institution.                   employee relations.
                                                          The OIG has completed reviews of labor
ELIMINATING VIOLENCE IN THE
                                                     and management workplace disputes, griev-
WORKPLACE
                                                     ance-arbitration process, information system for
Why Is This Important?                               grievance-arbitration cases, and the process
     The Postal Service is the largest civilian      management team for accident reporting. The
employer, with over 775,000 career employees.        OIG also completed 17 other reviews of com-
Over the past several years, a number of             plaints involving discriminatory hiring, retalia-
instances of violence have occurred within the       tion, unfair labor practices, harassment, equal
Postal Service. These situations diminish Postal     employment opportunity, and mistreatment.
Service credibility, decrease productivity, create   Eleven reviews of labor and employee relations
work-specific tension, and damage property.          issues are underway, and reviews are planned of
                                                     disciplinary actions, Threat Assessment Teams



                                                                                                           PAGE 11
          processes, and Violence Prevention Program                Further, the OIG has completed work in
          criteria.                                           the area of international mail costs and has
                                                              work underway in the areas of electronic data
          FINANCIAL MANAGEMENT
                                                              processing controls and the financial statement
          Why Is This Important?                              opinion. In addition, the OIG performs numer-
               The Postal Service relies on strong finan-     ous reviews and investigations of contracts,
          cial management to control costs and maximize       facilities, revenue generation, revenue protec-
          revenues. Unlike other government agencies,         tion, and developmental projects, all of which
          its operations are funded mainly by the rev-        may impact the Postal Service’s financial state-
          enues, which are derived from mail services.        ments. The Inspection Service is continuing to
          This year, Postal Service projects that revenues    add value by performing 200 financial installa-
          for FY 1999 will exceed expenses by $200 mil-       tion audits throughout the year at local Post
          lion. However, the Postal Service faces signifi-    Offices and bulk mail centers. The Inspection
          cant challenges in meeting this revenue projec-     Service also aids by performing investigations
          tion because of costs associated with Y2K readi-    and audits as established in the designation of
          ness, increased capital expenditures, the delay     functions.
          in implementation of the rate increase, the         SERVICE DELIVERY
          effects of implementing the Postal Employees
          Safety Enhancement Act, and increased com-
                                                              Why Is This Important?
          petition.                                                In a competitive environment, the Postal
               One of the key business goals of the Postal    Service needs to develop a wider range of mes-
          Service is to improve its financial performance.    saging and delivery choices. Timely, accurate,
          The Postal Service wants to ensure its              and consistent delivery performance is one mea-
          commercial viability as a service provider for      sure of quality service as perceived by the cus-
          the world-wide movement of mail, merchan-           tomers. Over the past two years, the integrity of
          dise, and money.                                    the service delivery measurement system for
                                                              First-Class Mail has been questioned. Service
          What Are We Doing to Add Value?                     delivery performance goals must have integrity
               The OIG assesses the integrity and reliabil-   to be effective.
          ity of financial data of the Postal Service. OIG         Service delivery performance goals are
          performs reviews at three data centers and          based on the benefits resulting from aggressive
          Headquarters, and oversees the installation-        control of costs through reengineering, decreas-
          level work performed by the Inspection Service.     ing rework and cycle time, improving process
          Recently, the OIG was designated as the Co-         management, and substituting capital for labor.
          Contracting Officer’s Representative with           The Postal Service has made significant capital
          Postal Service Corporate Finance to oversee the     commitments of more than $8 billion during FY
          work of the independent public accountant,          1998 and FY 1999. These investments empha-
          who is selected and retained solely by the Board    size technologies that produce labor savings or
          of Governors.                                       cost avoidance, and provide customer service
               In addition to the financial statement         programs that generate revenue or enhance
          work, the OIG has performed a number of             competitiveness in the marketplace.
          financial-related audits. The OIG reviewed the      What Are We Doing to Add Value?
          Dinero Seguro program, a Postal Service wire
                                                                    One of the primary functions of the Inspec-
          transfer service between the United States and
                                                              tion Service is to ensure the sanctity of the mail.
          Mexico. A review, requested by Postal Service
                                                              Therefore, service delivery and the Inspection
          management, is also being conducted of the
                                                              Service’s Confidence in the Mail program con-
          costs associated with the Postal Service Y2K ini-
                                                              tinue to be priority areas. As part of this respon-
          tiative. Further, the OIG contracted for a
                                                              sibility, the Inspection Service has dedicated sig-
          review of the effectiveness of the Postal Service
                                                              nificant resources to investigating mail-fraud
          Corporate Treasury’s internal control environ-
                                                              schemes. In addition, the Inspection Service
          ment and cash management program.


PAGE 12   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
completed reviews of Postal Service logistics        monitoring operation to support national infra-
and transportation and Priority Mail processing.     structure security. OIG is planning to review
The Inspection Service will continue to fulfill a    the Postal Service intrusion detection system.
major role in service delivery.                      The Inspection Service provides security assis-
     Over past years, the Inspection Service has     tance on the development of new products and
completed several investigations and reviews of      services, such as the Information Based Indicia
the accuracy and integrity of First-Class Mail       Program, Stored Value Cards, and Internet Bill
performance measurements. OIG has reviewed           Payment.
and continues to monitor First-Class Mail
                                                     POSTAL EMPLOYEES SAFETY
performance measurement integrity.
                                                     ENHANCEMENT ACT OF 1998
     OIG has also completed a review of the
costs and benefits of the National Change of         Why Is This Important?
Address program. The OIG is currently review-              The new occupational safety and health
ing periodicals processing, the National Change      requirements require the Postal Service to
of Address program’s impact on the advertising       renew its commitment to and involvement in
industry, and the priority mail processing center    the safety and health programs. The law places
network. OIG plans to review the model for           the Postal Service in the same category as pri-      Inspector General Corcoran dedicates
assessing First-Class Mail delivery performance,     vate sector employers. It also prohibits the         the Space Discovery stamp in Orlando,
delivery confirmation, government mail, pre-         Postal Service from basing business decisions        Florida, on October 1, 1998.
ventive maintenance scheduling, and customer         upon Occupational Safety and Health Admin-
drop shipments. OIG also has ongoing work of         istration requirements. Fines and sanctions
the highway contract route operations and            may be imposed upon the Postal Service for vio-
freight rail trailer use, and plans to review air    lations of health and safety regulations included
and rail carrier performance, mail transport         in the Act.
equipment controls, and route conversions of
two-day and three-day mail.                          What Are We Doing to Add Value?
ELECTRONIC COMMERCE                                        The OIG is currently working on reviews
                                                     of the Postal Service’s implementation of the
Why Is This Important?                               new requirements and the effect of substandard
      With the advent of electronic media, the       facilities on the workplace. The Postal Service
Postal Service must find ways to keep the rev-       is required to perform comprehensive safety and
enue generated from remittance mail from             health evaluations to be completed by June 1,
being diverted into electronic means or must         1999. These evaluations are critical to setting
itself become an active participant in electron-     goals and correcting deficiencies. The OIG
ic services, while protecting the integrity of its   believes that these projects will provide the
customers’ electronic transactions.                  groundwork for additional work in this area.
      Customers are becoming more sophisticat-       Other reviews are planned to include evalua-
ed and technological innovations more accessi-       tion of the safety and health program plans for
ble, which is changing the way some Postal cus-      hazard communication, hazardous waste opera-
tomers communicate and do business. Elec-            tions, and emergency response. The OIG also
tronic alternatives such as electronic commerce      plans on looking at safety and health training
and banking will affect mail volumes, particu-       programs; processes used to identify major vio-
larly First Class Mail.                              lations and corrective action plans for these vio-
                                                     lations; and the Postal Service’s computerized
What Are We Doing to Add Value?                      record keeping.
     OIG is currently working on a number of
                                                     SYSTEMS AUTOMATION AND
issues that impact the electronic commerce           DATA INTEGRITY
area, including a survey of electronic commerce
products. The OIG has established a Comput-          Why Is This Important?
er Intrusion Team that will implement and sus-           Successful decision-making by Postal Ser-
tain a comprehensive computer intrusion and          vice managers depends on the accuracy and


                                                                                                           PAGE 13
          integrity of computer data. Further, to maintain    focus on conflict in the workplace, identifying
          excellent customer service and aggressively         and eliminating root causes of labor disputes,
          manage costs, the Postal Service must continue      building knowledge of labor contracts, and
          to develop automated solutions to process mail      improving the effectiveness of grievance-
          more efficiently and accurately.                    arbitration procedures to resolve labor disputes.
               Technology which is being used to develop            Tentative agreements were reached with
          an information-rich mailstream, will allow the      two of the unions in January 1999. The Postal
          Postal Service to keep pace with competition        Service and a third union have not reached an
          and continue to reduce labor and other related      agreement and the negotiation process will go
          costs.                                              to binding interest arbitration, which will prob-
                                                              ably last throughout the summer. The Postal
          What Are We Doing to Add Value?                     Service and unions were proud that these agree-
               As the OIG reviews all Postal operations       ments were achieved through negotiated settle-
          and activities, systems data is analyzed for        ments and approved by the union membership
          integrity. In past reviews, the OIG has identi-     rather than having a third party make impor-
          fied data integrity problems with several Postal    tant decisions on the agreements. In 1999,
          systems. The OIG reviews proposals for auto-        negotiations will begin to achieve new collec-
          mated systems to ensure that projected cost sav-    tive bargaining agreements with the fourth
          ings are sound and that management proposals        major Postal union and several smaller bargain-
          are based on proven technology. The OIG is          ing units.
          currently reviewing the Tray Management Sys-              In addition to the workplace changes, the
          tem, which is designed to automate mail han-        face of America’s workforce is changing dramat-
          dling in the Postal plants, and the development     ically. Issues of human diversity have taken on
          and deployment of the Point of Service ONE          prime importance. Diversity encompasses
          project, which will replace retail terminals at     much more than just race and gender; it also
          selected Post Offices nationwide. Since these       includes culture, religion, age, sexual orienta-
          projects involve investments of hundreds of mil-    tion, physical differences, and socioeconomic
          lions of dollars and are major multiyear devel-     status. Postal employees must build a team with
          opment and deployment efforts, we will contin-      the capacity to deliver services across an array of
          ue to perform reviews in these areas. In addi-      cultures. Diversity also impacts the business
          tion, OIG plans to review the corporate call        environment, which reflects rapidly changing
          management initiative, decision analysis report     demographics, attitudes, and economics. The
          process, automated data processing infrastruc-      Postal Service has several initiatives underway
          ture, and Priority Mail redesign.                   to establish appropriate representation of all
               The OIG also audits major automated            groups at all levels within the organization;
          management and information systems to deter-        training and skill-building; and additional work-
          mine whether applications are properly              place environment improvement measures.
          designed, and systems provide accurate data.
          The Postal Service reported that it has more
                                                              What Are We Doing to Add Value?
          than 500 computer systems. OIG plans to begin            The OIG has been reviewing labor and
          performing data integrity reviews of many of the    employee relations issues within the Postal Ser-
          major computer systems in the future.               vice in order to foster a healthy organizational
                                                              climate and to improve operational efficiency.
          LABOR-MANAGEMENT AND
                                                              The OIG issued reports on the grievance-
          EMPLOYEE RELATIONS
                                                              arbitration process, labor and management
          Why Is This Important?                              workplace disputes (grievance arbitration), and
               For the first time in many years, the Postal   the existing accident reporting process. The
          Service has reached agreements with two of the      OIG has additional work underway this year
          four major unions. Improving workplace rela-        that will examine the organizational climate
          tionships with employees remains a key objec-       initiatives and leave administration. The
          tive of the Postal Service. Postal initiatives      Inspection Service has local audits planned in



PAGE 14   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
the grievance arbitration process and staffing
and scheduling policies.

WORKERS’ COMPENSATION
Why Is This Important?
     For FY 1998, the Postal Service paid $566
million for employee injury claims. Containing
these costs is key to the Postal Service’s finan-
cial well-being. The Postal Service has placed
constant emphasis on employee safety and
health through a comprehensive program that
includes training and education; workplace
inspections; safety engineering and joint safety
committees; and the efforts of the National
Workers’ Compensation Task Force.
     The Postal Service has also implemented
aggressive accident prevention strategies that
emphasize management accountability and
thorough accident investigation. This permits
trend analyses and appropriate prevention and
control measures. A primary Postal Service per-
formance goal is to ensure a safer work environ-
ment by keeping lost workdays due to injury
below 2.04 days per 200,000 work hours.

What Are We Doing to Add Value?
     The OIG is conducting audits and investi-
gations designed to prevent and detect fraud,
waste, abuse, and mismanagement related to
the Postal Service health care program costs
and assist in the protection of the health and
welfare of the Postal Service’s work force. The
OIG initiated proactive investigative projects
to identify issues impacting health care
providers and billing practices. Other ongoing
OIG investigations include improper billing
practices, provider kickbacks, and conflict-of-
interest matters. In addition, OIG completed a
limited review of accident reporting processes
and has other related reviews ongoing.
     The Inspection Service continues to be a
major factor in helping to reduce workers’ com-
pensation expense by dedicating substantial
resources to investigating fraud associated with
individual injury claims submitted.




                                                    PAGE 15
PAGE 16   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
Overview




  DID YOU
  KNOW?
 How does the OIG handle Freedom of Information Act requests?
 Public requests for OIG information are processed pursuant to the
 Freedom of Information Act (FOIA) by OIG staff. FOIA requests
 may be made in writing, or the public can review information posted
 on the OIG website at www.uspsoig.gov.




                                           PAGE 17
                                                                 The following section provides an overview             taken. A constellation sheds greater light than
                                                                 of OIG and Inspection Service internal                 an individual star.
                                                                 operations. In order to differentiate the                   OIG believes in the fundamental values of:
                                                                 work reported by the OIG and the
                     DID YOU                                     Inspection Service, the pages containing
                                                                                                                        ◆    Teamwork, which combines our diverse
                                                                                                                             talents in a synergy that individual disci-
                     KNOW?                                       the Inspection Service work have been                       plines alone do not provide;
                                                                 color screened.                                        ◆    Leadership, which encourages staff to be
                                                                                                                             the best they can be;
      How diverse is the OIG?
                                                                 OFFICE OF INSPECTOR                                    ◆    Communication, which facilitates hon-
                                                                                                                             esty, openness, and consideration for the
      During Fiscal Year 1998, we                                GENERAL                                                     contributions and opinions of others;
      provided opportunities to 30
                                                                 AN INDEPENDENT MISSION,                                ◆    Creativity, which encourages fresh per-
      employees to move into new and                             A COMMON GOAL                                               spectives in the development of new
                                                                                                                             processes and techniques that will
      challenging positions. This is                                  OIG operates under the mandate of the
                                                                                                                             improve Postal operations; and
                                                                 Inspector General Act. Under the Act, OIG
      part of our culture and we will                                                                                   ◆    Conceptualization, which leads to viable
                                                                 conducts independent audits and investigations
      continue to work in this manner.                           of Postal Service programs and operations to                solutions based on OIG employees
                                                                 ensure the efficiency and integrity of the Postal           understanding Postal Service perspectives
      The OIG is committed to                                                                                                and needs.
                                                                 Service. OIG also has oversight responsibility
      attracting and retaining a diverse                         for all activities of the Postal Inspection Service.   OIG Culture
      and highly qualified work force                            OIG is required to keep the Postal Governors,                The OIG cultural philosophy demands
                                                                 management, and Congress fully and currently           that all people be treated fairly and be given the
      from government, private sector,                           informed about problems, deficiencies, and the         opportunity to develop their unique and diverse
      Postal Service, colleges and                               progress of corrective actions.                        skills and abilities to their fullest potential. The
                                                                      OIG is independent of Postal Service man-         OIG is committed to attracting a diverse and
      universities.
                                                                 agement and is under the general supervision of        highly qualified workforce from government,
                                                                 the nine Presidentially-appointed Postal Gover-        the private sector, the Postal Service, and col-
                                                                 nors who oversee Postal Service management.            leges and universities.
                                                                 Karla Corcoran was appointed the first inde-                 Many of the OIG staff have advanced
  OIG DIVERSITY                                                  pendent Inspector General at the Postal Service        degrees and are Certified Public Accountants,
                                                                 in January 1997. From 1988 until the appoint-          Certified Internal Auditors, Certified Informa-
                                                     310
100                                                              ment of Inspector General Corcoran, the Postal         tion Systems Auditors, and Certified Fraud
                                                                 Inspection Service served as the Office of             Examiners. Our criminal investigators attend a
                                                                 Inspector General.                                     rigorous training course at the Federal Law
80                                                                    Although independent of Postal manage-            Enforcement Training Center or equivalent
                                                                 ment, the OIG supports Postal management’s             professional academy. Employee education and
                                    193                          efforts to address CustomerPerfect!, the Voices of     professional certification enhances OIG’s ability
60                                                               the Customer, Employee, and Business. The              to provide service to our stakeholders. In addi-
                                                                 Inspection Service and the OIG share with              tion, the OIG is extremely proud of its efforts to
                      142
          126
                                                                 Postal management the common goals of                  provide all staff with meaningful opportunities
40                                                               improving customer satisfaction, employee and          for growth and career advancement.
                                                                 organizational effectiveness, and financial per-
                                                                 formance.                                              OIG Diversity
20                                                                                                                           Our office is an example of the strength
                                                                 OIG Vision and Values                                  that comes with diversity in the workplace. We
                                                                       The vision of the OIG is a constellation of      are especially proud of our diversity. Our cul-
 0                                                               talented people making a difference through            tural and professional diversity reflects the hir-
        MINORITIES    WOMEN   WOMEN & MINORITIES OIG EMPLOYEES   teamwork, service, and innovation. This vision
          41%         46%           62%              100%
                                                                                                                        ing of the most qualified staff possible from the
                                                                 is important because the mission of an Inspector       widest spectrum of candidates available. The
                                                                 General’s office is to shed light on the problems      OIG has attended numerous conferences, col-
                                                                 of its agency and ensure that corrective action is


                                                  PAGE 18        OVERVIEW
leges, and recruiting fairs in order to attract the       demonstrate superior performance and
most qualified diverse staff.                             share the vision and values of the organi-
     Of the 310 individuals on board as of                zation.
March 31, 1999, 142 are women and 126 are
minorities. Minorities include 92 Blacks (30          NOTABLE OIG ACHIEVEMENTS
percent), 19 Hispanics (7 percent), 13 Asians         OIG continues to grow as a new agency. Dur-
(4 percent), and 2 Native Americans (1 per-           ing the past six months, we have:
cent). U.S. Bureau of the Census estimated            ◆   Hired 84 talented new employees: 30                         OPEN CASES
data, as of November 1998, shows that the OIG             investigators and 54 evaluators.
                                                                                                       100
has exceeded the U. S. percentage of total pop-       ◆   Graduated our first class of 15 criminal                                                         4/1/98 - 9/30/98
                                                                                                                                           91              10/1/98 - 3/31/99
ulation for each of these groups except for               investigators from the Federal Law           90
Hispanic, which is 11.4 percent for the United            Enforcement Training Center.                 80
States. As we grow, we are continuing to
                                                      ◆   Recognized two OIG executives, Tom
address diversity, particularly Hispanics, by                                                          70
                                                          Coogan and Sylvia Owens, at the Postal
recruiting these groups. Our senior-level staff is                                                     60
                                                          Service National Executive Conference
35 percent female and 23 percent minority.                for their outstanding contributions in       50
     We have recruited people from numerous               establishing the OIG.                                                       45
federal agencies, including the Department of                                                          40                                                             37
                                                      ◆   Moved headquarters staff into six floors                                                               31
Defense, General Accounting Office, Secret
                                                          of permanent space designed to promote       30
Service, and Postal Service, as well as from local
                                                          efficiency, technology, and teamwork.        20                                             18
government, private industry, and colleges and                                                                   13           13
universities. These individuals bring with them       ◆   Established an office in Atlanta, GA, to                        8
                                                                                                       10    7                                    5
a wealth of different experiences, backgrounds,           allow better location of employee
                                                          resources, resulting in less travel time      0
and specialties that aid the OIG in performing                                                           CONTRACT AUDIT FACILITIES    REVENUE HEALTH CARE       EXECUTIVE
                                                          and expense.                                                               PROTECTION
its mission.
                                                      ◆   Established a relationship with the Cor-
Seeking to Be a Model Organization                        porate Manager of Internal Audit, Cana-
     OIG seeks to be a model organization by              da Post Corporation.
using the latest available technology, the most
                                                      ◆   Employed more investigative
innovative ideas of its employees, and the best           resources in order to identify poten-
business practices of both the public and private         tial criminal activity against the
sectors. Our goal is to become more efficient,            Postal Service. [See chart on the
effective, and economical. Some examples of               side.]
ways we are trying to achieve this goal are:
                                                      ◆   Created a computer intrusion unit
◆    Utilizing interdisciplinary project teams            to assist the Postal Service in pre-
     of investigators, evaluators, statisticians,         venting, detecting, and responding
     and attorneys for greater diversity and              to “cyber attacks” against critical
     objectivity.                                         Postal Service computer systems.
◆    Using technology-based teams for com-
     puter intrusion, information system              Protecting Whistleblowers
     audits, and electronic commerce.                      In March 1998, the Deputy Postmas-
                                                      ter General wrote to all Postal officers
◆    Analyzing more data in a shorter time
                                                      reaffirming employee rights to report to
     through specialized teams that use com-
                                                      the OIG without fear of retaliation. One
     puter retrieval and system command lan-
     guages.                                          of the important functions that the OIG
                                                      performs is to protect employees from
◆    Using electronic work papers and devel-          retaliation if they report wrongdoing to
     oping automated investigative programs
                                                      the OIG.
     that aid in the documentation and analy-
                                                           The Postal Service has nearly 800,000
     sis of data.
                                                      employees, and the OIG encourages them to
◆    Designing a unique pay-for-performance           report fraud, waste, abuse, and mismanagement.
     system that rewards employees who


                                                                                                       PAGE 19
                     The Postmaster General notifies officers that OIG is responsible for all Postal Service audits.




PAGE 20   OVERVIEW
     The Inspector General Act specifically pro-    OIG Approved as Co-Contracting
hibits supervisors from retaliating against         Officer’s Representative for Financial
employees who have made complaints or dis-          Statement Audits
closed information to the Inspector General.             As reported in the previous Semiannual
                                                    Report to Congress, the Board of Governors’
Audit Cognizance Letter Issued by Post-
                                                    Audit Committee considered the OIG’s request
master General
                                                    to serve jointly with the Service’s Corporate
     On January 7, 1999, the Postmaster Gener-
                                                    Finance Office as the Contracting Officer’s Rep-
al, in order to help Postal Service officers and
                                                    resentative on the contract with the indepen-
managers better utilize the audit services of the
                                                    dent public accounting firm. In March 1999,
OIG, notified all Postal Service officers of the
                                                    the Board of Governors approved the Audit
OIG’s responsibilities for audits within the
                                                    Committee’s recommendation to have OIG
Postal Service (see facing page.) The OIG per-
                                                    serve jointly as the Contracting Officer’s Repre-
forms audits involving systemic reviews but has
                                                    sentative. The Board of Governors has the sole
delegated audits at the Area, District, and local
                                                    authority to hire and retain the external auditors
levels to the Postal Inspection Service.
                                                    responsible for the certification of the financial
First Judicial Enforcement of Inspector             statements.
General Subpoenas                                                                                        Deputy Assistant Inspector Generals
                                                    Transitioning Responsibilities Ahead of              Richard Chambers, Ronnie Wainwright,
      The OIG was successful in enforcing two                                                            and Richard Trinidad.
                                                    Schedule
Inspector General administrative subpoenas for
                                                         In March 1997, the Postal Governors
bank records of a Postal Service employee. The
                                                    approved the designation of functions between
subpoenas were issued pursuant to an Inspection
                                                    the OIG and the Inspection Service. The orig-
Service investigation of allegations that the
                                                    inal plan to transition these functions called for
employee embezzled Postal funds. The OIG was
                                                    the OIG to assume Inspector General functions
required to seek enforcement of the subpoenas
                                                    over a five-year period ending in fiscal year
after the employee filed a customer challenge to
                                                    2001. However, in only two years, the OIG has
the subpoenas under the Right to Financial Pri-
                                                    undertaken most of the audit work identified in
vacy Act.
                                                    the designation of functions. Further, in March
      In an unrelated legal action, the OIG legal
                                                    1999, the OIG assumed responsibility for the
staff successfully enforced an Inspector General
                                                    review of Postal policies and regulations. We
administrative subpoena issued in support of an
                                                    now anticipate the transition of planned func-
Inspection Service investigation into alleged
                                                    tions from the Inspection Service to be com-
workers’ compensation fraud. The OIG was
                                                    pleted in three years rather than five. (See
required to enforce the subpoena because the
                                                    Exhibit A at the back of this report.)
subpoenaed party, a hospital, would not provide
the OIG with the requested record, contending       OIG Becomes a Member of President’s
the records were protected under a state confi-     Council on Integrity and Efficiency
dentiality statute.                                 Investigations Committee and Federal
      These subpoena enforcement actions were       Audit Executive Council
successful because of the teamwork of Postal             In our previous Semiannual Report to Con-
Inspectors, the United States Attorney’s Office,    gress, we reported that we were working with the
and the OIG legal staff.                            Office of Management and Budget and the Pres-
      Since the OIG’s inception in January 1997,    ident’s Council on Integrity and Efficiency to
the OIG has reviewed and issued over 1,100 sub-     become a contributing member of the Council.
poenas for the Inspection Service and OIG.          We felt our presence would be useful to the
During this six-month period, the OIG reviewed      Council and better serve and represent the
and issued 245 subpoenas; most of these were for    Postal Service. Although the request was
the Inspection Service in support of individual     denied, the Council subsequently invited the
workers’ compensation investigations.               Postal Service OIG to join the Investigations
                                                    Committee of the President’s Council on
                                                    Integrity and Efficiency and the Federal Audit



                                                                                                         PAGE 21
                                         Executive Council. These two actions will help       address this need, the OIG created a specialized
                                         to establish the Postal Service’s presence within    team that has the ability to access data, conduct
                                         the OIG community.                                   tests, and run exception reports from various
                                                                                              Postal information systems, resulting in statisti-
                                         Team-Building Meetings Between the
                                                                                              cally valid and supportable evidence.
                                         Postal Inspection Service and OIG
                                              In an effort to work together to best serve     CONTINUING TO ESTABLISH
                                         the overall interests of the Postal Service, the     A NEW OIG
                                         executives from the Inspection Service and the
                                                                                              Audit Resolution Process
                                         OIG have met several times during this period.
                                                                                                   The Postal Service does not have a formal
                                         As a result of these meetings, the group agreed
                                                                                              audit resolution process in place to address dis-
                                         to establish a process to address issues and
                                                                                              agreements between management and the OIG.
                                         resolve any concerns between the two agencies.
                                                                                              The OIG is working with members of the Postal
                                         We also agreed to seek ways to strengthen mutu-
                                                                                              Service to develop an audit resolution process.
                                         al cooperation, develop better coordination,
                                                                                              When developed, the process will be briefed to
                                         and commit to learning more about each other’s
OIG Computer Intrusion Team utilizes                                                          the Board of Governors Audit Committee.
                                         roles and individual responsibilities.
computer intrusion training                                                                   Once implemented, the OIG will review out-
sponsored by the OIG community.          Freedom of Information and Privacy                   standing disagreements for resolution.
                                         Act Requests
                                                                                              Pay-for-Performance System
                                              The OIG received and processed 59 Free-
                                                                                                   The OIG has designed a unique pay-for-
                                         dom of Information and Privacy Act requests.
                                                                                              performance system that allows managers to
                                         Only two requesters challenged an OIG deci-
                                                                                              recognize and reward employees who demon-
                                         sion to withhold information. In both
                                                                                              strate superior performance and share the vision
                                         instances, the Postal Service Appeals Office
                                                                                              and values of the organization. During the com-
                                         upheld the OIG’s decision to lawfully withhold
                                                                                              ing year, the entire OIG staff will be trained on
                                         the information.
                                                                                              the two main components of the new pay-for-
                                         Computer Intrusion Investigation                     performance system. The first component is a
                                         Training                                             360-degree evaluation that will be used to coach
                                               The OIG, which is responsible for investi-     and mentor employees. The second component
                                         gating computer intrusion of Postal Service sys-     is a performance measurement that will evalu-
                                         tems, is providing reimbursable training to          ate productivity and job competencies.
                                         approximately 60 professionals from 22 agen-
                                         cies, including the Postal Service, the National
                                         Aeronautics and Space Administration, the
                                         Department of Transportation, the Department
                                         of Energy, the Environmental Protection
                                         Agency, and the Department of the Treasury.
                                         Future courses will be offered to prosecutors
                                         from the Department of Justice. This training is
                                         designed to provide the most current informa-
                                         tion on computer intrusion detection, response,
The Inspector General thanks the
Dallas General Accounting Office         and investigation, and to train personnel to
Regional Manager for providing           identify and respond to attacks from computer
Dallas staff with temporary              hackers.
office space.
                                         Computer-Assisted Assessment
                                         Techniques Support Team
                                              OIG needs to obtain timely and accurate
                                         information in order to determine risk and
                                         materiality issues as well as to conduct effective
                                         investigations within the Postal Service. To


                               PAGE 22   OVERVIEW
                                                      Postal crimes, natural disasters, or other prob-
INSPECTION SERVICE                                    lems affecting the Postal Service.
     For more than two centuries, the role of              Uniformed Postal Police Officers provide
the Inspection Service has been to preserve the       security around the clock at Postal facilities
public’s trust in Postal services and products.       where risk, vulnerability, and history demon-                   DID YOU
Today, over 200 statutes related to crime against
the U.S. mail, the Postal Service, and Postal
                                                      strate the need for their presence. Postal Police
                                                      Officers at facility control centers monitor rob-
                                                                                                                      KNOW?
employees and customers are enforced by the           bery and burglar alarms to provide protection
Inspection Service. The mission of the Inspec-        for Postal employees, property, and assets.
                                                                                                           How long has the
tion Service has been refined over the years by       Postal Police Officers also escort high-value
Congress, statutes related to the U.S. Mail, cre-     shipments, such as registered mail and Postal        Inspection Service protected
ation of a separate OIG, and the needs and            remittances.                                         the U.S. mails?
requirements of the Postal Service and its cus-            Inspection Service’s professional technical
tomers. The Inspection Service meets its wide-        employees, including forensic specialists and        For over 200 years, Postal
ranging responsibilities through a nationwide         technical financial analysts, play a vital role in   Inspectors have protected the
complement of approximately 4,500 employees,          supporting the audit, investigative, and security
                                                      functions of the Inspection Service. They per-
                                                                                                           mail and U.S. citizens to ensure
which includes about 2,200 Postal Inspectors,
1,400 uniformed Postal Police Officers, and 900       form a variety of tasks including:                   that the public’s confidence in the
professional support associates. Through its          ◆   Developing and maintaining manage-               mail is not undermined.
investigations and audits, the Inspection Ser-            ment systems.
vice provides a vital service to the American
                                                      ◆   Providing forensic examinations of evi-
public as well as a substantial return on the
                                                          dence.
investment made by the Postal Service.
     The Chief Postal Inspector, who is               ◆   Developing, procuring, and deploying
appointed by the Postmaster General in consul-            electronic security and surveillance
tation with the USPS Board of Governors,                  equipment.
reports to the Postmaster General. Kenneth J.         ◆   Publishing policy, reports, manuals,
Hunter was appointed Chief Inspector in 1992.             handbooks, and consumer publications.
The national headquarters office of the Inspec-       ◆   Providing photography, video, and
tion Service is organized into functional groups          graphics support.
that report to Deputy Chief Inspectors for Busi-      ◆   Providing direct contact with Congress
ness Investigations, Criminal Investigations,             and the public.
Professional Standards and Resource Develop-
                                                      ◆   Supplying administrative support.
ment, and Administration. The Inspection
Service includes 23 field divisions, which report          Postal Inspectors nationwide work cooper-       Kenneth Hunter has been Chief Postal
directly to two Deputy Chief Inspectors for           atively with the Department of Justice and           Inspector since September 1992.
Field Operations.                                     other federal, state, and local law enforcement
     Field offices are supported at five Opera-       agencies on joint efforts. Inspection Service
tions Support Groups. Inspection Service              expertise is recognized internationally: Inspec-
Forensic Laboratories at five strategic sites sup-    tors are assigned to the U.S. National Central
port field office investigations with state-of-the-   Bureau of Interpol in Washington, DC, and to
art technology. Inspection Service offices are        Interpol Headquarters in Lyon, France. The
linked nationally via electronic systems with         Chief Postal Inspector chairs the Postal Securi-
on-line connections to the National Law               ty Action Group of the Universal Postal Union.
Enforcement Telecommunications System and             The Postal Security Action Group has estab-
the National Crime Information Center.                lished these priorities:
     Postal Inspectors throughout the United          ◆   Prevent customer injuries resulting from
States conduct criminal investigations, perform           dangerous goods in the mail.
audits, serve warrants and subpoenas, make
                                                      ◆   Prevent the loss or theft of mail entrust-
arrests for Postal offenses, and present evidence
                                                          ed to world Postal administrations by
to prosecutors for action. Day and night, Postal
                                                          customers.
Inspectors respond to emergencies involving


                                                                                                            PAGE 23
          ◆   Prevent revenue and asset losses of world      Inspection Service Produces Consumer
              Postal administrations.                        Protection Video
          ◆   Preserve customers’ confidence in the               The Inspection Service produced a video
              mail.                                          news release series entitled Fraud Against Older
                                                             Americans. The videos began running on tele-
          Postal Inspectors are active members of such
                                                             vision stations during National Consumer
          groups and councils as the:
                                                             Week and continued to air across the country
          ◆   Securities and Commodities Fraud Work-         throughout February. The series, which high-
              ing Group.                                     lighted how scam artists take advantage of
          ◆   Organized Crime Council.                       senior citizens, how they can protect them-
                                                             selves, and what the Inspection Service is
          ◆   International Policy Committee of the          doing to combat the problem, aired in approxi-
              International Association of Chiefs of
                                                             mately 30 cities, reaching an estimated 6 mil-
              Police.
                                                             lion viewers.
          ◆   Economic Crimes Council.
                                                             Child Exploitation
          ◆   National Health Care Anti-Fraud Asso-
                                                                  The Inspection Service co-sponsored the
              ciation.
                                                             Fifteenth National Symposium on Child Sexu-
          ◆   Financial Crimes Enforcement Network.          al Abuse during March 1999 in Alabama. This
          ◆   International Association of Financial         symposium was attended by more than 1,800
              Crimes Investigators.                          persons from across the country including local,
          ◆   Asset Forfeiture Policy Advisory Group.        state, and federal law enforcement personnel,
                                                             prosecutors, judges, child protection service
          ◆   National Law Enforcement Explorers’
                                                             workers, and mental health/medical profession-
              Committee.
                                                             als. This symposium, the largest of its kind, pro-
               Postal Inspectors work on child pornogra-     vided state-of-the-art training in the interven-
          phy cases with the Child Exploitation and          tion and investigation of child sexual abuse and
          Obscenity Section of the Department of Justice;    exploitation. The Inspection Service conduct-
          the National Center for Missing and Exploited      ed a block of training during the general sympo-
          Children; and the Standing Working Party on        sium, and, also concurrent with the symposium,
          Offenses Against Minors, an international orga-    held a special two-day in-service training con-
          nization sponsored by Interpol.                    ference for Postal Inspectors assigned to conduct
          NOTABLE INSPECTION SERVICE                         child exploitation investigations.
          ACHIEVEMENTS
          Chief Postal Inspector Testifies About
          Sweepstakes Promotions
               On February 24, 1999, the Chief Postal
          Inspector testified on sweepstakes promotions at
          public hearing in Indianapolis hosted by the
          Indiana Attorney General and other members
          of the National Association of Attorneys Gen-
          eral Subcommittee on Sweepstakes Promotions.
          Through the hearing, which received media
          coverage, a national audience was informed
          about sweepstakes issues and the need for state
          and federal governments to identify and seek
          better approaches to deter and punish those
          who commit sweepstakes fraud.




PAGE 24   OVERVIEW
Organization




  DID YOU
  KNOW?
 To whom does the Inspector General report?
 The Inspector General reports to the nine Postal
 Service Governors. The Inspector General does
 not report to the Postmaster General. Further, the
 Inspector General is required by statute to keep
 Congress informed of OIG activities.




                                            PAGE 25
                                                        NERAL                                        ASS
                                                                                                        ISTANT I
                                                      GE                                                        NS
                                                                                                                  P
                                                     R
                                                   TO PERFORMANCE                                   STRATEGIC




                                                                                                                                  EC
                                                                                                    PLANNING
                                              EC




                                                                                                                                    TO
                                                       Colleen McAntee
                                                                                                    & QUALITY
                                  SISTANT INSP




                                                                                                                                      RG
                                                       Deputy Richard Chambers
                                                       Transportation
                                                                                                    MANAGEMENT




                                                                                                                                        ENERAL
                                                       Debra Ritt                                   Ronald Merryman
                                                       Delivery/Support                             Internal Quality
                                                       Debbie Pettitt                               Jim Nugent
                                                       Financial Statements                         Electronic Commerce
                                                       John Seeba                                   Strategic Planning
                                                                                                    Forensic & Technical Services
                                AS




                                                       Developmental                                Information Technology
                                                       Tracy LaPoint                                Quality Assurance/Internal Affairs
                                                       Accepting/Processing

                 AL
               ER
             EN REVENUE
            G & COST                                                                                                               EMPLOYEE
                  R




                      CONTAINMENT                                             INSPECTOR
                                                                                                                                   Billy Sauls
       NT INSPECTO




                                                                                                                                                                       L
                      Sylvia Owens                                                                                                 Deputy Ronnie Wainwright




                                                                                                                                                                       GE NER A
                      Deputy Richard Trinidad
                                                                              GENERAL                                              Administrative Resources
                                                                              Karla Corcoran                                       Alan Lamoreaux
                      Revenue Generation
                      Wayne Goleski                                           Special Assistant                                    Human Resources
                                                                              Laura Whitaker                                       Connie Ambush
                      Revenue Protection
                      Mike Shiohama                                           Executive Assistant                                  Information Systems




                                                                                                                                                                       OR
                      Dan O'Rourke                                            Cindy Monahan                                        Dave Berran
     TA




                      Contracts                                                                                                    Policy & Procedures




                                                                                                                                                                   CT
                      Kim Stroud                                                                                                   Karen Shaffer
   IS




                                                                                                                                                               PE
 SS




                      Facilities                                                                                                   Labor Management
                      Bob Buettgens                                                                                                                                S
A




                      Health Care Fraud                                                                                                                       IN
                      Kathy Johnson                                                                                                                      NT
                                                                                                     CUSTOMER                              ASSISTA
                                                                                                     Norm Hancock
                                                    GENERAL                                          Computer Intrusion
                                                    COUNSEL TO THE                                   Howard Cox
                                                    INSPECTOR
                                                                                                                                           G E N ER AL




                                                                                                     Executive Investigations
                                                    GENERAL                                          Tommy Hampton
                                                    Thomas Coogan                                    Oversight
                                                                                                     Bob Pemberton
                                                    Legal Counsel
                                                    Kirt West                                        Hotline, Security & Safety
                                                                                                     Joe Oliva
                                                    Congressional
                                                                                                                                       OR




                                                    and Public Relations                             Consulting
                                                                                                     Quick Response
                                                                                                                                    CT




                                                                                                                                       E
                                                                                                                                  SP
                                                                                                                   N
                                                                                                       ASSISTANT I




                                 PAGE 26                ORGANIZATION
The following section describes the organi-        nications within the OIG; operates the local
zation of the OIG and the Inspection Ser-          and wide-area networks; provides computer
vice. The OIG is organized along the three         security and technical support to OIG staff; and
voices of the Postal Service CustomerPer-          manages agency-wide information systems.
fect! program: Voice of the Customer, Voice
of the Employee, and Voice of the Business.        ASSISTANT INSPECTOR GENERAL
The Inspector General, Counsel, and the            FOR PERFORMANCE (AUDIT)
five Assistant Inspectors General form the         Financial Audit Team — conducts audit
OIG Management Committee.                          work in support of the independent public
                                                   accounting firm’s annual financial audit opin-
                                                   ion and conducts other financial-related audits
                                                   and investigations to identify areas for financial
OFFICE OF INSPECTOR                                improvement.
GENERAL                                            Developmental Team — conducts audits,
                                                   reviews, and investigations of new or
ASSISTANT INSPECTOR GENERAL                        redesigned Postal Service systems, programs
FOR STRATEGIC PLANNING &                           and operations that are under development.
QUALITY MANAGEMENT
Forensic and Technical Services Team —             Accepting/Processing Team — conducts
provides technical support in such areas as sur-   audits, reviews, and investigations focusing on
veillance, evidence recovery, firearms, comput-    mail acceptance and collection operations, and
er forensics, and polygraph examinations;          mail processing and distribution processes.
maintains close liaison with technical experts     Transportation Team — conducts audits,
in the law enforcement community.                  reviews, and investigations focusing on inter-
Quality Assurance/Internal Affairs                 and intra-transportation and logistics opera-
Team — conducts internal reviews of OIG            tions, specifically addressing Postal Service fleet
operations and procedures to ensure that they      operations and contracts for airline, highway,
are effective and appropriate, and provides        and rail services.
advice on improving operations; conducts           Delivery/Support Team — conducts audits,
reviews of allegations made against OIG            reviews, and investigations covering delivery
employees.                                         service processes and operations for delivering
Strategic Planning Team — anticipates              the mail.
and plans for current and future changes in the
                                                   ASSISTANT INSPECTOR GENERAL
Postal Service, OIG operations, and technolo-
                                                   FOR REVENUE & COST
gy by identifying workload, providing research     CONTAINMENT
and statistical analysis, informing Postal Ser-    (INVESTIGATIONS)
vice employees and customers about the OIG         Revenue Protection Team — investigates
mission, and promoting the vision of the OIG.      bribery, kickbacks, embezzlement, and other
Internal     Quality     Team      — instills      cases involving revenue losses and contract
continuous internal improvement processes          fraud, such as defective pricing, product substi-
and facilitates internal communications            tution, and cost mischarging.
through orientation, teambuilding, and men-        Revenue Generation Team — examines
toring.                                            and evaluates the major sources of revenue
Electronic Commerce Team — conducts                from the marketing, advertising, stamp services,
reviews of Postal Service initiatives in the       retail, and international mail business opera-
emerging field of electronic commerce, includ-     tions, as well as Postal rate cases.
ing areas such as information-based indicia and    Facilities Program Team — conducts
electronic bill payment.                           audits, management reviews, and investiga-
Information      Technology       Team       —     tions of all aspects of facilities including repair,
manages computer operations and telecommu-         renovation, and new construction.


                                                                                                          PAGE 27
                                     Contract Audit Team — assists Postal con-           gates allegations of criminal activities and mis-
                                     tracting by conducting audits and investiga-        conduct involving Postal Service Career Exec-
                                     tions of purchasing activities and operations.      utive Service employees.

        DID YOU                      Health Care Fraud Team — identifies and
                                     investigates medical providers that have falsely
                                                                                         Computer Intrusion Team — detects and
                                                                                         investigates “computer hacking” and other
        KNOW?                        billed the Postal Service for work-related injury   high-technology crimes involving Postal Ser-
                                     claims, and systemic issues involving the           vice computers and telecommunications sys-
                                     Workers’ Compensation Program.                      tems; assists in the identification of computer
How does the OIG structure                                                               systems vulnerabilities so that appropriate
                                     ASSISTANT INSPECTOR GENERAL                         counter-measures may be implemented by
relate to Postal Service             FOR EMPLOYEE                                        Postal Service management.
CustomerPerfect! goals?              Information Systems Review Team —                   Consulting Services Team — assists Postal
                                     audits major automated Postal management
The OIG organizational                                                                   Service management by identifying best prac-
                                     and information systems to determine whether
                                                                                         tices for improving the effectiveness of Postal
structure was established to         applications are properly established and
                                                                                         Service operations. (Will be established in FY
effectively respond to the Voices    systems are properly designed to provide accu-
                                                                                         2000.)
                                     rate data to management; provides computer-
of the Customer, Employee and        assisted audit techniques to support OIG staff.     Quick Response Team — evaluates factual
                                                                                         issues promptly when time is of the essence.
Business and is outlined in a        Labor-Management Team — audits and                  (Will be established in FY 2000.)
chart on page 26 and in              evaluates labor and employee relations issues
                                     within the Postal Service to foster and             OFFICE OF GENERAL COUNSEL
Exhibit B.                           maintain a healthy organizational climate for       TO THE INSPECTOR GENERAL
                                     employees and improve operational efficiency.       Legal Counsel Team — provides legal
                                     Human Resources Team — delivers full-               advice to the Inspector General and OIG staff
                                     service human resources programs for the OIG        on criminal, civil, and administrative issues.
                                     in the areas of employee relations, pay and         Researches legal issues, processes subpoenas,
                                     benefits, retirement, awards, performance man-      reviews legislation, handles Freedom of Infor-
                                     agement, counseling, diversity opportunities,       mation and Privacy Act requests, provides
                                     and training.                                       ethics advice, and serves as liaison with the
                                     Administrative Resources Team — pro-                Postal Service Law Department and Depart-
                                     vides OIG staff with facilities, procurement,       ment of Justice legal staffs.
                                     financial, budget, and other services necessary     Congressional and Public Relations
                                     to accomplish the OIG mission.                      Team — serves as a liaison with members of
                                     Policy and Procedures Team — coordi-                Congress and their staffs, the Board of Gover-
                                     nates internal policies and procedures; reviews     nors, and the media. Responds to written and
                                     and comments on all Postal Service policies         oral inquiries, coordinates congressional
                                     and procedures.                                     testimony given by the Inspector General and
                                                                                         OIG staff, facilitates OIG responses to congres-
                                     ASSISTANT INSPECTOR GENERAL                         sional, Board of Governors’, and media
                                     FOR CUSTOMER                                        requests, and prepares the Semiannual Report
                                     Oversight Team — conducts audits and                to Congress.
                                     evaluations of Inspection Service programs and
                                     operations.
                                     Hotline, Safety, and Security Team —
                                     operates the OIG Hotline and assists in resolu-
                                     tion of issues where possible. Provides person-
                                     nel security services to the OIG and assists
                                     OIG in assessing physical security within the
                                     Postal Service.
                                     Executive Investigations Team — investi-

                           PAGE 28   ORGANIZATION
                                                         Inspection Service
                                                                                           FY 1999

                                                                                      Chief Postal Inspector
                                                                                           K. HUNTER



Inspector in Charge     Deputy Chief              Deputy Chief              Deputy Chief                Deputy Chief             Deputy Chief             Deputy Chief         Inspector in Charge
     Counsel            Administration        Business Investigations   Criminal Investigations     Field Operations East   Field Operations West       Prof. Standards &      Office of Inspections
                                                                                                                                                          Resource Dev.
 H. BAUMAN                 J. BELZ                  A. KIEL               M. BOSWELL                 L. CRAWFORD               J. DUPILKA               D. WRIGHT               J. SOMERSET


       AIC                   INC                        INC                      INC                 Inspectors in Charge    Inspectors in Charge               INC
  Deputy Counsel      Finance and Admin.              Finance                International                Atlanta -           Northern Illinois -     Strategic Plng. & Man-           AIC
     Z. HILL               Services              T. DENNENY                   D. HILL                    I. CARLE                I. GILLIS                agement Process         E. CRESPO
                        M. MUNLEY                                                                                                                            (Vacant)
                                                                                                         Northeast -             Rocky Mtn -
       AIC                                             INC                       INC                    M. AHAM                 M. COBOS
  Deputy Counsel                                                                                                                                              INC
                            INC                    Performance                  Security                  Mid Atl. -             Michiana -
    L. KATZ                                                                                                                                              Career Develop.
                         Congressional              (Vacant)                F. MARION                      Vacant             W. MITCHELL                   Division
                        & Public Affairs                                                                 Cincinnati -
                                                                                                                                 Southwest -             C. MURPHY
                        D. MIHALKO                     INC                                            R. BOWDREN
                                                                                 INC                                           A. HOLMES
                                                Fraud, Child Expl.
                                                                            Mail Theft &                  Memphis -
                                                     & Asset                                                                     Gulf Coast -          Manager Workforce
                              INC                                           Violent Crimes          J. STINCHFIELD
                                                  Forfeiture Grp.                                                                 K. KELL               Strategic Plng.
                          Information                                     A. CRAWFORD
                                                 L. MAXWELL                                                Miami -                                       N. ARROYO
                          Technology                                                                                               So. Ca -
                         R. COCCIA                                                                       M. GREY
                                                                                  INC
                                                                                                                               J. FREEMAN
                                                      INC                                                 Newark -                                          Manager
                                                                         Forensic & Tech. Ser-                                    Midwest -
                                                 Revenue Assets                                       J. SKIDMORE                                        Exec. Resources
                              INC                                                vices                                          R. TERLEP
                                                 Protection Prog.                                                                                       and Ldrship. Dev.
                      Corporate Information                                    Division                  NY Metro -
                                              S. SCHMERBECK                                                                       St. Paul -             E. LUCERO
                          Management                                         R. GEFFEN                  L. HEATH
                          R. LUERS                                                                                              C. COPLIN
                                                                                                         Phil. Metro -
                                                     Manager                                                                      No. Ca -              Manager Employee
                                                                               AIC                   B. CHAMBERS
                                                     ISOSG                                                                       D. DAVIS                 Development
                            Mangers                                       Money Laundering              W. Alleghny -
                                                     Chicago                                                                                            N. JOHNSON
                            ISOSGs                                         & Bank Secrecy                                        Northwest -
                                                  D. HARRIS                                           K. NEWMAN
                      BALA CYNWYD                                            C. GIUSTI                                         R. MORGAN
                                                                                                          San Juan -                                    Manager Training
                          L. KLAUS                                                                        E. RIOS                                         Assessment
                                                                               Manager
                            Newark                                                                         Tampa -                                        S. CLARK
                                                                                ISISG
                       V. BELLINGER                                            Memphis                J. SLAVINSKI
                       So. San Francisco                                      J. BIRCH                  Wash Metro -
                       K. PARAMORE                                                                     T. JOHNSON




                                                                                                                                                    PAGE 29
                                           ORGANIZATION
                                           PAGE 30
THIS PAGE TEARS OUT FOR YOUR CONVENIENCE
Goals




  DID YOU
  KNOW?
 What are the OIG “Values”?
 The OIG values are teamwork, leadership,
 creativity, communication, and conceptualization,
 and are incorporated into a “TLC3” 360-degree
 employee feedback system.




                                            PAGE 31
                                                                         and matures, our long-range goals are aligned
           The following section describes the Postal
                                                                         with the needs of the Postal Service. OIG exec-
           Service, OIG, and Inspection Service goals
                                                                         utive leadership and a diverse group of staff sup-
           for improving financial performance, meet-
                                                                         ported by consultants from the Federal Quality
           ing customer expectations, and ensuring
                                                                         Consulting Group have begun to shape the
           employee satisfaction. In addition, this sec-
                                                                         pathway to OIG’s future.
           tion includes the OIG Annual Performance
                                                                              OIG management has decided to
           Plan and the OIG’s actions to monitor the
                                                                         work within the Malcolm Baldrige frame-
           Postal Service’s implementation of the Gov-
                                                                         work not only because the Postal Service has
           ernment Performance and Results Act.
                                                                         adopted this model but because it makes good
                                                                         business sense. This process will be the guiding
          LOOKING AHEAD TO                                               force in developing OIG’s annual performance,
          2000 AND BEYOND                                                human resource, information technology, and
                                                                         budget plans.
               As the OIG continues to build a sound
          infrastructure, it is able to focus a larger part of
          its energy and resources on preventing and
                                                                         STRATEGIC PLANS
          detecting fraud, waste, abuse and mismanage-                        OIG and the Inspection Service Strategic
          ment, and promoting effectiveness, efficiency,                 Plans, FY 1998–2002, parallel the USPS Strate-
          and economy. The OIG will continue to work                     gic Plan by providing a structure to support Cus-
          with the Inspection Service to refine our respec-              tomerPerfect! efforts to address the needs of the
          tive roles to support the CustomerPerfect! goals.              Voices of the Customer, Employee, and Busi-
                                                                         ness. Postal Service, OIG, and Inspection Ser-
          OUR ROADMAP TO                                                 vice goal statements are summarized in the
          THE FUTURE                                                     chart below.

              The OIG is reviewing its five-year strategic
          plan to ensure that, as the organization grows

                                                                                                                     INSPECTION
             GOAL                POSTAL SERVICE             OIG EXTERNAL                 OIG INTERNAL                SERVICE GOAL
             CATEGORY            GOAL STATEMENT             GOAL STATEMENT               GOAL STATEMENT              STATEMENT

                               Improve customer           Improve customer             Improve OIG customer        Increase customer
                               satisfaction by offering   satisfaction by assessing    satisfaction by providing   confidence in the use
          VOICE                superior customer value    USPS performance in          timely, value-added         of the mail. Improve
          OF THE               in each market and         providing customer           services to the             Postal Service
                               customer segment           value and meeting            Governors, Postal           performance.
          CUSTOMER
                               that we target.            public-service               management, Congress,
                                                          responsibilities.            employees, and
                                                                                       customers.


                               Improve employee           Improve employee             Improve OIG employee        Ensure employee
                               and organizational         and organizational           and organizational          safety. Enhance
                               effectiveness by having    effectiveness by             effectiveness by            the Inspection
                               the right people in the    assessing USPS               building an organization    Service workplace
          VOICE                right place with the       performance in having        that encourages,            environment to
                               right tools at the right   the right people in the      rewards, and fosters        improve
          OF THE
                               time to consistently       right place with the         dedication, teamwork,       organizational
          EMPLOYEE             provide superior           right tools at the right     excellence, and             performance.
                               customer value and         time in a quality            productivity.
                               ensure commercial          workplace
                               viability in a dynamic     environment.
                               market.


                               Improve financial          Improve USPS                 Improve OIG                 Prevent loss of
                               performance to assure      financial self-sufficiency   performance by              revenue and assets.
                               commercial viability as    by assessing its business    adopting the most           Reduce costs.
          VOICE                a service provider for     strategies and               efficient, effective, and   Improve Inspection
          OF THE               the worldwide              performance.                 innovative business         Service technological
          BUSINESS             movement of messages,                                   practices.                  capabilities.
                               merchandise, and
                               money.


PAGE 32   GOALS
                                                    and to define underlying strategies to achieve
ANNUAL                                              these goals. Consequently, the OIG is taking an
PERFORMANCE PLAN                                    active interest and role in the Postal Service’s
     The OIG is committed to conducting             Results Act efforts have involved assessing the
audits, evaluations, reviews, and criminal inves-   Postal Service's implementation of the General
tigations that will add significant value to the    Accounting Office’s reported observations on
Postal Service. Through a rigorous planning         its draft strategic plan and preliminary annual
and evaluation process, we have identified eight    performance plan. In general, the Postal Ser-
performance goals and measures. These goals         vice included in the additional information
are supported by more than 146 projects that        identified by the General Accounting Office in
addressed such areas as Y2K, transportation,        its reports on the Postal Service’s plans. How-
grievance and arbitration, retaliation, financial   ever, the OIG suggested that future plans could
statements, vehicle replacement, facilities, and    be further enhanced by including more detailed
computer security.                                  discussion in specific areas.
                                                          In addition to these activities, OIG identi-
GOVERNMENT                                          fied other Results Act-related activities that the
                                                                                                         Consultants from the Federal Quality
PERFORMANCE AND                                     OIG will be considering in future reviews.           Institute help OIG employees identify
                                                    These include: (1) assessing the adequacy and
RESULTS ACT                                         reliability of data and management information
                                                                                                         issues to include in the Strategic
                                                                                                         Planning Process.
     The OIG is developing a plan to examine        and accounting systems supporting Results Act
Postal Service efforts to develop and use perfor-   plans and reports; (2) verifying, validating, and
mance measures and to verify and validate           analyzing the results in annual performance
selected data sources. In 1993, Congress passed     plans; (3) analyzing the validity and appropri-
the Government Performance and Results Act          ateness of performance measures and goals; (4)
(Results Act) mandating Federal agencies to         conducting program-evaluation-type audits and
establish strategic planning and to prepare         reviews; and (5) addressing labor-management
annual performance plans, beginning with a          issues and their potential effect on the Postal
plan for FY 1999. The annual performance            Service’s goals.
plans sets out measurable goals that define what
will be accomplished during a fiscal year. The
Results Act also requires that program perfor-
mance report comparing actual performance
with performance goals be submitted no later
than March 31 of each year, following submis-
sion of the plan. The first program report, for
FY 1999, is due March 31, 2000.
     In 1998, the House of Representatives
passed a bill (H.R. 2883) that would, among
other things, codify certain responsibilities on
the part of Inspectors General for reviewing
Results Act activities. The House Government
Reform and Oversight Committee sent a letter
to certain Inspectors General asking them to
implement review plans as envisioned by H.R.
2883, regardless of whether or not the bill
becomes law.
     The Postal Service’s CustomerPerfect! sys-
tem complements the Results Act and supports
the law’s mandate to establish a set of measur-
able goals to uphold the Postal Service’s mission




                                                                                                           PAGE 33
PAGE 34   GOALS
Voice of the Customer




   DID YOU
   KNOW?
 What is the OIG’s primary responsibility?
 The primary responsibility of the OIG is to
 prevent, detect, and report fraud, waste,
 abuse, and mismanagement, and to promote
 efficiency in the programs and operations of the
 Postal Service.




                                             PAGE 35
          The following section highlights audits,          OIG suggestions, and actions planned should
          reviews, and investigations done by the           enhance the Postal Service’s FY 2000 Annual
          OIG and the Inspection Service in support         Performance Plan. (OIG DS-MA-99-001)
          of the Postal Service’s Voice of the Cus-         COMPLIANCE WITH THE
          tomer. In order to differentiate the work         GOVERNMENT PERFORMANCE
          reported by the OIG and the Inspection            AND RESULTS ACT
          Service, the pages containing the Inspec-              This OIG report is the second in a series of
          tion Service work have been color screened.       reports addressing Postal Service compliance
                                                            with the Government Performance and Results
                                                            Act. While the Postal Service has undertaken
          OFFICE OF INSPECTOR                               a multiyear initiative to address Government
          GENERAL                                           Accounting Office suggestions to improve the
                                                            Postal Service’s strategic plan, the OIG suggest-
          SUGGESTIONS TO ENHANCE                            ed that the next plan could be further enhanced
          THE POSTAL SERVICE’S FY 2000                      by a discussion of how labor-management rela-
          ANNUAL PERFORMANCE PLAN
                                                            tions could affect the achievement of Postal
               The OIG assessed Postal Service compli-
                                                            Service goals. Postal Service management
          ance with the Government Performance and
                                                            agreed with these observations and suggestions
          Results Act and implementation of the Gener-
                                                            and planned to implement actions accordingly.
          al Accounting Office’s recommendations to
                                                            (OIG DS-MA-99-004)
          improve the Postal Service annual performance
          plan. In general, the Postal Service’s FY 1999    ASSESSMENT OF PRIORITY MAIL
          annual performance plan and FY 2000 prelimi-      NETWORK CHRISTMAS PLAN
          nary annual performance plan, include the addi-   FOR 1998
          tional information identified by the General           The OIG and the Inspection Service joint-
          Accounting Office report on the preliminary       ly reviewed planning for the 1998 Christmas
          plan. However, since the FY 1999 preliminary      season Priority Mail processing. In April 1997,
          plan has been finalized, the OIG suggested the    a contractor was awarded a $1.7 billion, five-
          FY 2000 annual performance plan could be fur-     year contract to establish a network of ten Pri-
          ther enhanced by including information in the     ority Mail processing centers on the East Coast.
          following areas:                                  Five of the ten sites were operational by Decem-
                                                            ber 1997, and the remaining five sites were acti-
          ◆   The Voice of Business goals should
                                                            vated by June 1998.
              include current levels of performance or
                                                                 During the 1997 Christmas season, the
              baselines.
                                                            contractor experienced problems in processing
          ◆   Verification and validation of data should    Priority Mail. To avoid repeating problems in
              describe challenges involved in obtaining     1998, the Postal Service and the contractor
              high-quality performance data; highlight
                                                            developed the Christmas Plan for 1998. The
              the verification and validation proce-
                                                            plan addressed issues such as staffing, facilities
              dures by presenting them separately;
                                                            and capacity, transportation, and contingencies
              report separately the general strategies
              used for verification and validation and      with anticipated improvement. However, the
              those that apply to specific performance      OIG and Postal Inspection Service review indi-
              data; briefly and clearly identify the        cated a high potential for mail processing prob-
              source of data of each reported measure       lems in at least two areas:
              or indicator; and report the data stan-       ◆   inadequate facility capacity at one center;
              dards that information providers are              and
              required to meet.
                                                            ◆   limited airlift capacity serving four
          ◆   The Y2K initiative discussion should              centers.
              include goals, indicators, and targets to
              gauge progress.                                   An interim report, prepared during an
                                                            ongoing Priority Mail network audit, was issued
              Management comments were responsive to


PAGE 36   VOICE OF THE CUSTOMER
to inform management of OIG and the Inspec-           test mail pieces are intended to be undetectable
tion Services’ observations and immediate con-        by Postal employees. During this period, the
cerns. According to Postal Service manage-            OIG addressed allegations of the creation of a
ment, the actual results of the 1998 Christmas        separate mailstream for external First-Class test
season were better than those of the 1997             mail to inflate the performance scores.                       DID YOU
Christmas season. Although similar problems
occurred, they were mitigated by the planning
                                                            Two reviews of management practices con-
                                                      ducted by the OIG and the Postal Inspection
                                                                                                                    KNOW?
effort of the Postal Service and the contractor.      Service disclosed that test mail had been han-
Postal Service management does recognize the          dled differently from other First-Class mail.         How many employees work
long-term capacity problems at one center. As         However, as a result of a prior Postal-wide audit,
a result of our report, contingency plans were        the program had been changed and these prac-          at the OIG?
developed to divert the mail to other locations       tices were already discontinued at the two dis-       As of March 31, 1999, 310
and increase the use of surface transportation at     tricts reviewed. No additional management
                                                                                                            employees were on board and
the four centers with limited airlift capacity.       action was required. The OIG will continue to
(OIG DA-LA-99-001)                                    monitor the test mail program nationwide for          another 51 applicants had
                                                      possible future reviews. An audit of the inde-
UNDERPAYMENT OF POSTAGE                                                                                     received job offers. Our goal is
                                                      pendent public accounting firm’s External First-
     The OIG conducted a review of a Postal           Class test mail program methodology is                to reach a staff level of 480 by
Service decision to assess a small weekly news-       planned. (OIG DS-LA-99-001 and DS-LA-99-
paper for underpayment of postage on past mail-                                                             September 1999. We believe
                                                      002)
ings. The OIG found that Postal Service offi-                                                               this goal is attainable because of
cials followed proper policy and procedures in        DELIVERY SERVICE
                                                                                                            extensive college recruiting.
assessing the newspaper for underpayment of                The OIG investigated a complaint regard-
postage once it was identified. The review            ing the quality of operations of a Mississippi
found that the newspaper was not eligible for         Post Office. Our limited review disclosed that
either the preferred in-county rates that it had      Postal Service management was aware of the
been taking or the periodicals mailing privi-         mail service problems and had taken some cor-
leges.                                                rective actions. Discussions with the district
     The newspaper publisher had appealed             management and a review of FY 1998 perfor-
both the assessment to recover the underpay-          mance measures confirmed that the Post Office
ment and the determination of ineligibility for       had experienced operational challenges. The
the preferred rates. While the assessment was         district manager advised that the Postmaster
upheld, no decision was rendered on the issue of      was removed for performance-related issues in
eligibility. Postal Service management has            1998 and said the current Officer-in-Charge is
agreed to discuss payment options with the            making progress toward remedying the opera-
newspaper publisher and determine if the news-        tional problems. The Postal Service anticipates
paper meets the eligibility requirements of a         the selection of a permanent Postmaster in the
general publication. (OIG DS-MA-99-003)               near future. The OIG referred this issue to the
                                                      Postal Inspection Service for potential future
EXTERNAL FIRST-CLASS TEST
                                                      audit attention and notified the requesting
MAIL
                                                      member of Congress. (OIG PA-CR-99-001)
     The external First-Class mail program uses
a test mail process to measure the time it takes      LOBBYING
letters, flats, and postcards to go from deposit to        A referral alleged that a Postal Service offi-
delivery. This measurement provides national,         cial sent members of Congress letters in viola-
area, performance cluster, and city estimates of      tion of the law against using appropriated
delivery time, which are compared with Postal         money for lobbying activities. In consultation
Service goals.                                        with the Department of Justice, the OIG agreed
     The Postal Service contracted with an            that the Department of Justice guidelines were
independent public accounting firm to measure         not violated. (OIG CL-CR-99-002 and CL-
the performance of First-Class mail service in        CR-99-003)
selected zip code areas. The external First-Class


                                                                                                             PAGE 37
                                                                                                             Forty-six percent of the inquiries pertained to
                                                       EXECUTIVE INVESTIGATIONS
                                                                                                             Postal employment, postage meters, and cus-
                                                             The OIG opened 17 investigations of
                                                                                                             tomer-service problems. OIG-related matters
                                                       executive-level Postal Service employees during
                                                                                                             accounted for the remaining 13 percent of
                                                       this reporting period. The alleged violations
                                                                                                             inquiries, with the vast majority pertaining to
                                                       included conflicts of interest, nepotism, miscon-
                                                                                                             employee and labor management issues.
                                                       duct, splitting of purchases, favoritism, and vio-
                                                                                                                   Information received through Hotline
                                                       lations of anti-lobbying provisions. Cases that
                                                                                                             complaints is a valuable tool in identifying sys-
                                                       contained evidence of criminality were referred
                                                                                                             temic issues within the Postal Service. The
                                                       to the Department of Justice for a prosecutorial
                                                                                                             OIG records the applicable data from each com-
                                                       decision.
                                                                                                             plaint and identifies trends that may require a
                                                             Also during the reporting period, 13 cases
                                                                                                             Postal-wide review. For example, complaints
                                                       were closed. In one case, a Postal official pled
                                                                                                             received through the OIG Hotline resulted in a
                                                       guilty to one charge of conflict of interest. The
                                                                                                             systemic review of equal employment opportu-
                                                       official was engaging in employment discussions
                                                                                                             nity processing by district managers. However,
                                                       with a contractor while reviewing the contrac-
                                                                                                             the OIG Hotline does not take the place of for-
                                                       tor’s proposals and advising Postal officials on
                                                                                                             mal avenues to resolve disagreements. These
                                                       the qualifications of the contractor.
                                                                                                             avenues include: (1) contractual grievance-
                                                             The results of another investigation sub-
                                                                                                             arbitration procedures established under the
                                                       stantiated allegations that a Postal official split
                                                                                                             National Agreement between the Postal Ser-
                                                       purchases to circumvent contract purchasing
                                                                                                             vice and Postal unions, which provide a forum
                                                       thresholds. The official also awarded a contract
                                                                                                             for mediating disputes involving the interpreta-
                                                       to the spouse of a Postal employee, which is
                                                                                                             tion of rules, the perception of offensive behav-
                                                       specifically prohibited by Postal regulations.
                                                                                                             ior, or adverse management actions; and (2) the
                                                       The official had the same contractor perform
                                                                                                             equal employment opportunity process estab-
                                                       work at the official’s private residence. This
                                                                                                             lished under the purview of federal guidelines as
                                                       case was referred to management for adminis-
                                                                                                             an alternative mediation arena for allegations of
                                                       trative action. The Area vice president took
                                                                                                             discrimination.
                                                       action to correct the breakdown in procedures
                                                                                                                   For OIG matters that do not require inves-
                                                       that allowed the improprieties to transpire.
                                                                                                             tigation or audit, OIG may request Postal man-
                                                       OIG HOTLINE                                           agement to take appropriate action. However,
HOTLINE CONTACTS                                            The OIG Hotline serves as an effective and       OIG is very careful to respect the confidential-
                                                       convenient avenue for employees, contractors,         ity of the individuals contacting the Hotline.
MISCELLANEOUS,
                                                       customers, and others to anonymously or confi-        For non-Postal complaints, OIG refers these
 USPS-RELATED              OIG RELATED
                                                       dentially report situations that could threaten       matters to other agencies, including the Depart-
                        13%                CONSUMER
                                            ADVOCATE   the economy, efficiency, or effectiveness of          ment of Energy, the Department of Health and
  42%                                    4%            Postal Service programs and operations. The           Human Services, and the Department of the
                                                       Hotline provides OIG evaluators, special              Treasury.
                                                       agents, and Postal Inspectors with a variety of             OIG’s national toll-free hotline number
                                                       leads involving possible criminal violations and      (1-888-USPS-OIG) is staffed from 7:00 a.m. to
                                                       administrative irregularities. In addition to calls   7:00 p.m., Monday through Friday, except
                                                       concerning fraud, waste, abuse, and mismanage-        federal holidays. Callers to the Hotline are not
                 41%                                   ment, the Hotline is used to refer calls concern-     required to identify themselves, and if they do
                                                       ing alleged assaults, threats, and potentially vio-   not want to speak to a Hotline analyst, they can
          INSPECTION SERVICE
                                                       lent work situations for appropriate attention.       mail, e-mail, or fax their complaint. The mail-
                                                            The Hotline received more that 7,500             ing address is United States Postal
                                                       inquiries during this reporting period. Approx-       Service, Office of Inspector General,
                                                       imately 41 percent of these inquiries pertained       Attn: Hotline, 1735 N. Lynn Street, Arlington,
                                                       to Inspection Service jurisdictional matters.         VA 22209-2020. The e-mail address is
                                                       These inquiries dealt with areas such as mail         hotline@uspsoig.gov. The fax number is (703)
                                                       fraud, theft, vandalism, and mail tampering.          248-2259.



                                         PAGE 38       VOICE OF THE CUSTOMER
                                                      effective and efficient movement of the mail.
INSPECTION SERVICE                                    Reported opportunities for improvement relat-
                                                      ed to the logistics and transportation organiza-
PRIORITY MAIL PROCESSING                              tional structure, the Transportation Information
AND DELIVERY AUDIT
                                                      Management Evaluation System data inputs,
     The Inspection Service completed an audit        dispatch discipline, and air-to-surface mail rout-
of Priority Mail processing and delivery at five      ing. Implementation of the recommendation
performance clusters within five Postal Areas.        regarding air-to-surface mail is projected to save
The review disclosed a lack of uniformity in          $43 million annually. Management agreed with
management procedures for delivery of Priority        the recommendations, except those related to
Mail that met the service standards. There was        organizational structure. (IS 023-1223496-PA (1))
also confusion in the field regarding the report-
ing of delayed Priority Mail. Lack of reliable air    TWO-DAY AND THREE-DAY MAIL
transportation by commercial carriers was cited       SERVICE
as a significant obstacle in making timely deliv-           The Inspection Service conducted an audit
ery of Priority Mail. Additional factors were:        of two-day and three-day mail service within a
(1) the manner in which facilities process Prior-     Postal Area to identify best practices and to
ity Mail in manual operations and record it in        determine the effectiveness, efficiency, and
the Management Operating Data System; (2)             economy of processing and transportation. The
the absence of a uniform commitment to pro-           audit identified opportunities for improvement
cessing and delivering Priority Mail; and (3)         in the areas of surface transportation, dispatch
uneven preparation of mail for collection.            discipline, scanning, and Area-wide communi-
Together, these factors affect the Postal Ser-        cation of best practices. Implementation of rec-
vice’s ability to provide reliable, consistent, and   ommendations in these areas would provide
timely service. To improve the deficiencies           better two-day and three-day mail service.
identified in Priority Mail service, it was recom-    Management agreed with the audit recommen-
mended that Postal Service officials issue a writ-    dations. The Postal Area established a goal to
ten policy to the field outlining the Postal Ser-     reduce the mail flights within 500 miles by 30
vice’s corporate philosophy about the processing      percent in FY 1999 and 50 percent by FY 2000.
and delivery of Priority Mail to ensure that all      The Postal Area will use a percent scanned
performance clusters handle it in the same man-       indicator to measure the effectiveness of
ner. A recommendation also was made that              two-day and three-day scanning operations at
instructions be issued to plant managers clarify-     each airport and to increase the percentage of
ing how delayed Priority Mail should be report-       two-day mail given to airlines for earlier banks
ed. (IS 022-1244541-PA(1))                            of flights. (IS 038-1243860-PA(2))

LOGISTICS AND                                         AREA AVIATION SECURITY
TRANSPORTATION AUDIT                                  PROGRAM
     The Inspection Service conducted a                    The Inspection Service conducted an audit
Postal-wide audit on logistics and transporta-        of a Postal Area to determine if established pro-
tion to determine the consistency and effective-      cedures for “target mail,” as set forth in the
ness of the transportation organizational struc-      revised Aviation Security Guidelines dated May
ture; the reliability, integrity, and usefulness of   27, 1998, were being followed. Attention
the transportation information systems data;          focused on the handling of 100 parcels, each
and whether management was monitoring and             weighing over one pound, destined for interna-
controlling the mail transportation function for      tional sites and U.S. military installations. The
two-day and three-day First-Class mail to ensure      parcels were deposited in collection boxes
the best combination of service and cost. The         domestically by Postal Inspectors. Seventy-six
audit concluded that a more proactive approach        percent of the test mailings designed to be
to managing transportation would allow man-           returned-to-sender as “target mail” reached
agement to better predict mail flows and control      their overseas destination. Thirty-four percent
employee complements to accomplish the most           of the collection boxes reviewed were not prop-



                                                                                                           PAGE 39
          erly labeled to notify customers of the proper        Operating Conditions Report for Accounting
          acceptance procedures for target mail. Manage-        Period 5, year-to-date, FY 1999, disclosed reduc-
          ment agreed that greater attention needed to be       tions in delayed mail at the plants when com-
          provided at all districts within the area to ensure   pared with the same period last year. During the
          compliance with the procedures.                 (IS   first two quarters, the Inspection Service issued
          037-1258944-PA(2))                                    16 reports identifying areas warranting immedi-
                                                                ate corrective action. Common problems
          REGISTERED MAIL HANDLING
                                                                included delayed mail, underreporting of
               The Inspection Service conducted audits at       delayed mail and mail on-hand, working mail
          three districts to determine if: (1) the handling     out of sequence, failing to maintain proper con-
          of registered mail by platform operations was in      trols (color codes), excess mail transport equip-
          compliance with established procedures; (2)           ment at some sites, and service failures by trans-
          proper controls were in place to effectively          portation contractors. Management used the
          enforce the Security Seat Program; and (3) reg-       information provided in the reports during
          istry clerks were performing their duties and         weekly teleconferences with operations support
          providing necessary levels of security. The           staff. The items identified have been resolved by
          audits disclosed exceptions to established guide-     management or are in the process of being
          lines in the areas of platform operations and reg-    resolved. (IS 071-1254358-SI(2))
          istry security operations. Highway contract
          route trailers were not secured with locks,           ARROW LOCK AND KEY REVIEW
          accountability for registered mail was not always          The Inspection Service conducted a review
          maintained, the registry cage was not complete-       of the arrow lock and key system, including
          ly secure, remittances were improperly stored,        accountability procedures at two Texas Post
          and bank deposit procedures were not followed.        Offices. Loose internal controls governing the
          Management concurred with all recommended             accountability of Arrow keys had raised con-
          corrective actions and began implementation.          cern. Recommendations were made to replace
          (IS 314-1250790-PA(3), IS 314-1250792-PA(3),          all existing Arrow locks, develop a system of
          and IS 311-1262203-PA(3))                             controls, and initiate a program to ensure that
                                                                all apartment wall panel boxes are brought into
          REVIEW OF UNDELIVERABLE                               compliance. Management agreed with the rec-
          MAIL OPERATIONS AT                                    ommendations. (IS 072-1269061-SI(2))
          PROCESSING CENTER
               The Inspection Service conducted a review        MAIL THEFT
          into the potential for increased operating costs            Postal Inspectors are committed to reduc-
          resulting from improper handling of undeliver-        ing mail theft to maintain the public’s confi-
          able mail in the Processing and Distribution          dence in the Postal Service and preserve the
          Center. Inspectors recommended close moni-            sanctity of the mail. Postal Inspectors are cur-
          toring and supervision of undeliverable mail          rently working with major mailers to prevent
          operations in plants and delivery units to reduce     mail theft and related problems. Mail losses
          multiple handling of mail and delayed mail vol-       attributed to the Postal Service are often actual-
          umes. Inspectors recommended that customer            ly the responsibility of business “partners,”
          mail pieces have correct ZIP+4 add-ons and            occurring at some point in the process of mail
          barcodes to reduce the volume of missent and          acceptance, transportation, or delivery. Howev-
          miscoded mail. Management agreed to develop           er, thefts by employees remain a concern. Dur-
          better standard operating procedures. (IS 070-        ing this reporting period, Postal Inspectors made
          1236715-SI(1))                                        2,589 arrests and obtained 2,212 convictions
                                                                related to mail thefts. Of those figures, Postal
          NATIONAL OBSERVATION OF                               employees represented approximately 11 per-
          MAIL CONDITIONS REVIEW                                cent of the arrest and 12 percent of the convic-
                The Inspection Service conducted a              tion statistics.
          national review of mail conditions involving
          facilities in each of the 85 Postal Districts. The



PAGE 40   VOICE OF THE CUSTOMER
Airline Employee Steals Registered Mail                the same address, including the names of other
     An employee of a major airline recently           tenants in the complex. Surveillance video
pled guilty to mail theft after Postal Inspectors      captured the suspect breaking into the mailbox
arrested him for stealing registered mail worth        panels. A search of the suspect’s apartment
over $600,000. The individual was also respon-         revealed hundreds of pieces of stolen mail,
sible for thefts that resulted in over $200,000 in     including credit card applications and mer-
claims that had to be paid by the Postal Service.      chandise orders.
Bank Employees Steal Mail Deposits                     MAIL FRAUD
     Postal Inspectors apprehended a bank                   To preserve the public’s confidence and
mailroom supervisor and his assistant for steal-       trust in the U.S. Mail, the Inspection Service
ing bank deposits from the mail. The suspects          investigates a variety of mail fraud schemes
admitted stealing from the bank’s mail for a year      Inspectors actively work with law enforcement
and are responsible for the loss of several thou-      and regulatory groups on various fraud-related
sand dollars in cash and over $180,000 in              task forces, leveraging resources and combining
checks.                                                efforts to target operators that use the mail for
Stolen Mail Used to Commit Bank Fraud                  fraudulent purposes. The Inspection Service is
     Postal Inspectors charged one defendant           leading an effort called “Project kNOw Fraud”        Postal Inspectors arrested over
                                                       to develop, test, and implement a national tele-     2,300 non-employees for mail theft.
with 38 counts of mail fraud and access device
fraud for bilking financial institutions of an esti-   marketing fraud prevention campaign. The
mated $20 million over a five-year period. The         centerpiece of the campaign is a national mail-
defendant stole thousands of pieces of mail from       ing from the Postmaster General advising citi-
drive-up collection mailboxes, intercepted             zens how to avoid being victimized by telemar-
various financial transactions, and re-routed          keting fraud. The Inspection Service conducts
checks, credit cards, and personal identification      about 3,300 mail fraud investigations yearly,
numbers to various commercial mail receiving           and during this reporting period arrested 748
agencies across the country. After pleading            and convicted 664 individuals on charges of
guilty, the defendant was sentenced in October         mail fraud.
1998 to 63 months in prison and 5 years proba-         Identity Theft Investigation Catches
tion.                                                  Murderer
Commercial Mail Receiving Agency                            Postal Inspectors worked with the Federal
Destroys Mail                                          Bureau of Investigation and local police to solve
      Postal Inspectors in Pennsylvania identi-        two murders involving bank fraud and identity
fied a commercial mail receiving agency fran-          takeover. The murderer pled guilty to 16 feder-
chise owner for the delay and destruction of           al charges and was sentenced to 395 years in
mail. The owner abruptly closed one location           prison without parole. He targeted well-to-do
and threw away hundreds of pieces of incoming          victims so he and his wife could assume their
and outgoing mail. Although the owner had              identities, and then used the mail to conduct
accepted postage payments for the mail, none           financial fraud with their victims’ accounts.
bore postage, and most of the parcels were             The Inspection Service Crime Laboratory
rifled. Another 96 pieces of mail, without             played a key role in solving the case.
postage customers had paid for, were found at          U.S. Customs Enlisted to Combat Illegal
another location. Some of the mail was eight           Foreign Lotteries
months old. Prosecution is pending.                        To further combat illegal foreign lotteries,
Alert Letter Carrier Stops Thefts                      Postal Inspectors are working with U.S. Cus-
     As a result of a tip from a letter carrier,       toms Service officials to stop such offerings from
Postal Inspectors arrested an individual for           entering the U.S. mailstream. Customs agents
breaking into apartment mailboxes in Nevada.           now contact Postal Inspectors when they find
The alert letter carrier reported that an individ-     such mail during border searches. Postal
ual in the apartment complex was receiving a           Inspectors detain the mail and provide samples
large quantity of mail under different names at        to the Postal Service’s Law Department to


                                                                                                             PAGE 41
          determine their mailability. If the pieces are        lion of the civil settlement.
          considered nonmailable, the mailer is notified
                                                                Medicare Fraud Identified
          that the material is subject to destruction and
                                                                     As a result of an Inspection Service inves-
          may appeal the notice. If the mailer fails to
                                                                tigation, 39 defendants were indicted in Florida
          appeal or loses the appeal, the detained mail is
                                                                for Medicare fraud. The group included 7 doc-
          destroyed upon the issuance of a Destruction
                                                                tors, 12 nurses, and the owners, managers, and
          Order. During this reporting period over
                                                                some employees of a Medicare-certified home
          316,000 pieces of foreign lottery mail were
                                                                health agency. The defendants routinely inflat-
          destroyed prior to entering the mailstream.
                                                                ed the cost of service billed to the Medicare pro-
          Mail-Order Rebate Fraud Targeted                      gram. Losses exceeded $10 million.
               Postal Inspectors are currently investigat-
                                                                Medicare Fraud Stopped
          ing 76 cases relating to rebate fraud. The
                                                                      A California doctor was sentenced to two
          Administrative Action Program is an essential
                                                                years in prison, a $50,000 fine, and ordered to
          element of rebate fraud prevention and enforce-
                                                                pay $311,000. After pleading guilty to 10
          ment efforts. To date, the Postal Service Judi-
                                                                counts of mail fraud, he reimbursed the
          cial Officer issued 20 cease and desist orders and
                                                                Medicare program $1.5 million and will lose his
          197 individuals signed agreements to voluntari-
                                                                medical license. Postal Inspectors caught him
          ly discontinue soliciting refunds for which they
                                                                hours before he was to flee the county with over
          were not entitled.
                                                                $2 million in cashier’s checks, opium, and a new
          Prevention First! Strategy Combats Mail               passport. The doctor filed claims for home vis-
          Fraud                                                 its to patients who were deceased, in prison, or
               The Inspection Service has launched a            living out of state. He was the largest biller to
          mail order initiative in an effort to reduce losses   Medicare of home health care visits in Califor-
          to major mailers in measurable terms. It              nia.
          employs a “Prevention First!” strategy regarding
                                                                Fraud Against Georgia Medicaid Program
          losses due to mail fraud or theft/non-receipt. To
                                                                Halted
          date, under the mail fraud focus of the initiative,
                                                                     Following an investigation by Postal
          Postal Inspectors are conducting 195 investiga-
                                                                Inspectors, two defendants were sentenced in an
          tions relating to failure-to- pay scams. To date
                                                                Atlanta federal court in December for a $9 mil-
          44 individuals have been arrested and 22 con-
                                                                lion fraud against the state of Georgia Medicaid
          victed.
                                                                program. The court ordered restitution and
          $140 Million Medicare Fraud Uncovered                 fines for the pair totaling nearly $7 million, as
               An Inspection Service investigation of an        well as forfeiture of the remaining assets of one
          Illinois health care provider resulted                of the defendants. One defendant was sen-
          in federal-court-ordered restitution of $140          tenced to three years in prison and three years’
          million and a $4 million criminal fine for            probation, and the other man was sentenced to
          Medicare fraud. The Department of Justice             four years in prison and three years’ probation.
          indicated it was the largest case ever prosecuted
                                                                Counterfeit Immigration Documents via
          involving a Medicare contractor, charged in this
                                                                Mail Uncovered
          case with manipulating work samples, falsifying
                                                                     Two men pled guilty to six federal counts,
          reports, concealing poor performance, and false-
                                                                including mail fraud, following an investigation
          ly claiming superior performance. Two of the
                                                                by Postal Inspectors. The men were operating
          company’s managers have already pled guilty,
                                                                one of the largest fraudulent immigration docu-
          and mail fraud and other charges have been
                                                                ment schemes ever prosecuted in Southern Cal-
          filed against five other upper-level managers.
                                                                ifornia. They were involved in the production
          Investigators were alerted to the case when a
                                                                and distribution by mail of counterfeit immigra-
          former employee of the company filed a qui tam
                                                                tion documents, victimizing over 1,100 individ-
          complaint (a civil action brought by an individ-
                                                                uals, with an average loss per victim of $10,000.
          ual on behalf of the government and the indi-
          vidual) after he was fired by company managers.       Nationwide Test-Cheating Scheme Exposed
          The former employee will receive over $28 mil-            At the conclusion of an Inspection Service

PAGE 42   VOICE OF THE CUSTOMER
investigation, a New York man was sentenced          tion operation, “Innocent Images,” attempts to
to four years in prison for his role in a nation-    identify child pornographers and molesters on
wide test-cheating scheme. The scheme                the Internet. The Inspection Service was asked
involved as many as 500 undergraduate and            to join the operation because of its extensive
graduate school candidates, who paid a fee of        experience in child pornography investiga-                       DID YOU
$2,000 to $9,000 to receive answers to national
standardized exams. The defendant fled during
                                                     tions.                                                           KNOW?
                                                     Sentencing for Delivery of Child
a recess in his trial and was captured by the U.S.
                                                     Pornography
Border Patrol while trying to enter Canada.                                                                What is the Mail Fraud
                                                          As a result of an Inspection Service inves-
Tax Evasion and Wire Fraud Charged                   tigation, an individual in Michigan was sen-          Statute?
      An individual in Pennsylvania was charged      tenced to 60 months’ confinement in a federal
with filing a false tax return and wire fraud. The   prison to be followed by three years’ supervised      The Mail Fraud Statute contained
individual was accused of evading taxes on prof-     release for receipt of child pornography through      in Title 18 of the United States
its from selling bulk quantities of manufacturers’   the mail. The judge rejected a plea for a lesser
cents-off coupons to store owners who paid 20        sentence based on the individual’s admittance         Code, Section 1341, makes it a
to 25 percent of the coupons’ face value. The        to more than 90 past child sexual assaults.           criminal violation to use the
Inspection Service and Internal Revenue Ser-
                                                     Child Pornographer Sentenced                          United States mail or the services
vice jointly conducted the investigation and
                                                          An individual in Virginia was sentenced to
believe that coupons in excess of $1 million                                                               of any private or commercial
                                                     36 months’ detention in a federal prison and a
were illegally sold between 1990 and 1994.
                                                     $10,000 fine. The sentence arose from a guilty        carrier to carry out a fraudulent
Work-at-Home Scam Nets $3.1 Million                  plea to one count of the distribution of child
                                                                                                           scheme.
     Three Minnesota brothers pled guilty to         pornography. The sentence will be followed
mail fraud and tax evasion charges in connec-        by three years’ supervised release. Postal Inspec-
tion with a scheme to sell brochures advertising     tors recovered more than 200 child pornogra-
work-at-home moneymaking opportunities.              phy photographs and magazines from the man’s
These brochures promised a money-back guar-          residence.
antee of satisfaction. By using different mailbox
                                                     MAIL BOMBS AND BOMB
addresses and business names, the brothers
                                                     THREATS
received more than $3.1 million from 80,000
                                                           In the interest of protecting customers and
victims. The brothers closed the mailboxes
                                                     Postal employees, Postal Inspectors place a high
after a short period, thus depriving dissatisfied
                                                     priority on the investigation of explosive
customers of an avenue for requesting refunds.
                                                     devices sent through the mail. Postal Inspectors
As part of the plea agreement, the brothers for-
                                                     also investigated 553 reports of suspicious items
feited cash, vehicles, and property valued at
                                                     in the mail and 71 bombs threats against Postal
$3.1 million. Thus far, the Inspection Service
                                                     facilities, during the first half of FY 1998. These
has returned more than $105,000 to victims of
                                                     incidents resulted in 4,778 lost work hours at
the scheme. Sentencing is pending.
                                                     affected Postal facilities.
CHILD EXPLOITATION
                                                     Threats and Injurious Articles by Mail
      Postal Inspectors employ proactive inves-           Postal Inspectors report that threatening
tigative techniques to identify and bring to jus-    communications are on the rise as a result of
tice individuals who use the mail to distribute or   abortion rights conflicts. In conjunction with
knowingly receive child pornography. During          the Federal Bureau of Investigation, Postal
this reporting period, Postal Inspectors made 67     Inspectors responded to a number of hoax
arrests and obtained 80 convictions in this area.    devices, including 25 threatening letters
“Innocent Images” Operation Combats                  allegedly containing anthrax. Most of the mail-
Internet Child Pornography                           ings were sent to reproductive health service
    The exchange of child pornography by             providers and caused significant disruption,
mail is often preceded by communication over         including evacuations, decontamination, and
the Internet. A Federal Bureau of Investiga-         inoculation. Each of the threatening mailings



                                                                                                            PAGE 43
                                      was tested, but none contained anthrax.              arrests and obtained 640 convictions in this area
                                                                                           during this reporting period.
                                      Mail Bombs Detonate
                                           Postal Inspectors investigated four mail        Drug Proceeds Seized from Mail
        DID YOU                       bomb incidents during this reporting period.             New York Postal Inspectors seized
        KNOW?                         Two of these were recovered and rendered safe
                                      and two exploded, but neither resulted in injury.
                                                                                           $490,800 in cash in one week from 12 Express
                                                                                           Mail parcels mailed to Colombia from various
                                      One of the mail bombs detonated on a con-            New York addresses.
                                      veyor belt within a bulk mail center in Texas.
                                                                                           Drug Shipments Smuggled into Hawaii
Does the Inspection Service           Postal Inspectors learned that the mailer of the
                                                                                                 A man currently believed to be the largest
combat child pornography?             bomb was responsible for building two others,
                                                                                           distributor of methamphetamine in Hawaii was
                                      one addressed to the Bureau of Alcohol, Tobac-
The Inspection Service has long                                                            arrested by Postal Inspectors and Bureau of
                                      co, and Firearms, which was rendered safe, and
                                                                                           Alcohol, Tobacco, and Firearms agents on a no-
been recognized as a leading law      another addressed to the President, which
                                                                                           bail warrant. A total of 35 suspects were arrest-
                                      exploded in a truck trailer during transit. The
enforcement agency in the battle                                                           ed in this joint investigation by Postal Inspec-
                                      U.S. Secret Service apprehended a suspect who
                                                                                           tors; Bureau of Alcohol, Tobacco, and Firearms
against those who sexually exploit    is being held on charges related to one of the
                                                                                           agents; Internal Revenue Service agents; and
                                      bombs. Physical evidence recovered from a
children through the production                                                            Delano, CA, police. The ring imported
                                      search of the suspect’s former residence and
                                                                                           $500,000 worth of methamphetamine a month
and distribution of child             hotel room, along with the remains of the Dal-
                                                                                           into Hawaii from California using mail and per-
                                      las and Washington, DC, parcel bombs, have
pornography.                                                                               sonal couriers.
                                      been sent to the Inspection Service Crime Lab-
                                      oratory for analysis.                                Individual Found Guilty of Laundering
                                                                                           Drug Proceeds
                                      Hoax Bomb Mailings
                                                                                                A federal jury found an individual guilty on
                                           An inmate serving a life term at a federal
                                                                                           drug conspiracy and money laundering charges,
                                      correctional facility mailed suspect letter bombs
                                                                                           resulting in the forfeiture of $1.8 million in cash
                                      to several individuals, including the Massachu-
                                                                                           and assets. Investigation by the Inspection Ser-
                                      setts Attorney General’s Office and a federal
                                                                                           vice had revealed that this individual facilitated
                                      judge. The suspect letter bombs contained cop-
                                                                                           the laundering of drugs.
                                      per wires, tin foil, and petroleum jelly with cof-
                                      fee grounds. The inmate was upset because a
                                      federal court had dismissed several appeals and
                                      wanted the letter bombs to be realistic so that
                                      someone would suffer a heart attack. The
                                      Inspection Service and the Massachusetts State
                                      Police are still investigating.
                                      Bomb Explodes Under Collection Box
                                           Postal Inspectors were notified that a bomb
                                      exploded under a collection box in Colorado.
                                      The investigation revealed that a pipe bomb
                                      had been taped to the leg of the collection box,
                                      and exploded. No one claimed responsibility
                                      for the bombing and the investigation is con-
                                      tinuing.

                                      NARCOTICS TRAFFICKING
                                          The Inspection Service interdicts drug
                                      mailings to protect Postal employees and cus-
                                      tomers from the violence associated with this
                                      crime and to prevent the abuse of the mail for
                                      such illicit purposes. Inspectors made 735



                            PAGE 44   VOICE OF THE CUSTOMER
Voice of the Employee




  DID YOU
  KNOW?
 What is the OIG Hotline Number?
 The number to call for reporting fraud,
 waste, abuse, and mismanagement is
 1-888-USPS-OIG (1-888-877-7644).
 You can also send e-mail to the Hotline
 at hotline@uspsoig.gov.




                                           PAGE 45
          The following section highlights audits,            IMPROVING THE GRIEVANCE-
          reviews, and investigations done by the             ARBITRATION PROCESS
          OIG and the Inspection Service in support                 During this review we noted that improve-
          of the Postal Service’s Voice of the                ment was needed to monitor and analyze griev-
          Employee. In order to differentiate the work        ance-arbitration cases adequately. OIG found
          reported by the OIG and the Inspection              that the Postal Service does not have a compre-
          Service, the pages containing the Inspection        hensive management information system to
          Service work have been color screened.              capture nationwide statistical case data. Conse-
                                                              quently, it is difficult for the Postal Service to
                                                              identify and correct management practices that
          OFFICE OF INSPECTOR                                 result in grievances or to resolve workplace
          GENERAL                                             issues at the lowest possible level.
                                                                    The OIG suggested that management
          ASSESSMENT OF LABOR AND                             establish a comprehensive nationwide manage-
          MANAGEMENT WORKPLACE                                ment system to track all appealed grievances. A
          DISPUTES                                            comprehensive management information sys-
               The OIG conducted an audit relating to         tem would allow Postal managers to better ana-
          the Postal Service’s grievance-arbitration          lyze trends and patterns within their areas or dis-
          process for bargaining employees. The audit dis-    tricts, and would allow headquarters labor rela-
          closed that Postal Service labor and manage-        tions staff to easily identify systemic issues.
          ment personnel did not adequately resolve           Management was responsive to the OIG sugges-
          workplace disputes before they became formal        tions and is continuing efforts to redesign the
          grievances and did not resolve established griev-   tracking system. (OIG LR-MA-99-001)
          ances as early as possible. Therefore, unresolved         In a related review, OIG found that griev-
          workplace disputes resulted in a high number of     ance arbitration procedures were not generally
          Postal Service grievances estimated to cost at      administered as required by the national agree-
          least $216 million in FY 1997.                      ments. Management comments were respon-
               The OIG recommended that management            sive to the issues raised and emphasized the
          initiate discussions and negotiate with the         importance of ensuring that Postal managers
          national presidents of the American Postal          comply with contractual obligations. (OIG LM-
          Workers’ Union, the National Association of         MA-99-002)
          Letter Carriers, the National Postal Mailhan-
                                                              DELAY OF PROCESSING EQUAL
          dlers’ Union, and the National Rural Letter
                                                              EMPLOYMENT OPPORTUNITY
          Carriers’ Association to foster joint implemen-     COMPLAINTS
          tation of:
                                                                   The OIG issued the first in a series of
          ◆    an assessment of the training needs of all     reports to review the equal employment oppor-
               craft employees; and                           tunity complaint process in the Postal Service.
          ◆    a mediation program that involves face-        In response to a significant number of equal
               to-face communication by the parties           employment opportunity-related complaints in
               involved in a complaint with the help of       a Texas District, the OIG focused first on that
               an outside mediator.                           District and limited the review to the timeliness
               Although management’s comments were            of complaint processing. The audit revealed
          generally responsive, they did not concur that      that the District had experienced varying rates
          discussions between labor and management            of success in meeting the precomplaint and for-
          should occur immediately after a workplace dis-     mal complaint processing timeframes. For
          pute has been identified. Postal management         example, management took an average of 78
          indicated that the training needs of all employ-    days to complete inquiries, twice the time
          ees have been assessed and a training program is    allowed by law, for 998 closed precomplaint
          being developed to address workplace relations      cases. The OIG determined that the delays
          and interpersonal skills. (OIG LR-AR-99-001)        resulted from insufficient staffing and turnover
                                                              in key positions. The OIG provided three


PAGE 46   VOICE OF THE EMPLOYEE
recommendations to improve the timelines of          ◆   Report the results of the completed sexu-
complaint processing.                                    al harassment investigation to the Postal
     Management agreed to the recommenda-                Service Vice President, Labor Relations;
tions and has initiatives planned and in progress        the Vice President, Human Resources;
addressing the issues in this report. (OIG LR-           and the OIG.
AR-99-010 and LR-CR-99-029.)                         ◆   Determine why allegations of sexual
                                                         harassment were initially not investigat-
ALLEGATIONS OF RETALIATION                               ed and take the appropriate corrective
     The OIG reviewed an allegation of retalia-          action.
tion against an employee at a California Post
                                                     ◆   Review the former supervisor’s duties to
Office and found that retaliation had occurred
                                                         determine if they can be modified and
in part because the employee had participated            still meet the terms of the Merit Systems
in an OIG investigation. The OIG made the                Protection Board settlement agreement.
following recommendations to Postal manage-
ment:                                                     Postal management did not concur with
◆ Review the actions of the managers to              the OIG conclusions and recommendations.
     determine whether corrective and/or dis-        Management stated that they found no evi-
     ciplinary action is warranted.                  dence that the supervisor’s behavior was suffi-
                                                     ciently severe or pervasive to create a hostile
◆   Ensure procedures are implemented to
                                                     work environment. In addition, management
    comply with policy concerning approval
    or denial of light-duty assignments.             stated that the sexual harassment allegations
                                                     were now completely investigated and no fur-
◆   Reiterate to all management that retalia-        ther action was required. Because the supervi-
    tion against employees is prohibited.
                                                     sor does not supervise the same employees on a
◆   Ensure that all injury compensation              daily basis, management stated that terms of the
    claims from the Office of Workers’ Com-          Merit Systems Protection Board settlement
    pensation Programs are processed in a            agreement had been met. The OIG did not
    timely manner.                                   agree with management’s responses. Resolution
      Postal management agreed with the last         for these recommendations is pending. (OIG
three recommendations but disagreed with the         LR-AR-99-008, LR-CR-99-028, and LR-CR-
first, stating that the finding of retaliation had   99-021)
not been supported. The OIG continues to
                                                     IMPROVEMENTS FOR UPDATING
work with management to resolve this recom-
                                                     SENSITIVE CLEARANCES
mendation. (OIG LR-AR-99-006, LR-CR-99-
                                                          The OIG issued the first in a series of
028, LR-CR-99-021, and LM-CR-99-001)
                                                     reports to evaluate the effectiveness of the
      The OIG conducted a follow-up audit to
                                                     Inspection Service’s process for granting and
determine whether managers at this California
                                                     updating security clearances for Postal Service
Post Office and District properly investigated
                                                     employees and contractors. The report showed
sexual harassment allegations and whether their
                                                     that the Inspection Service has not developed
reassignment of a supervisor was in accordance
                                                     and implemented a system to ensure that sensi-
with the Postal Service report recommenda-
                                                     tive clearances for non-Inspection Service per-
tions. The audit disclosed that managers had
                                                     sonnel are updated at least every five years as
not taken action to investigate the sexual
                                                     required by the Postal Service Administrative
harassment allegations until after OIG inquired
                                                     Support Manual.
into this matter. Further, despite the District
                                                          Inspection Service management agreed
Manager’s statement that the supervisor would
                                                     with OIG suggestions that it establish such a
be reassigned to a position without supervisory
                                                     system and that the system be implemented in a
responsibilities, the audit disclosed that the
                                                     manner that facilitates production of an accu-
supervisor was reassigned to a position with
                                                     rate, current security clearance status for all
supervisory duties and responsibilities.
                                                     Postal Service employees. While planning to
      The OIG recommended that Area man-
                                                     develop a permanent system, the Inspection
agement:


                                                                                                        PAGE 47
                                        Service is working with the Postal Service’s        Service rules and regulations, federal law, the
                                        Information Technology Division to develop an       National Union Agreement, and the Postal
                                        interim system that will identify clearances that   Service CustomerPerfect! goal.
                                        need updating. (OIG OV-MA-99-001)                        As a result of a subsequent management
        DID YOU                                                                             review, the Postmaster was reassigned. Manage-
                                        SUGGESTED IMPROVEMENTS
        KNOW?                           FOR ACCIDENT REPORTING
                                                                                            ment also required the Postmaster to attend
                                        PROCESS                                             supervisory and group performance skills train-
                                                                                            ing. However, the two cases are awaiting deci-
                                             The OIG evaluated a Postal Service
                                                                                            sions through the collective bargaining agree-
What is the background of               process management team to determine if the
                                                                                            ment and the equal employment opportunity
OIG staff?                              team properly identified weaknesses in the
                                                                                            complaint processes. Management indicated
                                        existing accident reporting process and made
                                                                                            that decisions rendered through these processes
The OIG staff includes auditors,        appropriate recommendations. The actions will
                                                                                            would be implemented. (OIG LR-MA-99-006)
                                        improve accident reporting, but the OIG sug-
evaluators, criminal investigators,     gested additional opportunities for improve-        REVIEW OF ADVANCE SICK
lawyers, technicians, and               ment as follows:                                    LEAVE PROGRAM AND HEALTH
                                        ◆ Establish a revised plan with target dates        AND SAFETY ISSUES
administrative personnel from                to assess the results of both the headquar-         The OIG reviewed the administration of
Federal and state government                 ters process management team and a             the advance sick leave program and health and
                                             Midwest Area team. Also, determine the         safety issues at a California Post Office. The
agencies, private industry,                  feasibility of implementing the teams’         audit disclosed that the Officer-in-Charge had
nonprofit organizations, and                 recommendations.                               not implemented adequate communication
the Postal Service.                     ◆    Reassess the recommendations included          procedures regarding the advance sick leave pol-
                                             in the headquarters process management         icy and routinely denied advance sick leave
                                             team’s final report to determine if any        without proper consideration.
                                             changes are necessary to address the                The OIG recommended that management
                                             Occupational Safety and Health Admin-          inform all supervisors and employees of the
                                             istration private-sector requirements          advance sick leave policy, require review of each
                                             (compliance required effective
                                                                                            advance sick leave request with a consistent
                                             September 28, 1998).
                                                                                            method to communicate denied requests, and
                                        ◆    Update the Human Resources Informa-            ensure unsafe working conditions are corrected
                                             tion System Safety Subsystem to ensure         as required. Management agreed with the first
                                             accurate reporting of accidents catego-        two recommendations and disagreed partially
                                             rized as property damage.                      with the third, stating that the unsafe working
                                             Management agreed with the first two sug-      conditions were a temporary situation because
                                        gestions but disagreed with the third. The OIG      new phone lines were being installed in the
                                        will continue to monitor accident reporting and     building. (OIG LR-AR-99-009, LR-CR-99-
                                        will review the disputed suggestion once an         028, and LR-CR-99-021)
                                        audit resolution process is developed. (OIG
                                        DS-MA-99-002)
                                                                                            REVIEW OF ALLEGATIONS OF
                                                                                            DISCRIMINATORY HIRING
                                        SUGGESTIONS TO ADDRESS                              PRACTICES
                                        ALLEGED HARASSMENT AND                                   The OIG reviewed allegations of discrimi-
                                        DISCRIMINATION                                      natory hiring practices at a Texas Post Office.
                                             The OIG reviewed Postal Service employ-        Although the audit revealed no evidence of dis-
                                        ee allegations concerning harassment and dis-       criminatory hiring practices, the OIG review
                                        crimination actions at a post office. The review    disclosed harassment and intimidation of
                                        disclosed that the Postmaster had engaged in        employees, a delay in providing injury compen-
                                        inappropriate actions that were perceived by        sation claim forms, and physical assaults.
                                        craft employees as harassing and intimidating.           Management agreed to all OIG recom-
                                        A review of four cases indicated that the Post-     mendations and stated that many corrective
                                        master’s actions were inconsistent with Postal      actions were in the process of being implement-



                              PAGE 48   VOICE OF THE EMPLOYEE
ed prior to the OIG report. (OIG LR-AR-99-              in fitness-for-duty examinations. In
007 and LR-CR-99-033)                                   instances of noncompliance, take the
                                                        necessary corrective actions.
ALLEGATIONS OF UNFAIR LABOR
PRACTICES                                           ◆   Ensure managers understand that disci-
                                                        plinary actions should be corrective in
     The OIG reviewed allegations of unfair
                                                        nature and when fitness-for-duty exami-
labor practices at a Processing and Distribution
                                                        nations are warranted.
Center in New York. Specifically, employees
alleged harassment and preferential treatment       ◆   Counsel managers and ensure compli-
regarding leave and supervision.                        ance with the terms of Equal
                                                        Employment Opportunity Commission
     The OIG was not able to validate the alle-
                                                        and Merit Systems Protection Board set-
gation concerning harassment and preferential
                                                        tlement agreements.
treatment. However, during the OIG site visit,
the employee assistance program representative      ◆   Ensure reasonable accommodation is
agreed to survey all employees, identify com-           given to an injured employee.
plaints, and provide training to managers,          ◆   Address the importance of following
supervisors, and employees explaining their             Postal Service procedures for providing
roles and responsibilities regarding requesting         and terminating limited-duty assign-
and approving leave. This report contained no           ments.
suggestions and required no response from man-           Although management comments were
agement. (OIG ER-MA-99-002, LM-CR-98-               generally responsive to the issues raised in this
031, and LR-CR-99-016)                              advisory report, the OIG is concerned with
                                                    management’s response that employees must
OTHER REVIEWS
                                                    file an enforcement petition for settlement
     The OIG generally does not review indi-
                                                    agreements that are legally enforceable. Also,
vidual employee complaints. As a new agency,
                                                    compliance with the agreements is not discre-
however, we needed to develop an understand-
                                                    tionary. (OIG LR-MA-99-005, LR-CR-99-
ing of the Postal culture and employee con-                                                             LABOR RELATIONS
                                                    007, LR-CR-99-008, LR-CR-99-009, LR-CR-
cerns. The chart shows the diversity of the                                                             COMPLAINTS
                                                    99-010, LR-CR-99-011, LR-CR-99-012, LR-
labor relations complaints we received. [see
                                                    CR-99-013, LR-CR-99-017, LR-CR-99-031,
chart on the side]. We also needed to develop a                                                                                                         MISC.
                                                    and LR-CR-99-032)                                                               HOSTILE WORK
                                                                                                                           HIRING ENVIRONMENT                       EMPLOYEE
working relationship with Postal Management                                                                                                                      LABOR RELATIONS
                                                                                                                          PRACTICES
                                                                                                                                              34        23           MANUAL
to ensure that employees’ concerns are              ALLEGED FEDERAL PRIVACY ACT                                                  31                              40
addressed. In this regard, several of the follow-   AND FREEDOM OF INFORMA-                                 INTIMIDATION
                                                                                                                           31
                                                                                                                                                                                     DISPARATE
                                                                                                                                                                                    TREATMENT
                                                    TION ACT VIOLATIONS                                                                                                 53
ing individual reviews met our objectives.                                                                MENTAL ABUSE
                                                                                                          (STRESS)         29
                                                         The OIG reviewed allegations of Federal                            35                                         69
ALLEGATIONS OF EMPLOYEE                             Privacy Act and Freedom of Information Act
                                                                                                           VERBAL ABUSE
                                                                                                                              28                                                    HARASSMENT
MISTREATMENT                                                                                                    ADMINISTRATIVE            37 41 27
                                                    violations and mismanagement of Postal poli-                ACTION
     The OIG reviewed allegations from seven        cies and procedures. Specifically, the com-                                                          EEO,
                                                                                                                                                                     DISCIPLINARY
                                                                                                                                RETALIATION                             ACTION
Postal employees. The allegations included          plainant questioned the release of personal
                                                                                                                                                   GRIEVANCES, ETC


wrongful denial of transfer requests, mishan-       medical information to the Postal Service’s
dling of workers’ compensation claims, equal        Injury Compensation or Employee Assistance          TOTAL NUMBER OF COMLAINTS 478
employment opportunity violations, failure to       Program without written permission.
accommodate injured employees, noncompli-                The OIG examined the complainant’s cor-
ance with terms of settlement agreements, and       respondence, as well as pertinent responses from
harassment or retaliation actions. Some of the      the Postal Service, and concluded that there
allegations were substantiated, and the             were no Federal Privacy Act violations. The
OIG provided management with the following          complainant was informed that the Federal Pri-
suggestions:                                        vacy Act allows for disclosure of medical infor-
◆   Assess compliance with procedures for           mation without the individual’s written permis-
    providing and terminating limited-duty          sion in certain circumstances, including disclo-
    assignments and resolving discrepancies         sure to “a government agency in order to obtain



                                                                                                           PAGE 49
                                         information relevant to a [Postal Service] deci-
                                         sion concerning employment, security clear-
         DID YOU                         ances, security or suitability investigations or
                                         [to] other persons under contract with the
         KNOW?                           [Postal Service] to fulfill an agency function.”
                                         The complainant was further informed that it
                                         was, therefore, not necessary to obtain written
What is the OIG’s website                authority before disclosing the information.
address?                                 (OIG ER-CR-99-012 and ER-CR-99-013)
OIG’s website address is                 ALLEGATION OF IMPROPER
                                         TRANSFER
www.uspsoig.gov.
                                               The OIG reviewed allegations by a former
                                         Postal employee regarding an improper transfer
                                         within the Postal Service and an improper han-
                                         dling of an employee’s workers’ compensation
                                         claim. The OIG contacted Postal officials and
                                         reviewed related documents. The OIG substan-
                                         tiated the allegation that the claim was not han-
                                         dled properly, but found that management cor-
                                         rected the problem when the employee brought
                                         it to their attention. (OIG ER-CR-99-003)

                                         ALLEGATIONS OF
                                         MISMANAGEMENT
                                              The OIG reviewed allegations of misman-
                                         agement at a post office. Specifically, the
                                         employees expressed a wide range of concerns
                                         about Postal management. The OIG contacted
                                         the Area Vice President and requested a review
                                         of the problems reported by the employees. The
                                         Vice President advised the OIG that District man-
                                         agement had addressed the mismanagement
                                         issues. (OIG ER-CR-99-009 and ER-CR-99-010)




Kelly Oliver and John Milstead assure
that all OIG employees stay in contact
through the OIG wide-area network.




                               PAGE 50   VOICE OF THE EMPLOYEE
                                                      orities and affords task force attention to facili-
INSPECTION SERVICE                                    ty, carrier, and other Postal robberies to deter
                                                      these attacks on employees. Inspection Service
ASSAULTS AND THREATS
     The Inspection Service is dedicated to the
                                                      investigated 75 robberies. Robbery related
                                                      arrests and convictions for this semi-annual
                                                                                                                      DID YOU
prevention of violence in the workplace and           period totaled 57 and 55, respectively.                         KNOW?
considers early intervention and cooperation
with management and employee groups essen-            Highway Contract Route Driver Robbed
tial. Assaults of and threats against Postal               Robberies of Postal trucks or highway con-
employees are taken seriously by Postal Inspec-       tract route trucks for registered mail containing     What are the duties of the
                                                      cash or other valuables are often based on
tors, who investigated 551 incidents reported                                                               Postal Police Officers?
during this period, a 16 percent reduction from       “inside” knowledge of when the registers will
the same period last year. Criminal charges are       arrive and on which truck. In a recent case,          Postal Police Officers provide
initiated when possible, which led to 227 arrests     Postal Inspectors arrested a man who robbed a
                                                      highway contract route driver of registered mail.     security around the clock at des-
and 189 convictions from October 1, 1998
through March 31, 1999.                               Also arrested was a local Postal employee who         ignated Postal facilities, monitor
                                                      planned the robbery, and the spouse, who was
Postal Clerks Threatened with Shotgun                 present during the planning. The truck
                                                                                                            alarms to provide protection for
     Last December, a customer entered a Col-         contained remittances from nine post offices,         Postal employees and property,
orado postal station with a loaded shotgun to         and losses included over $102,500 in Postal
complain about his mail service. Postal Inspec-                                                             and escort high-value shipments
                                                      cash and a significant amount of jewelry mailed
tors responded immediately and placed the cus-        by customers. Postal Inspectors recovered a           such as Postal remittances.
tomer under arrest without incident. The cus-         large amount of the jewelry and over $58,000
tomer was subsequently convicted in federal           of the cash.
court on three counts of assault, and later sen-
tenced to three years in prison and three years’      Post Office Robber Sentenced
probation.                                                  The robber of a Post Office and a contract
                                                      Postal Station in South Carolina was sentenced
Letter Carrier Assaulted for Welfare Check            to over 52 years in federal prison. The subject
     The owner-landlord of a New York                 was also indicted for robbing another Post
building threatened to kill a letter carrier for      Office in North Carolina, for escaping from jail,
returning the welfare check of a tenant who had       and for committing a carjacking while awaiting
moved out of the building. Following the              trial for the two South Carolina robberies.
threat, the landlord got into a van and attempt-
ed to run down the carrier. A witness pulled the      Gang Members Rob Letter Carriers for
carrier back, but the carrier was still hit by the    Mailbox Keys
van’s mirror. The landlord was charged in fed-             The mastermind behind at least 13 carrier
eral court and found guilty of assault with a         robberies in Southern California was recently
deadly weapon.                                        sentenced to nearly 11 years in federal prison
                                                      and faces an additional two years in prison for
Washington, DC, Letter Carrier’s Shooter              committing armed robbery while on federal pro-
Sentenced                                             bation. The subject and an accomplice recruit-
     A 1996 case against three juveniles              ed members of various Los Angeles street gangs
involved in the murder of a Washington, DC,           to rob letter carriers of their postal keys. Gang
letter carrier came to a close in November 1998.      members used the keys to steal outgoing mail
Two defendants previously pled guilty. The            from collection boxes to obtain checks for a
third pled guilty after losing an appeal against      check-washing scheme. Twenty-eight partici-
being tried as an adult, was sentenced to 40          pants in the scheme were already sentenced.
years to life for shooting the letter carrier as he
sat in his Postal truck.

POSTAL ROBBERIES
    The Inspection Service also regards
robberies as one of its highest organizational pri-


                                                                                                            PAGE 51
          DRUGS IN THE WORKPLACE
               To help ensure a safe working environ-
          ment, the Inspection Service investigates nar-
          cotics-related offenses, particularly the sale of
          narcotics on Postal premises. During this semi-
          annual period, Postal Inspectors arrested 14
          employees for narcotics violations.
          Postal Supervisor Trafficking Drugs
          on Duty
               One recent investigation of narcotic traf-
          ficking on Postal premises led to the resignation
          of a Postal supervisor and rural carrier in Vir-
          ginia. The supervisor sold narcotics, most of
          which was marijuana, on Postal property while
          on duty, and the rural carrier was his middle-
          man supplier. A search of the carrier’s apart-
          ment produced approximately three pounds of
          marijuana packaged for distribution, many items
          of drug paraphernalia, a loaded gun, and 133
          rounds of ammunition. The carrier’s supplier
          was also arrested. The two employees resigned,
          and each pled guilty.
          Postal Truck Driver Arrested for Selling
          Drugs
               A Chicago tractor-trailer operator was
          arrested last October for selling crack cocaine.
          The operator admitted smoking crack while
          driving the semi-truck. The driver had been
          suspended in September for refusing to take a
          drug test.




PAGE 52   VOICE OF THE EMPLOYEE
Voice of the Business




   DID YOU
   KNOW?
  Is OIG responsible for
  all audits within the Postal Service?
  Yes. In January 1999, the Postmaster General re-emphasized to all
  Postal Service officers the audit role of the OIG. Specifically, the OIG is
  responsible for performing or contracting for all Postal Service audits, as
  well as establishing procedures for management-requested audits. In
  addition, the OIG will serve as the focal point with other agencies, to
  coordinate work efforts and avoid any duplication.




                                              PAGE 53
                                         The following section highlights audits,                   Although the Postal Service Y2K Initiative
                                         reviews, and investigations done by the               Program Management Office enhanced the
                                         OIG and the Inspection Service in support             accuracy and reliability of Y2K reporting,
                                         of Postal Service’s Voice of the Business. In         improvements are needed in the way the Pro-
                                         order to differentiate the work reported by           gram Management Office conveys the status of
                                         the OIG and the Inspection Service, the               its activities to senior management. The OIG
                                         pages containing the Inspection Service               recommended that the Postal Service:
                                         work have been color screened.                        ◆   Develop a standardized report that dis-
                                                                                                   closes all Y2K areas and provide them on
                                                                                                   a frequent basis to senior management;
                                         OFFICE OF INSPECTOR                                   ◆   Ensure that the standardized report
                                         GENERAL                                                   includes (1) all major Y2K areas,
                                                                                                   (2) original baseline figures, with any
                                         INSPECTOR GENERAL TESTIFIES                               changes and reason for change, and
                                         BEFORE CONGRESS                                           target dates, and (3) definition of terms;
                                         CONCERNING Y2K ISSUES
                                                                                               ◆   Consolidate and link Postal Service
                                              In February, Congress invited the Inspector          Y2K databases to provide a complete,
                                         General to testify at a joint Subcommittee hear-          centralized repository of Y2K project
                                         ing on the Year 2000 (Y2K) challenges facing              information; and
                                         the Postal Service. The Inspector General dis-
                                                                                               ◆   Reevaluate priorities given the non-infor-
                                         cussed Postal Service progress in pursuing solu-
Inspector General Corcoran testifying                                                              mation systems and corporate Y2K issue
                                         tions to Y2K problems and also addressed signif-          areas, and shift or identify additional
to Congress on the Postal Service’s
Year 2000 readiness.                     icant challenges ahead. To highlight the issues           resources to address them as soon as
                                         requiring attention within the Y2K area, the              possible.
                                         Inspector General focused on three major cate-
                                                                                                  Management generally agreed with the
                                         gories:
                                                                                               OIG’s recommendations. (OIG IS-AR-99-001)
                                         ◆    Critical Core Business Infrastructure
                                                                                               IMPROVEMENTS NEEDED FOR
                                         ◆    Information Systems                              TRAY MANAGEMENT SYSTEM
                                         ◆    Business Continuity and Contingency              DELIVERABLES
                                              Planning                                               During an ongoing audit of the Tray Man-
                                              The Inspector General outlined the process       agement System, the OIG received concerns
                                         the Postal Service is using to achieve Y2K readi-     from the Postal Service management that a
                                         ness and described it as a multiphase process         contractor had not satisfied requirements for
                                         involving assessing systems for compliance,           spare parts’ resupply and had not completed a
                                         reviewing and correcting noncompliant sys-            required parts provisioning document and a life-
                                         tems, and testing and implementing those solu-        cycle support plan. The OIG review disclosed
                                         tions or contingency plans Postal-wide. In the        that the contractor did not meet the resupply
                                         coming months, the OIG will continue to work          requirements for emergency and nonemergency
                                         closely with Postal Service management to             spare parts for August 1, 1998, through Decem-
                                         identify Y2K challenges and minimize the risk         ber 23, 1998.
                                         of Y2K-related failures. (OIG IS-TR-99-001)                 The Tray Management System plays a vital
                                                                                               role in timely mail processing because it auto-
                                         IMPROVEMENT NEEDED IN                                 mates the movement and staging of mail
                                         QUALITY OF Y2K REPORTING                              between most sorting operations in a processing
                                               During this review, the fourth in a series,     plant. At two Processing and Distribution Cen-
                                         the OIG noted that the quality of Y2K report-         ters, emergency part-order deliveries were delin-
                                         ing needed improvement and that senior man-           quent more than 70 percent of the time and
                                         agement might be in a position to make more           nonemergency deliveries were delinquent more
                                         informed decisions if given regularly scheduled       than 50 percent of the time, causing some dis-
                                         reports that disclosed the status of all Y2K activ-   ruption of operations. Without a provisioning
                                         ities.                                                document to identify parts and a life-cycle sup-

                               PAGE 54   VOICE OF THE BUSINESS
port plan, the centers were left without ade-        existed, and employees were well informed
quate spare parts support.                           about stated goals to obtain better service
     Management agreed with the OIG’s sug-           including minimizing both debt and cash on
gestions to bring the contractor into compli-        hand, ensuring ongoing liquidity, increasing
ance and proposed additional actions to address      electronic payments, and decreasing the num-
the contractor delinquency of deliverables.          ber of banks used.
The OIG will continue to monitor contractor               The audit concluded that the Postal Ser-
performance to ensure that all current and           vice’s corporate treasury had established an
future deliverables are timely. (OIG DA-MA-          effective control environment and had the
99-001)                                              knowledge and skills to effectively manage a
                                                     cash management program in contemporary
INTERNATIONAL MAIL SERVICES
                                                     financial markets. The report contained no rec-
REVIEWED FOR SUBSIDIZATION
                                                     ommendations. (OIG FR-AR-99-005)
     The OIG conducted an audit of cost allo-
cations between international and domestic           IMPROVEMENTS FOR POSTAL
products and services to determine if inappro-       SERVICE MANAGEMENT OF PER-
priate cross-subsidization was occurring. The        SONAL SERVICES CONTRACTS
OIG found that revenues from domestic mail                The OIG conducted this review and found
services did not subsidize international mail ser-   that without formal policies, procedures, and        The Postal Service depends on
vices, in aggregate. However, improvements           controls over the use of contract personnel to       automated mail processing equipment
                                                                                                          to move the mail.
are needed in statistical sampling designs to        supplement the Postal Service’s workforce,
accommodate measurement of international             there is no assurance that Postal resources are
mail. The OIG recommended that Postal Ser-           being used economically or effectively. For
vice management:                                     example, a contract to support the remote bar-
                                                     code sorter team was originally awarded for
◆   Review sample designs to ensure that
                                                     $27,000 in 1992. Since then at least 57 modi-
    sample results yield sufficient data to pro-
                                                     fications have, in aggregate, increased the cost
    duce reliable estimates of international
    mail;                                            to more than $3 million.
                                                          The OIG suggested that the Postal Service
◆   Evaluate the cost-effectiveness of replac-
                                                     develop and strengthen policies, procedures,
    ing current manual sampling procedures
                                                     and controls over the use of personal services
    with automated solutions; and
                                                     contracts to ensure that legal, tax, and financial
◆   Emphasize proper sampling execution in           risks are appropriately assessed and mitigated.
    the field.                                       Management concurred with the OIG’s sugges-
     Management concurred with the recom-            tion and indicated that management was
mendations and responded with a summary of           already in the process of working out a plan to
initiatives the Postal Service has in progress,      study the matter when the OIG began its
completed, or planned addressing the issues.         review. Further, the Postmaster General issued
(OIG FR-AR-99-004)                                   a letter on March 11, 1999, to all officers
                                                     expressing concern about the Postal Service’s
CORPORATE TREASURY
                                                     growing reliance on consulting services and
EFFECTIVELY MANAGES
                                                     other contracting methods used to supplement
POSTAL SERVICE CASH
                                                     the administrative workforce. The letter
     The OIG contracted the services of an
                                                     announced the establishment of a new Con-
independent accounting firm to conduct an
                                                     sulting Services Review Committee to review
audit of the policies, procedures, and internal
                                                     all new and existing contracts to ensure their
controls over cash management at the Postal
                                                     necessity. The OIG considered the corrective
Service’s corporate treasury. The audit disclosed
                                                     actions taken by the Postal Service manage-
that adequate controls existed, providing rea-
                                                     ment to be responsive. (OIG QR-MA-99-001)
sonable assurance that Postal Service resources
were safeguarded against fraud and abuse.
Appropriate levels of supervision and oversight



                                                                                                           PAGE 55
                                                                                        warded mail. Updating mailing lists before mail
                                    ATLANTA OLYMPIC FACILITY
                                    IMPROVEMENT PLAN REVIEWED                           enters the mail stream avoids rehandling costs
                                                                                        associated with forwarding mail.
                                         The OIG reviewed the circumstances
                                                                                              The audit disclosed that although the
        DID YOU                     surrounding the termination of the Atlanta,
                                    GA, Federal Center Post Office construction
                                                                                        National Change of Address Program revenues
        KNOW?                       project. During the review, the OIG found that
                                                                                        exceeded expenses for FY 1998 using the mar-
                                                                                        ginal costing method, costs for the National
                                    the construction project was part of the larger
                                                                                        Change of Address Program exceeded revenues
                                    Atlanta Olympic Facility Improvement Plan
                                                                                        by over $1 million using the full costing
What are the locations of the       and decided to audit the entire plan. The audit
                                                                                        method. However, rehandling costs avoided by
                                    disclosed that the Improvement Plan did not
OIG Headquarters and Field                                                              the Postal Service in FY 1998 were estimated at
                                    receive approval and oversight at the appropri-
Offices?                                                                                $1.194 billion. As such, the benefits of the pro-
                                    ate level and that approved deviations were
                                                                                        gram outweighed the net costs of the program
The OIG Headquarters is in          costly to the Postal Service. In January 1995,
                                                                                        for FY 1998. Conversely, the report recom-
                                    the Improvement Plan consisted of 34 projects
Rosslyn, VA and the Western                                                             mended that management use full costing to
                                    at an estimated cost of $14.6 million. However,
                                                                                        establish rates licensees pay to receive National
Duty Station is in Dallas, TX.      the final program had 42 projects costing
                                                                                        Change of Address service in order to recover
                                    approximately $24 million.
The OIG is also currently located        Management agreed with 10 of 13 recom-
                                                                                        full costs of the service provided. Management
                                                                                        agreed to the recommendation and has
in Minneapolis, MN, St. Louis,      mendations and has planned or implemented
                                                                                        initiatives in progress that will result in approx-
                                    actions that are responsive to the respective
MO, San Mateo, CA, and                                                                  imately $1.2 million in additional revenues
                                    audit recommendation. Management did not
Atlanta, GA.                                                                            from July 1, 2000, through June 30, 2002. (OIG
                                    agree with recommendations to seek clarifica-
                                                                                        DS- AR-99-001)
                                    tion from the Board of Governors concerning
                                    the unitary plan concept; be more prudent in        POSTAL SERVICE ECONOMIC
                                    using indefinite quantity contractors for purpos-   ANALYSIS AND FORECASTING
                                    es beyond the original intent; and, when accept-         The OIG and the Postal Inspection Service
                                    ing modifications to proposals, document the        jointly conducted an audit of the Postal Service
                                    rationale for determining that the modifications    economic analysis and forecasting process. The
                                    are in the best interests of the Postal Service.    purpose of the review was to determine the
                                    The OIG will review the disputed recommen-          effect on long-term improvements and sus-
                                    dations once an audit resolution process is         tained organizational performance. The audit
                                    developed. (OIG FA-AR-99-001)                       disclosed differences between actual perfor-
                                                                                        mance and Postal Service revenue and cost pro-
                                    LICENSE FEE INCREASES NEEDED
                                    IN NATIONAL CHANGE OF                               jections. These differences may impair plan-
                                    ADDRESS PROGRAM                                     ning for future growth, create difficulties for
                                         This report responds to a congressional        increasing market share, and delay timely
                                    request to determine the full costs, revenues       implementation of Postal Service projects.
                                    generated, and related benefits of the National          The OIG made the following recommen-
                                    Change of Address Program. The OIG engaged          dations to the Chief Financial Officer and
                                    the services of an accounting and management        Senior Vice President:
                                    consultant to conduct this audit. This program,     ◆   Continue management meetings with
                                    implemented in 1986, makes change-of-address            other key stakeholders to discuss factors
                                    information available for a fee to Postal Service       affecting the market environment.
                                    business customers who have existing name and       ◆   Continue forecasts to track short-term
                                    address mailing lists. The Postal Service esti-         changes.
                                    mated that 17 percent of the nation’s popula-
                                                                                        ◆   Reduce Postal Service contracting costs
                                    tion moves each year and, in 1997, these moves
                                                                                            through the use of internal resources.
                                    resulted in approximately 43.5 million change-
                                    of-address cards and 2.7 billion pieces of for-     ◆   Benchmark the forecasting process to
                                                                                            identify and implement best practices.



                          PAGE 56   VOICE OF THE BUSINESS
     Management agreed to the recommenda-           evant to the cases reviewed and therefore
tions and has planned or implemented actions        should not be included in the files. The review
that are responsive to each of the audit recom-     also found that some injury compensation
mendations. (OIG RG-AR-99-001)                      offices inappropriately used temporary person-
                                                    nel to assist in maintaining workers’ compensa-
ASSESSMENT OF SALES FORCE
                                                    tion files that contained confidential docu-
AUGMENTATION PILOT PROJECT
                                                    ments.
     The OIG reviewed the Sales Force Aug-
                                                         The OIG suggested that management
mentation Pilot Project in response to a request
                                                    direct the injury compensation office personnel
from management. This project is a unique
                                                    to include only relevant documents in the
direct-sales marketing strategy designed to gen-
                                                    workers’ compensation files. The OIG reem-
erate new revenue to meet the needs of small to
                                                    phasized safeguarding sensitive medical infor-
medium-sized businesses through the sale of
                                                    mation and the legal obligations imposed under
four Postal products: Priority Mail, Express
                                                    the Privacy Act. Management comments were
Mail, Global Priority Packaging, and Express
                                                    responsive to the issues raised in this report.
Mail International. The plans are to establish
                                                    (OIG HC-MA-99-001)
12 major metropolitan sites during FY 1999.
The current Sales Force Augmentation Pilot          VALIDATION OF SOCIAL
Project revenues are projected at approximate-      SECURITY NUMBERS                                     Aaron Jordan and Jim Baghdadi of OIG
ly $404 million over three years, and incurred            The Department of Labor requested OIG          complete quarterly firearms
expenditures are estimated at $70 to $80 mil-       assistance in verifying the accuracy of 47 select-   qualifications at the Inspection
lion.                                               ed Postal Service employees’ social security         Service range at Bolger Center.
     This OIG review, the second of the ongo-       numbers identified as potentially invalid. The
ing Sales Force Augmentation Pilot Project,         47 cases were identified by the Department of
identified six conditions for review and action     Labor during a required social security number
by the Sales Force Augmentation management.         validation of the Thrift Savings Plan database.
The OIG made suggestions to address the             Although nine social security numbers were
following safeguards for expansion of the pilot     found to be invalid, seven were due to transpo-
project:                                            sition errors, one was an inadvertent use of a
                                                    father’s social security number, and one was
◆   Justification for baseline determinations,
                                                    inappropriately used by an illegal alien. In the
◆   Support for provider billings,                  last instance, the case was referred to the Immi-
◆   Spot audits, and                                gration and Naturalization Service for appropri-
◆   Operational intranet coordination of            ate action.
    delivery confirmation.                                The OIG review disclosed no systemic
                                                    problems of recording social security numbers
    Management comments were responsive
                                                    within the Postal Service Human Resources sys-
to the issues and suggestions raised in this
                                                    tems, so no management action was required.
report. (OIG RG-MA-99-002)
                                                    (OIG FR-MA-99-001)
UNRELATED DOCUMENTS IN
WORKERS’ COMPENSATION                               LIABILITY INSURANCE
FILES                                               COVERAGE APPROPRIATENESS
     During the performance of an audit of              The liability insurance coverage for the
workers’ compensation cases, OIG found unre-        Postal Service officers and Governors has a
lated administrative and sensitive medical          criminal defense provision that provides for
records in the injury compensation claims files.    payment of legal expenses unless there is a final
Due to the sensitive nature of the documents,       verdict or plea of guilty, at which time the
OIG conducted a limited review to determine         underwriter can stop benefits and seek recovery.
the appropriateness of maintaining these docu-      The OIG review of the liability insurance cov-
ments in the files. The review disclosed that the   erage noted an apparent conflict between the
equal employment opportunity records were           criminal defense provision and the duty of
unrelated and the medical records were not rel-     Postal Service employees to obey and defend


                                                                                                         PAGE 57
          the laws of the United States. The Department           over $173,000 to the Postal Service for repay-
          of Justice was contacted and shares the OIG             ment of an overcharge for postage validation
          concern that the payment of an employee’s fed-          imprinter labels. The contract required delivery
          eral criminal legal defense fees by an agency           of a minimum of 1,085 labels per roll, but the
          before the employee is exonerated is not in the         contractor had provided only an average of 992
          best interest of the government. Therefore, the         per roll.
          OIG questioned the appropriateness of using
          Postal revenues to pay insurance premiums to            POSTAL EMPLOYEE
          cover the legal expenses of any Postal Service          MISAPPROPRIATION OF FUNDS
          officers and Governors charged with federal                  A joint OIG and Inspection Service inves-
          criminal misconduct.                                    tigation revealed a shortage of over $135,000 in
               The OIG suggested that the insurance cov-          Postal funds. A window clerk in Ohio was
          erage be amended to allow reimbursement for             charged with misappropriation of Postal funds.
          legal fees only if the person is exonerated from        The clerk was sentenced to five months’ impris-
          federal criminal charges. Management agreed             onment, five months’ house arrest, and three
          that the insurance policy should not be used to         years’ supervised probation, and was ordered to
          pay for any form of criminal misconduct. How-           pay $75,000 in restitution.
          ever, management does believe it is appropriate
          to pay legal costs for any officer or governor          CLEANING SERVICE
          charged with a federal criminal violation unless        CONTRACTOR BRIBERY
          or until a guilty finding or a guilty plea occurs, at        A New Jersey cleaning service contractor
          which time the insurance company would seek             pled guilty to four counts of bribery for paying a
          recovery of all legal fees from that individual.        Postal supervisor $1,200 to ensure continuation
          Management contends that the personal liabil-           of a month-to-month contract at a post office.
          ity insurance coverage for the Postal Service           The contractor was sentenced to five years’ pro-
          officers and Governors is the kind of benefit           bation, a $1,500 fine, and an assessment of
          that the Postal Service is required to provide its      $400. Debarment is being considered. The
          officers and employees.                                 OIG and the Postal Inspection Service jointly
               The OIG will continue to recommend that            conducted the investigation.
          the current Postal Service liability insurance
          coverage be modified to ensure compliance with          RECOMMENDATIONS FOR
          the Department of Justice policy. (OIG DA-              CONTRACTOR SUSPENSION/
          LA-99-002)                                              DEBARMENT
                                                                        The USPS awards over 50,000 contracts
          CONTRACTOR SUBMISSION OF                                annually worth over $10 billion. The Postal
          FICTITIOUS CONTRACT                                     Service has debarred only 29 contractors in the
          DOCUMENTS                                               last four years. OIG benchmarked with several
               A New Jersey contractor was arrested on            other federal agencies with contracting pro-
          mail and wire fraud charges for submitting mis-         grams similar to the Postal Service and found
          leading documents to government agencies in             these agencies debarred or suspended between
          an attempt to secure contracts exceeding $20            50 and 500 contractors in FY 1998 while the
          million. The Postal Service OIG, Department             Postal Service debarred only one. Postal policy
          of Veterans Affairs, and Defense Criminal               and Rules of Practice for Suspension and
          Investigative Service jointly conducted the             Debarment closely mirror the Federal Acquisi-
          investigation. Federal prosecution is pending.          tion Regulations; however, the language in the
                                                                  Postal Purchasing Manual is not quite as explicit
          POSTAL CONTRACTOR REMIT-                                and leaves room for interpretation. Conse-
          TANCE FOR OVERCHARGING THE                              quently, OIG has placed a priority on this area.
          POSTAL SERVICE                                          Following are two recent cases in which suspen-
              An OIG proactive investigation resulted in          sion and debarment were recommended:
          an Ohio contractor’s voluntary remittance of
                                                                  ◆   The OIG received a congressional


PAGE 58   VOICE OF THE BUSINESS
    request and opened an investigation into
    contract problems and irregularities
    regarding a Postal facility in the western
    United States. The OIG discovered that
    a contractor misrepresented issues to the
    Postal Service Office of Facilities involv-
    ing contract performance. The Postal
    Service inadvertently accepted property
    that had significant hidden construction
    flaws. The OIG recommended that the
    Vice President for Purchasing and Mate-
    rials review the investigation and consid-
    er suspension and debarment of the con-
    tractor.
◆   The Vice President for Facilities referred
    information to the OIG regarding poten-
    tially fraudulent activity by the general
    contractor and an electrical subcontrac-
    tor. The contractors failed to perform
    contract requirements in a timely man-
    ner and improperly billed the Postal Ser-
    vice. OIG recommended to the Vice
    President for Purchasing and Materials
    that the Postal Service suspend and
    debar both contractors. Federal
    prosecution is pending.




                                                   The Postal Service has a fleet of
                                                   more than 200,000 vehicles to pick
                                                   up, transport and deliver the mail.




                                                  PAGE 59
                                                               accepting and verifying customer bulk mailings.
          INSPECTION SERVICE                                   However, 14 mailers were receiving unautho-
                                                               rized Postal Service transportation at an annual
          ADVERTISING AND PRODUCT
                                                               cost of $92,200, and there were no authorized
          SALES REVIEW
                                                               complements for each of the units reviewed.
               The Inspection Service and the OIG con-
                                                               Employee Skill Assessment logs and presort ver-
          ducted an audit of the advertising and sales of
                                                               ifications were not completed as required, and
          products and services within the Postal Service.
                                                               no procedure was in place to test, maintain, and
          The objectives of the audit were to determine
                                                               certify bulk mail acceptance scales. Manage-
          the efficiency, effectiveness, and system integri-
                                                               ment agreed with the findings and recommen-
          ty of the advertising and sales of products and
                                                               dations and initiated corrective action. (IS 046-
          services within the Postal Service by evaluating
                                                               1245790-PA (2))
          internal controls, organizational structure, goal
          alignment, and industry methods. Recommen-           EXPRESS MAIL CORPORATE
          dations were made for improvement in the             ACCOUNT ACTIVITY IN
          advertising process, corporate messaging, track-     MID-AMERICA DISTRICT
          ing of advertising expenditures, and generation            The Inspection Service conducted an audit
          of revenue through sales. Management general-        of the Express Mail Corporate Account activity
          ly agreed with the findings and indicated that       in the Mid-America District to identify oppor-
          many of the recommendations cited are either         tunities for improvements to enhance account
          currently in place or soon to be implemented.        management and lead to overall reductions in
          (IS 020-1230990-PA(1))                               Postal Service costs. The audit disclosed that
                                                               Express Mail acceptance and monitoring activ-
          PROCESSING AND DISTRIBUTION                          ities were not adequate to ensure proper account
          CENTERS AUTOMATION
                                                               verification or posting and collection of account
          PROGRAMS
                                                               revenue.
               The Inspection Service completed a
                                                                     Required data were not always recorded on
          national coordination audit on the automation
                                                               or extracted from Express Mail labels to allow
          program at two Processing and Distribution
                                                               accurate tracking of this mail and proper report-
          Centers. The audit concluded that the letter
                                                               ing of the transactions. The audit also showed
          mail automation program had a positive impact
                                                               that a large percentage of Express Mail articles
          on mail processing operations. Although the
                                                               addressed to Guam were not processed and
          overall impact on mail processing was positive,
                                                               delivered in time to meet established service
          there were opportunities to increase workhour
                                                               commitments. The audit concluded that oppor-
          savings by developing plans for reducing manu-
                                                               tunities exist at the national level to enhance
          al letter volumes and work hours. The Inspec-
                                                               the Express Mail Corporate Account program,
          tion Service recommended a reduction in the
                                                               improve Express Mail service to Guam, and
          number of remote encoding center sites to lower
                                                               increase revenue through a reduction of refunds.
          overhead costs and improve efficiency, and
                                                               Management agreed with the findings and rec-
          advised management to review the accuracy of
                                                               ommendations and initiated corrective action.
          volumes of first handling piece and total pieces
                                                               (IS 319-1206621-PA (3))
          handled contained in the Management Operat-
          ing Data System database. Management con-            TORT CLAIM COLLECTION
          curred with the recommendations. (IS 022-            PROCEDURES
          1232391-PA(1))                                            The Inspection Service found that tort
                                                               claim adjudicators did not always follow collec-
          CAPITAL METRO BUSINESS MAIL
                                                               tion procedures. As a result, adjudicators did
          ENTRY UNITS REVIEW
                                                               not seek reimbursement for damage to Postal
              An audit was conducted of the business
                                                               property that resulted from accidents where pri-
          mail entry units in the Capital Metro Area to
                                                               vate parties were at fault. In six districts
          evaluate training, transportation, and accep-
                                                               reviewed, Postal Inspectors found $110,000 in
          tance and verification procedures. The audit
                                                               potential collection where action either had not
          found that overall, the units were adequately


PAGE 60   VOICE OF THE BUSINESS
been taken, or was not timely. The files                tors have unrestricted access to specific
reviewed disclosed instances where letters of           accounts receivable applications without
demand had not been issued and where letters            second-party reviews and could write-off
were issued, no follow-up action was pursued if         material invoice amounts or process large
the private party did not respond. Further, files       credit memos without approval or review
did not always contain invoices from body               by a manager; and (3) timekeeping errors
shops or vehicle maintenance facilities to sup-         for employees who separated before the
                                                        end of a pay period resulting in them
port collection efforts in accidents where the
                                                        being paid for work hours subsequent to
private party was at fault. The Inspection Ser-
                                                        their separation date. (IS 001-1225936-
vice recommended that instructions be issued
                                                        AD(1))
requiring District tort claim adjudicators to
review all open tort claims to identify those       ◆   A Postal Headquarters Division used a
claims requiring collection action, and to              non-standard billing and receipt process
                                                        that did not require certification of
review collection modules in the Tort Claim
                                                        invoices based on receiving reports com-
Office Software at least quarterly to ensure that
                                                        pleted by a Material Distribution Center
proper and timely collection procedures are fol-
                                                        receiving clerk. Consequently, there was
lowed. (IS 045-1248616-PA(2))                           no independent inspection and physical          Retail staff provide a variety of services
FINANCIAL OPINION AUDITS                                counting of goods received to match the         to over 7 million customers every day.
                                                        quantities on delivery tickets and bills of
     The Inspection Service and the OIG con-
                                                        lading. Also, the Division recorded
ducted financial opinion audits at the three
                                                        incorrect goods received dates on invoic-
Postal Service accounting service centers and
                                                        es and prepared incorrect receiving
Postal Headquarters. These audits were con-             reports. Consequently, Postal Service
ducted in support of the independent public             paid invoices sooner than required under
accounting firm’s overall Postal Service finan-         the Prompt Payment Act, paid for more
cial opinion audit. The results follow:                 goods than were received, and expensed
◆   For one accounting service center, the              inventory items. (IS 011-1219706-AD (1))
    audit resulted in seven findings and nine
    financial accounting adjustments. Postal        DISTRICT ACCOUNTING OFFICE
    management agreed with all seven find-          AUDITS
    ings and accepted all proposed adjust-               The Inspection Service conducts District
    ments. The adjustments increased                Accounting Office audits to evaluate account-
    income by $20.9 million. The report             ing controls as a supplement to financial instal-
    also noted that five of the seven prior         lation audits.
    years’ findings had been completely             ◆ The Inspection Service reported that
    implemented with the other two partially             internal controls over the 16,000 postage
    implemented. (IS 001-1219706-AD(1))                  meters generating revenue of more than
◆   The annual audit of the second account-              $240 million during FY 1998 could be
    ing service center resulted in six findings          improved at a District accounting office.
    and four financial adjustments. Postal               It found that identification and control
    management agreed with all six findings              of delinquent customer meters tracked in
    and accepted three of the four proposed              the Metered Accounting and Tracking
    adjustments. The accepted adjustments                System could be improved. Postage
    decreased income by $4.1 million. (IS                meter revenue was not always verified
    001-1224758-AD(1))                                   with the revenue reported in the meter
                                                         accounting and tracking system as
◆   The annual audit of the third accounting             required. The simultaneous maintenance
    service center disclosed: (1) some Postal            of manual and automated forms resulted
    supervisors and timekeepers at electronic            in a duplication of work when tracking
    time clock sites throughout the country              meter activity and revenue. Manage-
    could add, change, and delete their own              ment did not provide the level of atten-
    clock rings, resulting in unauthorized               tion necessary to ensure that adequate
    clock changes; (2) database administra-              internal controls were in place to safe-


                                                                                                        PAGE 61
               guard meter revenue and detect lost,               findings in the areas of financial organi-
               stolen, or tampered meters. Management             zation, accounting and reporting, stamp
               officials agreed and committed to correct          stock administration, postage due/busi-
               the deficiency by FY 2000. (IS 016-                ness reply mail, business mail entry unit,
               1256413-AF(2))                                     periodical mailings, station internal con-
                                                                  trols, and penalty business reply mail.
          FINANCIAL INSTALLATION                                  Revenue deficiencies of over $33,000
          AUDITS                                                  were also identified. Uncollected revenue
               The Inspection Service conducted numer-            of over $10,000 in the official mail
          ous financial installation audits. The purpose of       accounting system and over $22,000 in
          these audits is to review the adequacy of inter-        delinquent post office box and caller ser-
          nal controls at the installation level, and the         vice fees accounted for the total. Man-
          results are considered in the overall planning of       agement agreed with the findings and
                                                                  recommendations and provided an action
          the financial opinion audit.
                                                                  plan to take corrective action. (IS 011-
          ◆    A financial installation audit of a post           1256430-AF(1))
               office resulted in the identification of
                                                              ◆   A financial installation audit at a post
               over $75,000 in revenue deficiencies.
                                                                  office resulted in the presentation of
               Examination of procedures at a detached
                                                                  three findings in the areas of office
               mail unit contractor disclosed that a
                                                                  accountability, postage due/business reply
               statement of mailing was unintentionally
                                                                  mail, and business mail entry unit opera-
               attached to another mailing statement
                                                                  tions. The lack of sufficient internal
               and had not been entered into the permit
                                                                  controls in these areas resulted in the
               system for withdrawal from the proper
                                                                  identification of over $34,000 in revenue
               account. The unit had also allowed 132
                                                                  deficiencies. Management agreed with
               entries to accumulate for a year as a
                                                                  the findings and recommendations and
               result of discrepancies on the optional
                                                                  provided an action plan to take correc-
               procedures summary logs. Management
                                                                  tive actions. (IS 011-1256584-AF(1))
               agreed with the finding and recommen-
               dations, collected the revenue deficiency,     ◆   A financial audit of a post office resulted
               and initiated corrective action on the             in four internal control findings and the
               discrepancies. (IS 011-1256279-AF(1))              identification of over $25,000 in revenue
                                                                  deficiencies. The state prison had
          ◆    A financial installation audit of a post
                                                                  reserved two blocks of caller numbers for
               office resulted in the presentation of five
                                                                  current and future use. While it paid the
               findings and the identification of over
                                                                  annual fees for the four bulk separations
               $39,000 in revenue deficiencies. Recom-
                                                                  of mail performed at the post office, it
               mendations that will strengthen internal
                                                                  had not paid the reservation fee for the
               controls were presented to management
                                                                  remaining numbers reserved for the
               in the areas of business mail acceptance,
                                                                  prison’s use, resulting in over a $23,000
               post office box and caller service, office
                                                                  revenue deficiency. Another customer
               accountability, disbursements, and capital
                                                                  was paying the lower automation-based
               property. The failure to collect the appro-
                                                                  business reply mail rates, for which the
               priate post office box and caller service
                                                                  customer was not eligible, resulting in
               fees at the main office and branch result-
                                                                  over a $2,000 deficiency. Internal control
               ed in the majority of the revenue defi-
                                                                  deficiencies were also identified in the
               ciencies over $36,000. A $2,598 revenue
                                                                  areas of office accountability and regis-
               deficiency resulted from the identifica-
                                                                  tered mail. (IS 011-1255654 AF(1))
               tion of eight newspaper editions not
               being entered into the permit system.
                                                              CONTRACT AUDITS
               Management agreed with the findings
               and recommendations outlined in the                 The Inspection Service conducts pre-
               report. (IS 011-1259853-AF(1))                 award and post-award contract audits. Pre- and
                                                              post-award contract audits provide information
          ◆    A financial installation audit at a post
                                                              on whether contractor’s costs are fair and rea-
               office resulted in the issuance of seven


PAGE 62   VOICE OF THE BUSINESS
sonable. The information is used by contract-           a contractor for the manufacture and
ing officers in negotiating contracts and as the        installation of tray sorter systems. A
basis to pay contractors. The audits are request-       Pennsylvania bulk mail center system
ed by management and performed by the                   proposal totaled approximately $1.7 mil-
Inspection Service or the Defense Contract              lion and a Texas bulk mail center annex
Audit Agency.                                           system proposal totaled approximately
                                                        $1.9 million. The audits identified over
◆   Inspectors completed contract audits of             $274,000 in questioned costs on the first
    two price proposals. The audit of a                 system proposal and over $131,000 on
    $89.4 million proposal for identification           the second proposal. The questioned
    code sort/code tracking equipment iden-             costs related to labor, materials, over-
    tified questioned costs of approximately            head, travel, and other direct costs. (IS
    $8.9 million and unsupported costs of               181-1270327-AC(1) and
    approximately $34 million. The audit of             181-1270335-AC(1))
    a $24.5 million proposal for a delivery
                                                    ◆   Postal Inspectors audited two guaranteed
    barcode sorter with optical character
                                                        maximum price contracts awarded to a
    reader, input subsystem, and output sub-
                                                        contractor for the construction of an
    system identified questioned costs of
                                                        Indiana and a Michigan postal facility.
    approximately $5.8 million and unsup-                                                              Inspection Service personnel
                                                        Postal Inspectors audited $4.5 million in
    ported costs of approximately $341,000.                                                            conduct a search warrant briefing.
                                                        project costs for the Indiana facility and
    The questioned costs in both proposals
                                                        questioned over $186,000. The $4.4
    included labor costs, other direct costs,
                                                        million incurred by the contractor on the
    overhead, materials, installation, general
                                                        Michigan project was deemed appropri-
    and administrative costs, warranties, roy-
                                                        ate, and no questioned costs were identi-
    alties, and profits. The unsupported costs
                                                        fied. (IS 182-1267500-AC(1) and
    in both proposals included costs for over-
                                                        182-1267502-AC(1))
    head, materials, and profits. (IS 181-
    1252323-AC(1) and IS 181-1252326-               ◆   The Inspection Service performed an
    AC (1))                                             audit of the internal controls over a fuel
                                                        supplier to determine whether the con-
◆   The Inspection Service audited $9.1 mil-
                                                        tractor was providing the product and
    lion in cost and pricing data associated
                                                        services in accordance with the terms of
    with the contract awarded to an airline
                                                        the contract. The Postal Service had
    for the Priority Mail criminal investiga-
                                                        entered into a contract with a fuel sup-
    tive system. The contracted amount for
                                                        plier for natural gas to be purchased and
    the system was $3.1 million. However,
                                                        delivered to the Illinois Postal facilities.
    the airline selected a subcontractor to
                                                        The audit determined that Postal Service
    acquire and install cameras for the sys-
                                                        internal controls over the contract
    tem. The subcontract cost exceeded $6
                                                        required improvement to ensure that the
    million and was not reviewed or autho-
                                                        contractor is properly billing the Postal
    rized by the contracting officer. The sub-
                                                        Service. Specifically, the inspectors
    contractor denied complete access to
                                                        found that the two Illinois Districts are
    accounting records in support of the sys-
                                                        not physically conducting meter readings
    tem costs. Therefore, the audit identi-
                                                        at the serviced Postal facilities. Reading
    fied $5.8 million as unsupported subcon-
                                                        gas meters is a viable means of ensuring
    tractor costs and questioned $1.2 million
                                                        that the local distribution company accu-
    in costs associated with general and
                                                        rately charges the Districts for gas con-
    administrative costs submitted by the air-
                                                        sumed. The inspectors also found that
    line. The audit concluded that the costs
                                                        neither District has designated a con-
    submitted by the airline do not provide
                                                        tracting officer representative for the gas
    an acceptable basis for negotiating a fair
                                                        services contract. The inspectors recom-
    and reasonable price. (IS 184-1243166-
                                                        mended that procedures be instituted to
    AC(1))
                                                        verify the amount of billed gas usage and
◆   The Inspection Service completed con-               that a contracting officer representative
    tract audits of two proposals submitted by          be designated at each of the serviced


                                                                                                        PAGE 63
               postal Districts. Management’s correc-            with contractors existed. (IS 237-
               tive actions were considered responsive           1223153-FPA(1))
               to the recommendations. (IS 187-
               1224876-AC(1))                                WORKERS’ COMPENSATION
                                                                  The Inspection Service investigates fraudu-
          FACILITY PROGRAM AUDITS                            lent claims and receipt of benefits by individual
          ◆    The Inspection Service completed an           employees. Unlike other federal agencies, these
               audit of a Washington Processing and          claims are paid from Postal revenues, not appro-
               Distribution Center facility construction     priations, thereby affecting its bottom-line net
               project. The audit concluded that the         income.
               driving force in the construction project
               decision-making process was the $5 mil-       ◆   Workers’ compensation benefits were ter-
               lion Area approval level. Specifically, the       minated for a letter carrier following an
               site and building size were reduced to stay       Inspection Service investigation. The
               under the $5 million level without full           carrier misrepresented job duties to the
               consideration of operational needs. The           physician and as a result was placed on
               report recommended planning facilities            the periodic rolls. The carrier agreed to
               that meet ten-year operational needs              return to work and clarified the exagger-
               without regard to funding levels; comple-         ated statements made to the physician.
               tion of Postal Service Major Facility             The future cost savings to the Postal Ser-
               Planning Data forms to accurately reflect         vice is over $1,107,000.
               space requirement needs; and assurance        ◆   As a result of an Inspection Service
               that sites are of proper size to support          investigation, a letter carrier was sen-
               project needs, including expansion. Area          tenced to 12 months in prison and one
               management agreed with the recommen-              year of probation for workers’ compensa-
               dations. (IS 197-1230607-FPA(2))                  tion fraud. In addition, the carrier was
          ◆    An Inspection Service review disclosed            ordered to pay restitution of over
               that an inappropriate arrangement exist-          $62,000. The future cost savings to the
               ed between the Postal Service and a real          Postal Service is over $949,000.
               estate consultant providing services to       ◆   As a result of an Inspection Service
               the Facility Services Office. The office          investigation, workers’ compensation
               manager improperly authorized a consul-           benefits were terminated for a letter car-
               tant access to the Facilities Management          rier. The investigation disclosed that the
               System database, and provided other               carrier consistently participated in activi-
               amenities such as a desk, computer, tele-         ties outside of medical restrictions. The
               phone, and general use of Postal                  employee subsequently resigned from the
               resources that were not part of the con-          Postal Service. The future cost savings to
               tract. This arrangement permitted the             the Postal Service is over $987,000.
               contractor to maintain almost unlimited
                                                             ◆   Workers’ compensation benefits were ter-
               access to Postal Service operating and
                                                                 minated for a part-time flexible clerk.
               financial information through the data-
                                                                 The Inspection Service investigation dis-
               base, and provided him with a competi-
                                                                 closed that the clerk routinely exceeded
               tive advantage over other contractors at
                                                                 physical limitations and dictated medical
               increased risk of liability to the Postal
                                                                 restrictions to the physician. The clerk
               Service. Furthermore, this contractor
                                                                 was subsequently terminated by the
               could potentially profit by the disclosure
                                                                 Postal Service. These efforts resulted in
               of proprietary information to competing
                                                                 future cost savings to the Postal Service
               contractors or to other interested parties
                                                                 of over $793,000.
               and adversely impact the Postal Service’s
               ability to obtain the best price for goods    ◆   The Inspection Service investigation dis-
               and services in future transactions. This         closed that a letter carrier engaged in
               arrangement has been discontinued, and            outside employment and failed to report
               management implemented action to                  the earnings to the Department of Labor
               ensure that no other similar arrangement          while collecting workers’ compensation


PAGE 64   VOICE OF THE BUSINESS
    benefits. The benefits were terminated        REVENUE INVESTIGATIONS
    and the carrier resigned. As a result of
                                                       Inspectors report the results of revenue
    this investigation, the future cost savings
                                                  investigations to help Postal management
    to the Postal Service is over $756,000.
                                                  identify deficiencies and strengthen preventive
◆   An Inspection Service investigation dis-      measures. Following are significant reviews
    closed that a mailhandler from Florida        reported during this semiannual reporting
    consistently exceeded physician’s restric-
                                                  period.
    tions and had not received medical
    attention for almost a year. Workers’         ◆   The Inspection Service conducted
    compensation benefits were terminated             reviews at 57 meter-manufacturer sites
    and the mailhandler returned to work              and the post offices servicing these loca-
    under a modified permanent position.              tions. Opportunities for improvement
    This action resulted in a future cost sav-        were identified at all levels within the
    ings to the Postal Service of over                meter fee structure. At some sites, a fail-
    $671,000.                                         ure to separate the duties assigned to
                                                      Postal employees led to the embezzle-
◆   An Inspection Service investigation of a
                                                      ment of funds. Inspectors also found that
    mail processor in California determined
                                                      an outdated costing system left most
    that an employee consistently violated
                                                      clerks confused as to when fees should be
    medical restrictions while collecting                                                           Inspection Service forensic and
                                                      assessed. Management agreed with rec-
    workers’ compensation benefits. The                                                             technical specialists support
                                                      ommendations related to separation of
    employee was offered a limited-duty posi-                                                       investigative efforts.
                                                      duties and updating the fee structure.
    tion but failed to report to work. Benefits
                                                      However, management did not agree
    were terminated. The future cost savings
                                                      with a recommendation related to on-site
    to the Postal Service is over $629,000.
                                                      duties and responsibilities for revenue
◆   A Postal clerk was indicted by a federal          loss detection. After management
    grand jury on 18 counts of workers’ com-          reviewed stated procedures regarding the
    pensation fraud. Investigation by Postal          applicability of a surcharge for checking a
    Inspectors disclosed that the clerk was           meter in or out of service, it was deemed
    receiving workers’ compensation benefits          that a $2.2 million surcharge would not
    while working with the Air Force                  be appropriate. Management agreed to
    Reserves. The clerk failed to disclose            review the current regulations and pub-
    $19,000 in earnings to the Department             lish clear instructions to the field.
    of Labor. The future cost savings to the
                                                  ◆   The Inspection Service conducted a
    Postal Service is over $614,000.
                                                      postage meter security review of a busi-
◆   A mailhandler pled guilty to making false         ness customer to determine whether pro-
    statements to obtain workers’ compensa-           cedures protected postage meters from
    tion benefits. This individual was sen-           unauthorized use. Five findings were pre-
    tenced to 15 months in prison, followed           sented to management to improve meter
    by three years’ supervised release, and           control and security. Deficiencies were
    was ordered to pay restitution of over            identified in the areas of meter invento-
    $33,000. As a result of this Inspection           ries, meter inspections, control of meters
    Service investigation, the future cost sav-       in service, ascending register adjust-
    ings to the Postal Service is over                ments, and improperly set meters. Man-
    $555,000.                                         agement agreed with the recommenda-
◆   The Inspection Service undercover                 tions and began corrective action.
    investigation revealed that a Minnesota       ◆   A university violated the nonprofit mail
    mailhandler failed to report $50,000 in           regulations when it used its nonprofit sta-
    outside employment while collecting               tus to send joint mailings with several
    workers’ compensation benefits. Benefits          “for profit” businesses. Following the
    were subsequently terminated. Prosecu-            receipt of a Postal Inspector’s report, the
    tion is pending. The future cost savings          Postal Service asked the university to pay
    to the Postal Service is over $539,000.           an additional $33,000, the difference



                                                                                                     PAGE 65
               between the nonprofit and regular rates         EMBEZZLEMENTS
               of postage. Postal regulations allow only            Inspection Service investigations resulted
               materials belonging to authorized agen-         in the following:
               cies to be mailed using the nonprofit
               rates of postage. There has been a              ◆   A Postal contract station employee in
               decline in the number of reported viola-            Illinois pled guilty to embezzlement of
               tions by nonprofit organizations, but mis-          over $211,000 in funds from stamp sales.
               use continues despite Postal Service            ◆   A window clerk in Massachusetts was
               efforts.                                            indicted for misappropriation of $90,000
          ◆    The Inspection Service reviewed accep-              in Postal funds.
               tance procedures at a business mail entry       ◆   A window clerk embezzled more than
               unit following the bribery of a bulk mail           $82,000 in postage meter funds. A tech-
               clerk by the business mailer in Florida.            nician at the District Accounting Office
               The Postal clerk and business mailer were           discovered a discrepancy with customer
               involved in the bribery scheme and both             meter control records at the post office.
               pled guilty. Inspectors identified a loss of        Postal Inspectors discovered that on sev-
               $900,000 resulting from mailings over a             eral occasions meter records were voided
               two-year period. Inspectors recommend-              by the window clerk and reissued for a
               ed steps to better control documents used           lower amount. The clerk disguised the
               when business mailings are cleared for              embezzlement by maintaining two sets of
               acceptance. Management agreed with                  meter records. Prosecution is pending.
               the recommendations.
                                                               ◆   A window clerk in Maine pled guilty to
                                                                   misappropriation of Postal funds. Investi-
          POSTAL BURGLARIES
                                                                   gation by the Inspection Service revealed
               The Inspection Service employs sophisti-            that the clerk falsified records and failed
          cated burglary prevention techniques and                 to record customer postage meter sales
          detection devices to make Postal facilities less         transactions, converting over $150,000
          vulnerable to attack. Burglaries may result in           for personal use. The scheme ended with
          property losses or mail thefts and indirect losses       the voluntary resignation by the clerk.
          for repair damages from forced entries. During       ◆   A window clerk in Virginia resigned from
          this reporting period, the Inspection Service            the Postal Service after admitting to the
          received 154 reports of burglaries, made 90              embezzlement of $5,000.
          arrests, and obtained 75 convictions.
                                                               ◆   A window clerk in California was arrest-
          ◆    In December 1998, Postal Inspectors and             ed for misappropriation of $33,000 in
               a task force of local and federal law               Postal funds.
               enforcement agencies in the New York
                                                               ◆   A customer service supervisor in Michi-
               City and Newark areas arrested 56 indi-
                                                                   gan was sentenced to four years’ proba-
               viduals who were part of a stolen cargo
                                                                   tion and court-ordered restitution for the
               ring; eight corporations were also indict-
                                                                   embezzlement of over $49,400.
               ed. The case had initiated from a Postal
               Inspection Service investigation of a           ◆   A large contractor that packages stamps
               string of postal burglaries involving the           for vending and retail stores reported a
               fencing of stolen stamps. One of the                stamp shortfall. The contractor’s surveil-
               leaders of the ring was responsible for             lance camera showed an employee
               selling over $5 million in stolen mer-              removing stamps from the area. The
               chandise, including over $700,000 in                employee admitted stealing 2,000 stamps
               stolen postage stamps. Also charged in              to sell for cash to support a cocaine habit.
               connection with the case were a member              All of the stamps were recovered.
               of a New York organized crime family
               and the owner of a stamp business. The
               ring sold checks stolen from the mail,
               ordered merchandise with stolen credit
               card information, and filed false insur-
               ance claims.

PAGE 66   VOICE OF THE BUSINESS
EXPENDITURE INVESTIGATION
     An Inspection Service investigation
resulted in a former manager of an auto body
shop pleading guilty in federal court to one
count of conspiracy for submission of false
billings for work not performed on Postal
vehicles. The former manager was sentenced
to two years’ probation and restitution of
approximately $8,500 to his employer. The
shop has made restitution of over $55,000 to
the Postal Service.




                                               PAGE 67
PAGE 68   VOICE OF THE BUSINESS
Legislative and
Regulatory Review




   DID YOU
   KNOW?
  Does the Postal Service follow laws that
  apply to Federal agencies?
  Except for certain laws, statutes, and regulations
  expressly made applicable to the Postal Service,
  most Federal laws of government-wide
  applicability do not apply to the Postal Service.
  This permits the Postal Service, an independent
  establishment of the executive branch, to operate
  in a competitive marketplace.




                                             PAGE 69
                                                                    Section 633(a) amends Title 39, Section
          LEGISLATIVE AND                                      407 of the United States Code regarding inter-
          REGULATORY REVIEW                                    national Postal arrangements. The newly
                The following section summarizes OIG           enacted section prescribes that the Secretary of
          reviews of existing and proposed legislation and     State has primary responsibility for formulation,
          regulations relating to the Postal Service. These    coordination, and oversight of policy with
          reviews, which are required by the Inspector         respect to United States participation in the
          General Act, are intended to inform Congress         Universal Postal Union. The Postal Service
          about how legislation and regulations could          may not conclude any treaty or convention
          impact economy and efficiency, and the preven-       related to the delivery of international Postal
          tion and detection of fraud and abuse, in Postal     services, or establish rates of postage on mail
          Service programs and operations. This portion        matter conveyed between the United States
          of the report summarizes significant legislation     and other countries that is inconsistent with the
          and regulations advanced between October 1,          coordination and oversight of the Secretary of
          1998, and March 31, 1999. During this period,        State. Prior to the enactment of this legislation,
          the OIG reviewed approximately 1,300 House           the Postal Service, without consent from the
          bills, 700 Senate bill and several hundred pro-      Secretary of State, and with the consent of the
          posed and final rules and regulations.               President only, negotiated and concluded inter-
                                                               national Postal arrangements and established
          ENACTED LEGISLATION                                  international postage rates. This change could
                                                               affect the ability of the Postal Service to capture
          PUBLIC LAW 105-277 — OMNIBUS
          CONSOLIDATED AND EMERGENCY                           revenue in a timely manner for the internation-
          SUPPLEMENTAL APPROPRIATIONS ACT                      al services it provides. Changes in the way the
                                                               Postal Service raises revenue are of continuing
               This public law, a collection of laws affect-
                                                               interest to the OIG.
          ing many areas of the federal government, con-
                                                                    Section 648 amends Chapter 36 of Title 39
          tains provisions that affect the Postal Service
                                                               by adding an annual reporting requirement for
          and the OIG.
                                                               international Postal services. The newly enact-
               Section 627 provides protection to federal
                                                               ed section requires the Postal Service to provide
          law enforcement officers who intervene in cer-
                                                               to the Postal Rate Commission such data as the
          tain situations. The law, originally known as
                                                               Commission may require to prepare a report to
          the Federal Law Enforcement Officers’ Good
                                                               Congress on costs, revenues, and volumes
          Samaritan Act of 1998, enacts a rule of con-
                                                               accrued by the Postal Service in connection
          struction for Chapter 171 of Title 28 of the
                                                               with each international mail product or service
          United States Code stating that a federal law
                                                               the Postal Service provides to its customers.
          enforcement officer will be deemed to be acting
                                                               The OIG provides an audit function for the
          within the scope of the officer’s employment if
                                                               information gathered and provided by the
          the officer takes reasonable action, including
                                                               Postal Service.
          the use of force, to protect an individual in the
                                                                    Known originally as the McDade Amend-
          officer’s presence from a crime of violence, pro-
                                                               ment but now entitled “Ethical Standards for
          vides assistance to an individual who has suf-
                                                               Federal Prosecutors,” Section 801 amends
          fered or is threatened with bodily harm, or pre-
                                                               Chapter 31 of Title 28 of the United States
          vents the escape of an individual whom the offi-
                                                               Code. It requires that an attorney for the gov-
          cer believes has committed a crime of violence.
                                                               ernment be subject to laws and rules, and local
          This law protects federal law enforcement offi-
                                                               federal court rules, of the state in which the
          cers from lawsuits when they take action to help
                                                               attorney performs the attorney’s duties. Attor-
          others in emergency situations. The Postal Ser-
                                                               neys for the government include specified cate-
          vice and OIG employees whose primary duties
                                                               gories of attorneys of the Department of Justice,
          are to investigate, apprehend, or detain individ-
                                                               the Federal Bureau of Investigation, and the
          uals suspected or convicted of committing fed-
                                                               Drug Enforcement Administration, and any
          eral crimes are covered by this law.
                                                               other attorney employed by the Department of



PAGE 70   LEGISLATIVE AND REGULATORY REVIEW
Justice who is authorized to conduct criminal or      statement audit is now the responsibility of the
civil law enforcement proceedings on behalf of        Board of Governors, and the OIG acts as co-
the United States. This newly enacted law will        contracting officer’s representative with Postal
make criminal or civil law enforcement pro-           Service management.
ceedings by Justice Department attorneys on                 H.R. 22 would dramatically change the
behalf of the Postal Service subject to a variety     way the Postal Service conducts its business.
of state laws and rules, which formerly had been      Provisions of the bill that clarify the OIG’s rela-
superseded by federal laws and rules.                 tionship with the Postal Service are important
                                                      to the OIG in carrying out its statutory respon-
PROPOSED LEGISLATION
                                                      sibilities.
H.R. 22 — POSTAL MODERNIZATION                        H.R. 305 — THE OFFICE OF
ACT OF 1999                                           INSPECTOR GENERAL OVERSIGHT
      H.R. 22 would modify the nation’s Postal        ACT OF 1999
laws. It is virtually the same bill that was intro-        This bill would establish a seven-member
duced late in the last session of Congress but        council to oversee the operations of Inspectors
never reached the House floor for consideration       General throughout the federal government.
and a vote. The OIG reviewed and comment-             The majority and minority leaders of each
ed generally on H.R. 22 in the last Semiannual        house of Congress would each appoint a mem-
Report to Congress.                                   ber, and the remaining three would be selected
      Particularly noteworthy to the OIG is a         jointly by Inspectors General of federal agen-
provision of the bill that specifies the Inspector    cies. The council would hear and investigate
General of the Postal Service would be a presi-       complaints about decisions and actions of
dential appointee, but allows the current             offices of Inspectors General and issue recom-
Inspector General to serve for the remainder of       mendations regarding such complaints.
her seven-year term to 2004. The Inspector                 H.R. 305 impacts the Postal Service OIG
General would report to and be under the gen-         directly. It would establish a limited form of
eral supervision of the Postmaster General.           oversight at the OIG. While the council’s only
This bill retains the existing provision that no      authority over Inspectors General would be to
officer, employee, or Board member of the             issue recommendations regarding any decisions
Postal Service could prevent the Inspector            and actions by Inspector Generals, the council        More than 775,000 employees
General from issuing subpoenas or initiating,                                                               deliver over 650 million pieces
                                                      would submit a report to Congress listing its         of mail every day.
carrying out, or completing any audit or inves-       activities and recommendations. Congress
tigation. The Inspector General would retain          could take action affecting the Inspector Gen-
oversight responsibilities for the Inspection Ser-    erals based on the council’s recommendations.
vice, whose Chief Postal Inspector would still
be required to promptly report on significant         S. 335 — DECEPTIVE MAIL PREVEN-
                                                      TION AND ENFORCEMENT ACT, and
activities. Information from Inspection Service
reports would be included in the Inspector Gen-       S. 336 — DECEPTIVE GAMES OF
eral’s Semiannual Report to Congress. This            CHANCE MAILINGS ELIMINATION ACT
would clarify current questions about what            OF 1999
information should be provided to the OIG by                S. 335 and S. 336 deal with deceptive mail-
the Inspection Service for inclusion in the           ings and sweepstakes letters. The bills would
Semiannual Report to Congress.                        prohibit the mailing of sweepstakes and other
      The Inspector General would retain hiring       promotional letters unless they contain clearly
authority for officers, employees, consultants,       written and easily understood participation
and experts for the OIG. The OIG would                rules and advisories on the recipients’ chances
receive appropriations from the Postal Service        of winnings.
Fund. The Inspector General would have                      In addition to regulating mailings, the leg-
authority to audit the financial statements of        islation augments the ability of the Postal Ser-
the Postal Service or hire an independent exter-      vice in certain instances to obtain temporary
nal auditor to perform the audit. The financial       restraining orders and preliminary injunctions


                                                                                                             PAGE 71
                                          to detain suspected illegal mailings. Under cur-        greater of $250,000 or three times the amount
                                          rent law, the Postal Service can apply only to          of compensatory damages. If the defendant is
                                          the court in the district in which the defendant        an individual whose net worth does not exceed
                                          receives mail for a preliminary injunction or           $500,000, or is an entity with fewer than 25 full-
                                          temporary restraining order. Under the pro-             time employees, the cap is lower. The legisla-
                                          posed law, the Postal Service could make appli-         tion also establishes certain defenses for busi-
                                          cation in any district in which mail is sent or         nesses with Y2K problems and provides for a 90-
                                          received as part of an alleged scheme, device,          day waiting period before a plaintiff can bring
                                          lottery, or gift enterprise, or in any district where   suit in order to encourage alternative dispute
                                          the defendant is found. Upon a showing of               resolution.
                                          probable cause, the court would issue an order               The Postal Service relies extensively on
                                          directing the Postal Service to detain, in any          external suppliers that are critical to moving
                                          and all districts, the defendant’s incoming and         mail, such as airlines, railroads, and the trucking
                                          outgoing mail in furtherance of the scheme.             industry. These suppliers are susceptible to the
                                               Both bills provide additional subpoena             Y2K problem. The legislation’s caps on dam-
                                          authority for the Inspection Service by adding a        ages would limit the amount recoverable as a
                                          new section to the code authorizing the use of          result of a Y2K problem of a supplier. Similarly,
                                          administrative subpoenas by the Postmaster              if the Postal Service were sued because of a Y2K
                                          General. For use in investigations conducted            problem, this legislation would limit the
                                          under Chapter 30 of Title 39, the Postal Service        amount of money a plaintiff could collect from
                                          could subpoena any records or material relevant         the Postal Service.
                                          to the investigation. To enforce these subpoe-
                                                                                                  H.R. 308 — THE HEALTH FRAUD AND
                                          nas, the Postmaster General could request the           ABUSE ACT OF 1999
                                          aid of the Department of Justice in any judicial
Kickoff celebration for OIG’s Combined                                                                  This legislation builds upon Public Law
                                          district in which the person served resides, is
Federal Campaign drive.                                                                           104-191, the Health Insurance Portability and
                                          found, or transacts business.
                                                                                                  Accountability Act. The proposed legislation
                                               This legislation would give the Postal Ser-
                                                                                                  attempts to improve through various mecha-
                                          vice, particularly the Inspection Service, more
                                                                                                  nisms federal law enforcement efforts against
                                          law enforcement authority. The legislation’s
                                                                                                  health care fraud and abuse. First, it would
                                          enhanced law enforcement authority is of inter-
                                                                                                  expand activities of law enforcement and state
                                          est to the OIG because the OIG has oversight
                                                                                                  agencies responsible for licensing and certifica-
                                          responsibility for the Postal Inspection Service.
                                                                                                  tion of health care providers. Second, it would
                                          S. 96 — Y2K ACT, and                                    establish a health care fraud and abuse control
                                                                                                  unit in each of the 50 states, to be funded by
                                          S. 461 — YEAR 2000 FAIRNESS AND
                                                                                                  fines received in health care fraud criminal and
                                          RESPONSIBILITY ACT
                                                                                                  civil cases. Monies from this account would also
                                                This legislation addresses anticipated legal      be used to pay for 75 percent of the costs
                                          action that might arise as a result of economic         incurred by these state health care fraud and
                                          losses suffered because of computer failure at the      abuse control units. Third, the bill would pro-
                                          beginning of the year 2000. As has been wide-           mote and encourage data-sharing among all fed-
                                          ly reported in recent years, for some computers         eral, state, and local law enforcement groups
                                          now in use, the year 2000 will be indistinguish-        and other agencies involved in licensing health
                                          able from the year 1900. Companies using these          care providers.
                                          computers may experience disruptions in pro-                  This legislation would strengthen federal
                                          cessing orders and servicing their customers.           law enforcement authority in combating health
                                          This legislation defines a Y2K action, provides         care fraud and abuse. It would provide federal
                                          for alternative dispute resolution, and limits lia-     officials with more tools to investigate and pros-
                                          bility. It provides for proportionate liability to      ecute health care providers who defraud federal
                                          the degree that the defendant was responsible           health care recipients and their federal employ-
                                          for the loss. The legislation limits the amount         ers. While the Postal Service OIG is not one of
                                          of punitive damages that can be awarded to the          the Inspectors General specifically charged with


                                PAGE 72   LEGISLATIVE AND REGULATORY REVIEW
conducting the audits, civil and criminal inves-          This legislation would affect how the
tigations, inspections, and evaluations relating     Postal Service constructs, relocates, consoli-
to the prevention, detection, and control of         dates, or closes a Postal facility. It adds “con-
health care fraud and abuse, the OIG would           struction” and “relocation” to existing law gov-
work with these offices to assist them in elimi-     erning consolidations and closings. Provisions
nating health care fraud.                            of the bill would require the Postal Service to
                                                     follow procedures established within the com-
H.R. 198 — POSTAL SERVICE CORE
BUSINESS ACT OF 1999                                 munity for such actions if these procedures are
                                                     more stringent than those contained in the bill.
     This bill would prohibit the Postal Service
                                                     The legislation also would require the Postal
from making available to the public any com-
                                                     Service to undertake actions pertaining to facil-
mercial non-Postal service except those services
                                                     ity proposals in accordance with the National
that were offered nationwide by the Postal Ser-
                                                     Historic Preservation Act. Upon passage of the
vice as of January 1, 1994. Examples of com-
                                                     Post Office Community Partnership Act, indi-
mercial non-Postal services are volume retail
                                                     viduals and downtown communities would be
photocopying, packaging services (including
                                                     allowed the opportunity to offer alternatives to
gift-wrapping services), notary public services,
                                                     Postal Service facilities proposals.
and the sale of office supplies.                                                                          Warren Blank, a renowned lecturer,
     In recent years the Postal Service has been     H.R. 479 — A BILL TO AMEND THE                       spoke on leadership at the OIG Annual
expanding the services it offers to its customers.   DAVIS-BACON ACT                                      Recognition Day.
This has resulted in increased convenience                 The Postal Service is bound by provisions
for postal customers and additional revenue for      of the Davis-Bacon Act pertaining to the use of
the Postal Service. If H.R. 198 becomes law,         mechanics and laborers. If the Postal Service
any services that began after January 1, 1994,       contracts for laborers and mechanics in a state
would have to be eliminated. The result could        where their work is required to be licensed, the
be decreased revenue for the Postal Service and      Postal Service would have to use state-licensed
a loss of customers as postal patrons look else-     individuals to perform the work under this
where to replace discontinued services and           amendment to the Davis-Bacon Act.
products.
                                                     H.R. 617 — FEDERAL FACILITY SUPER-
H.R. 670/S. 556 — POST OFFICE                        FUND COMPLIANCE ACT OF 1999
COMMUNITY PARTNERSHIP ACT                                  This bill would provide for a waiver of sov-
OF 1999                                              ereign immunity in certain instances, subject-
     This legislation would require the Postal       ing entities of all three branches of the federal
Service to follow more extensive community           government to the same federal, state, inter-
notice procedures than found in existing law         state, and local requirements for response or
before relocating, closing, consolidating, or        restoration actions related to releases or poten-
constructing a Postal facility. The legislation      tial releases of hazardous substances, pollutants,
would allow for greater individual and commu-        or contaminants that apply to a nongovern-
nity input before the Postal Service could           mental entity. The legislation authorizes the
implement a facility proposal. It also would         Environmental Protection Agency to issue an
require the Postal Service to take into account      abatement order to a federal entity and requires
the adequacy of the existing facility; whether       initiation of administrative enforcement action
the Post Office is part of a core downtown busi-     by the federal entity in the same manner and
ness area; the potential effect of the proposed      same circumstances as would apply to any other
action on the community; reasonable alterna-         person. H.R. 617 would preclude remedial
tives to the proposed actions; and applicable        action agreements from impairing or diminish-
zoning, planning, or land use laws. The Post-        ing state authority to enforce requirements of
master General would have emergency author-          state law, unless such requirements have been
ity to temporarily suspend the application of        addressed or waived without objection from the
these provisions for a period not to exceed          state. This bill also removes a provision for
30 days.                                             application and preemption of state law.



                                                                                                          PAGE 73
                                              This legislation could affect Postal rev-            This legislation is directed at bulk mailers
                                         enues to the degree to which the Postal Service      of sweepstakes entries and other solicitations
                                         was fined for violations of environmental laws.      that seem to indicate recipients have already
                                         The Postal Service would have to factor in pos-      won a prize or are very close to winning one,
                                         sible fines and their impact on its operation for    and all that remains to be done is respond to
                                         financial planning purposes. As a result, Postal     the sender, usually by agreeing to buy the
                                         revenues could be affected.                          pitched product or service. Senior citizens have
                                                                                              been particularly susceptible to such solicita-
                                         H.R. 439 — THE PAPERWORK ELIMI-
                                         NATION ACT OF 1999                                   tions, not fully appreciating the unlikelihood of
                                                                                              actually winning.
                                               This legislation would amend the Paper-
                                                                                                   The legislation would require the Postal
                                         work Reduction Act by directing the federal
                                                                                              Service and the Inspection Service to police
                                         government to provide those doing business
                                                                                              senders of deceitful mailings. The legislation
                                         with the government the option of using elec-
                                                                                              could affect net revenue from direct mail, not
                                         tronic communication rather than sending
                                                                                              only by inhibiting prize and sweepstakes mail-
                                         paperwork through conventional mail delivery.
                                                                                              ings, but also by increasing the commitment of
                                         The bill encourages the use of electronic signa-
                                                                                              personnel resources needed to identify illegal
                                         tures to facilitate the transmission of docu-
                                                                                              mail, suspend its delivery, and destroy it.
OIG Executives attend the Postal         ments. If small businesses, educational and
                                                                                                   S. 301 prohibits the Postal Service from
Service National Executive Conference    nonprofit institutions, federal contractors, state
in Dallas, Texas.                                                                             carrying and delivering any mail sent in viola-
                                         and local governments, and other persons take
                                                                                              tion of this law and requires the Postal Service
                                         widespread advantage of electronic filings with
                                                                                              to destroy it. The legislation also provides for
                                         the federal government, as encouraged by this
                                                                                              penalties for those who violate the law, not to
                                         bill, revenues of the Postal Service could be
                                                                                              exceed $2,000,000. Penalty fees collected
                                         affected.
                                                                                              would be put into a fund that the Postal Service
                                         H.R. 170/S. 301 — HONESTY IN                         could use to increase consumer awareness of
                                         SWEEPSTAKES ACT OF 1999, and                         misleading solicitations. Part of this awareness
                                                                                              program would be the annual publication of the
                                         H.R. 237 — A BILL TO AMEND TITLE
                                                                                              top ten offenders of the law.
                                         39, UNITED STATES CODE, TO REQUIRE
                                         CERTAIN NOTICES IN ANY MAILING                       H.R. 229 — THE FREE TRADE WITH
                                         USING A GAME OF CHANCE FOR                           CUBA ACT, and
                                         THE PROMOTION OF A PRODUCT
                                         OR SERVICE                                           H.R. 1181 — A BILL TO LIFT THE
                                                                                              TRADE EMBARGO ON CUBA
                                              H.R. 170, S. 301, and H.R. 237 prohibit
                                         the Postal Service from delivering mail in con-           This legislation would repeal federal laws
                                         nection with a sales promotion involving any         that restrict trade with Cuba. A provision of
                                         game of chance and mail that resembles a nego-       both bills requires the Postal Service to begin
                                         tiable instrument, unless that mail complies         direct mail service with Cuba. Currently, there
                                         with regulations that the Postal Service would       are no direct U.S. commercial flights to Cuba
                                         issue. This legislation requires that the enve-      on which mail can be transported.
                                         lope carry the following notice or a notice to the        If common carrier service between the
                                         same effect, in words that the Postal Service        United States and Cuba is not available, the
                                         could prescribe: “This is a game of chance (or       Postal Service would have to charter carriers to
                                         sweepstakes, if applicable). You may not have        take the mail between the two countries. Costs
                                         automatically won.” A similar message and the        of chartering carrier service could be more
                                         mathematical probability of winning would            expensive than fees charged for regularly sched-
                                         have to appear on the first page of the enclosure.   uled commercial flights. Thus, initially, rev-
                                         Other provisions of the bills would make it ille-    enues generated for the Postal Service by the
                                         gal to send mailings that resemble negotiable        restoration of mail service might be depressed.
                                         instruments unless they conspicuously display        The Postal Service could also incur extraordi-
                                         disclaimers stating they have no cash value.         nary costs in establishing service. However,



                               PAGE 74   LEGISLATIVE AND REGULATORY REVIEW
given the large Cuban-American population in           congratulating persons who have achieved
the United States, direct mail service between         some public distinction.
the two countries could eventually generate net             Because the Postal Service is reimbursed
revenues for the Postal Service.                       for congressional use of the frank, Postal rev-
                                                       enues could be affected if House members,
S. 712 — LOOK, LISTEN, AND LIVE
STAMP ACT                                              being barred from using the frank, choose not to
                                                       mail these items using their own funds.
      This legislation provides for the issuance of
a postage stamp with a special postage rate con-
sisting of the regular First-Class rate, plus a dif-
                                                       REGULATIONS
ferential not to exceed 25 percent of the First-       FINAL RULES
Class rate. The difference would be paid to the
Department of the Treasury to fund a program           DELIVERY OF MAIL TO A COMMERCIAL
to improve road crossings at railroad tracks.          MAIL RECEIVING AGENCY
The Postmaster General would be responsible                 This final rule amends the Domestic Mail
for tracking and reporting the money received          Manual to update and clarify procedures for
under this program and the amount sent to the          delivery of an addressee’s mail to a commercial
Secretary of the Treasury.                             mail receiving agency (CMRA). It is intended
      The mechanism employed in this bill to           to increase the safety and security of the mail by
garner public support of a worthy cause is pat-        reducing the opportunities to use the mail for
terned after the successful Breast Cancer              fraudulent purposes. The rule is intended to
Awareness Stamp program. Like the stamp                ensure that mailers are confident that the
referred to in S. 712, the breast cancer aware-        addresses provided by prospective customers are
ness stamp was sold at an amount higher than           actually used by these customers, and that the
                                                                                                            Inspector General Corcoran
the First-Class rate, and the difference was spent     mail will reach the recipient, rather than be        discusses OIG’s vision, values
to fund breast cancer research. The breast can-        returned to the sender. The rule provides pro-       and philosophy before new
cer stamp was successful in raising awareness of       cedures for registration to act as a CMRA, for       employee orientation.
an important and popular cause, funds for              an addressee to request mail delivery to a
research, and revenues for the Postal Service.         CMRA, and for delivery of mail to a CMRA.
S. 712 probably will not be the last bill to use       One of the principal provisions under the final
this approach to raise funds for a popular cause.      rule is the required use of the delivery address
Postal revenues should increase whenever the           designation “PMB” to denote private mailbox.
stamp issued represents a popularly supported          This rule adopts, with changes, a proposed rule
cause.                                                 published for public comment on August 27,
                                                       1997, in the Federal Register: Volume 62, Num-
H.R. 596 — A BILL TO PREVENT
CERTAIN TYPES OF MAIL MATTER                           ber 66, Pages 45366–45368. This final rule is
FROM BEING SENT BY A MEMBER                            effective April 26, 1999. Federal Register:
OF THE HOUSE OF REPRESENTATIVES                        March 25, 1999 (Volume 64, Number 57, Pages
AS PART OF A MASS MAILING                              14385–14391)
     This bill would limit the use of the con-         DOMESTIC MAIL MANUAL
gressional franking privilege. A member of the         CHANGES TO IMPLEMENT THE
House of Representatives would not be able to          DELIVERY CONFIRMATION
send, as part of a mass mailing, congressional         PROGRAM CHANGES IN DOCKET
newsletters and press releases; reports of public      NO. R97-1
and official acts taken by members of Congress;             This final rule contains the Domestic Mail
discussions of proposed or pending legislation or      Manual standards adopted by the Postal Service
governmental actions and the positions of the          to implement delivery confirmation service,
members of Congress regarding such matters;            effective March 14, 1999. A new delivery con-
congressional questionnaires seeking public            firmation service is offered with Priority Mail
opinion on any law, pending or proposed legis-         and with Standard Mail (B) (Parcel Post,
lation, public issue or subject; and mail matter       Bound Printed Matter, Special Standard Mail,



                                                                                                            PAGE 75
                                    and Library Mail). This service will provide the     introduced on an interim basis for use with
                                    mailer with information about the date and           Global Direct-Canada Admail. This final rule
                                    time an article was delivered and, if delivery was   also adopts the ancillary services described by
                                    attempted but not successful, the date and time      the interim rule. Federal Register: January 19,
        DID YOU                     of the delivery attempt. Delivery confirmation       1999 (Volume 64, Number 11, Pages
        KNOW?                       may be combined with insured mail, registered
                                    mail, parcel airlift, COD, or special handling.
                                                                                         2855–2857). This final rule was further modi-
                                                                                         fied to reflect a rate change effective March 1,
                                    Delivery confirmation may be combined with           1999. Federal Register: March 1, 1999 (Volume
                                    restricted delivery if purchased along with insur-   64, Number 39, Pages 9915–9916)
Does the OIG follow Postal          ance for over $50, COD, or registry service.
                                                                                         INTERNATIONAL PRIORITY AIRMAIL
Service procedures?                 Federal Register: March 10, 1999 (Volume 64,         SERVICE
                                    Number 46, Pages 12072–12078)
To the extent practicable, the                                                                The Postal Service proposes to change
                                    USE AND DETERMINATION OF                             postage rates and conditions of service for Inter-
OIG follows Postal Service proce-   POSTAGE VALUE OF BREAST CANCER                       national Priority Airmail service. In addition to
dures. However, when necessary,     RESEARCH SEMI-POSTAL STAMP                           adjusting rates, the Postal Service is changing
                                         This final rule responds to comments on         country rate groups to be the same as Interna-
the OIG develops and publishes
                                    the final rule published in the Federal Register     tional Surface AirLift service and increasing the
its own procedures.                 on July 16, 1998 (Volume 63, Number 136,             minimum weight from 10 to 11 pounds of mail.
                                    Pages 38309–38311). The Postal Service had           Also, acceptance of this service will be extend-
                                    sought comments concerning the use and deter-        ed to all post offices accepting bulk mail. In
                                    mination of the postage value of the Breast          addition, the Postal Service is introducing drop
                                    Cancer Research Semi-Postal Stamp. The               ship rates for mailers willing to transport their
                                    Postal Service has made minor changes to the         mail to certain locations. The Postal Service,
                                    Domestic Mail Manual standards pertaining to         with the use of drop ship sites, avoids certain
                                    the exchange value. Specifically, customers          processing, handling, and transportation costs,
                                    may exchange or convert Breast Cancer                and these savings are being passed on to the
                                    Research Semi-Postal Stamps for their postage        mailer. Federal Register: November 25, 1998
                                    value; that is, the price of the stamps less the     (Volume 63, Number 227, Pages 65153–65161).
                                    amount designated as a contribution to support       The Postal Service adopted this proposed rule,
                                    research. The postage exchanged or converted         effective April 4, 1999. Federal Register:
                                    is equivalent to the First-Class Mail single-piece   March 3, 1999 (Volume 64, Number 41, Pages
                                    rate in effect at the time of the exchange. Fed-     10219–10227)
                                    eral Register: March 8, 1999 Volume 64, Num-
                                                                                         ADDRESSING REQUIREMENTS FOR
                                    ber 44, Pages 10950–10952)
                                                                                         CERTAIN CUSTOMERS OF RURAL AND
                                    GLOBAL DIRECT-CANADA ADMAIL                          HIGHWAY CONTRACT DELIVERY
                                                                                         ROUTES
                                         The Postal Service adopted without
                                    change the interim rule, published in the Feder-           This rule amends the Domestic Mail Man-
                                    al Register on August 21, 1998 (Volume 63,           ual for customers who share mail receptacles on
                                    Number 162, Pages 44789–44792). The Postal           rural and highway contract routes by clarifying
                                    Service, in cooperation with Canada Post Cor-        Postal Service addressing requirements when
                                    poration, had offered a new international mail       local governments implement street name and
                                    service on an interim basis. This international      number systems. When localities convert to a
                                    mail service is primarily intended for major         street name and number system, customers may
                                    printing firms, direct marketers, mail order com-    continue to share a mail receptacle. But, they
                                    panies, and other high-volume mailers seeking        still must use the address that reflects the partic-
                                    easier access to the Canadian domestic postal        ular box — for example, the street name and
                                    system. It is intended to provide mail delivery      number of the receptacle’s owner — rather
                                    in an average of five to ten business days to        than the various street names and numbers now
                                    major urban areas throughout Canada. Ancil-          assigned to their individual properties. This
                                    lary services for local business reply and the       addressing requirement is familiar to customers
                                    return of undeliverable mail had also been           as the “in care of” address format. Federal Reg-

                          PAGE 76   LEGISLATIVE AND REGULATORY REVIEW
ister: January 13, 1999 (Volume 64, Number 8,        vice approved an amendment to its by-laws.
Page 2141)                                           The amendment allows Governors attending
                                                     special meetings of the Board conducted by
EXPANSION OF LOCATION-BASED
POST OFFICE BOX FEES                                 conference telephone call to receive the statu-
                                                     tory $300 compensation for a meeting day if the
      The Domestic Mail Manual is amended to
                                                     meeting lasts more than an hour. Federal Reg-
expand the application of location-based fees
                                                     ister: October 29, 1998 (Volume 63, Number
for post office box service to an additional 26
                                                     209, Pages 57911–57912)
specified facilities. The facility-specific fees
place greater emphasis on the space cost and         MARKET TEST OF MAILING ONLINE
utilization of post office box service at individ-        This rule sets forth the Domestic Mail
ual locations. Baseline costs and usage mea-         Manual standards adopted by the Postal Service
surement have been validated and will be mon-        on the Recommended Decision of the Postal
itored following implementation to assess            Rate Commission on the Market Test of Mail-
impact on customer activity. In addition, 58         ing Online, Docket Number MC 98-1. Mailing
facilities in neighboring areas will be monitored    Online is a service that allows Postal customers    OIG staff recruit talented individuals
to serve as a benchmark against which to mea-        with access to a personal computer and the          during career fairs at colleges and
sure the 26 affected facilities. Federal Register:   Internet to transmit electronic documents to a      universities.
December 28, 1998 (Volume 63, Number 248,            Postal website for subsequent batching and
Pages 71374–71375) followed by correction on         transmission to a contract printer, who creates
February 11, 1999 (Volume 64, Number 28,             and enters the consequent physical mailpieces.
Pages 6802–6803)                                     There is a limit of 5,000 addresses per mailing.
GARNISHMENT OF WAGES                                 Payment for postage and mailpiece preparation
                                                     is made online via credit card. The market test,
    This rule implements Section 9 of Public
                                                     limited to 5,000 customers, will provide a basis
Law 103-94, entitled “Garnishment of Federal
                                                     for subsequent nationwide experimental and
Employees’ Pay,” which provides that the pay of
                                                     permanent services. Federal Register: October
employees of the Postal Service and the Postal
                                                     22, 1998 (Volume 63, Number 204, Pages
Rate Commission are subject to federal, state,
                                                     56565–56568)
and local garnishment orders. This regulation
provides detailed procedures on the garnish-         NEW SPECIFICATIONS FOR
ment process within the Postal Service. Feder-       AUTOMATED FLATS
al Register: December 7, 1998 (Volume 63,                  This rule sets forth the Domestic Mail
Number 234, Pages 67403–67405)                       Manual standards adopted by the Postal Service
                                                     to implement the discount rate for automation
PROCEDURE BEFORE THE JUDICIAL
OFFICER                                              flat-size mailpieces processed on the Flat Sort-
                                                     ing Machine (FSM) 1000. The FSM 1000 is
     This rule amends the Rules of Procedure
                                                     capable of processing mailpieces that cannot be
Before the Judicial Officer to reflect a new
                                                     processed on the FSM 881. FSM 1000
address for the Judicial Officer, the Office of
                                                     machines are being retrofitted with barcode
Administrative Law Judges, the Office of the
                                                     readers. Mailpieces that currently do not qual-
Board of Contract Appeals, and the Office of
                                                     ify for automation flat rates will be eligible if
the Recorder. The rule also corrects titles and
                                                     pieces meet the size and other criteria for pro-
references and makes other technical and gram-
                                                     cessing on the FSM 1000, are prepared with
matical changes. Federal Register: December 1,
                                                     correct ZIP+4 or delivery point barcodes, and
1998 (Volume 63, Number 230, Pages
                                                     meet other preparation requirements. Federal
66049–66053)
                                                     Register: October 15, 1998 (Volume 63, Num-
AMENDMENT TO THE BY-LAWS OF                          ber 199, Pages 55471–55478)
THE BOARD OF GOVERNORS
                                                     USE OF INFORMATION FROM METER
CONCERNING TELEPHONE
                                                     LICENSE APPLICATIONS
CONFERENCE CALLS
    The Board of Governors of the Postal Ser-            This rule provides greater specificity



                                                                                                          PAGE 77
                                           regarding uses of the information derived from     CHANGES IN DOMESTIC RATES, FEES,
                                           the meter license applications received by the     AND MAIL CLASSIFICATIONS
                                           Postal Service from meter users and authorized          This notice sets forth the rate and fee
                                           meter manufacturers. Federal Register: October     changes and Domestic Mail Classification
                                           7, 1998 (Volume 63, Number 194, Pages              Schedule changes to be implemented as a result
                                           53812–53813)                                       of the Decision of the Governors of the United
                                                                                              States Postal Service on the Further Recom-
                                           INTERIM RULES
                                                                                              mended Decision of the Postal Rate Commis-
                                           GLOBAL PACKAGE LINK                                sion on Postal Rate and Fee Changes, Docket
                                                The Postal Service, by amending the Inter-    No. R97-1 (October 5, 1998). This notice also
                                           national Mail Manual, is setting new rates and a   contains minor changes to the notice published
                                           new discount structure for Global Package Link,    on July 21, 1998 in Volume 63 of the Federal
                                           an international mail service designed for com-    Register at page 39124. Federal Register:
                                           panies sending 10,000 or more merchandise          November 9, 1998 (Volume 63, Number 216,
                                           packages per year to other countries. The Postal   Pages 60416–60418)
                                           Service is also introducing this service to        NOTICE OF NEW SYSTEM OF RECORDS
OIG investigators are required to meet     Argentina. Federal Register: December 1, 1998
                                                                                                   The Postal Service has established a Priva-
and maintain physical fitness standards.   (Volume 63, Number 230, Pages 66043–66049)
                                                                                              cy Act System of Records, Postal Service
                                           PROPOSED RULES                                     300.010, Office of Inspector General Investiga-
                                                                                              tive File, which partially mirrors an existing
                                           INTERNATIONAL POSTAL RATES
                                                                                              Inspection Service file. This system of records
                                                Pursuant to its authority under 39 U.S.C.     covers only the files of investigations that iden-
                                           407, the Postal Service is proposing changes in    tify by name individuals who are subjects or
                                           international Postal rates. The proposed           sources of information. The files may contain
                                           international rates are needed to accommodate      information about civil, criminal, or administra-
                                           changes in the cost of providing international     tive wrongdoing; fraud, waste, or mismanage-
                                           mail service. Federal Register: December 4,        ment; or other violations of law or regulation.
                                           1998 (Volume 63, Number 233, Pages                 This system became effective on November 23,
                                           67017–67026)                                       1998. Federal Register: October 15, 1998 (Vol-
                                                                                              ume 63, Number 199, Pages 55416–55418)
                                           NOTICES
                                           INFORMATION-BASED INDICIA (IBI)
                                           PROGRAM PERFORMANCE CRITERIA
                                           FOR INFORMATION-BASED INDICIA
                                           AND SECURITY ARCHITECTURE FOR
                                           CLOSED IBI POSTAGE METERING
                                           SYSTEMS
                                                The Postal Service has compiled a set of
                                           draft functional performance criteria for closed
                                           systems of the IBI program placed at a Postal
                                           Service website. The current release contains
                                           the performance criteria for indicia and the
                                           Postal security device components of a closed
                                           IBI system. The Postal Service also seeks com-
                                           ments on intellectual property issues raised by
                                           IBI program performance criteria, policy, and
                                           procedures if adopted in their present form.
                                           Federal Register: January 29, 1999 (Volume 64,
                                           Number 19, Page 4728)




                                PAGE 78    LEGISLATIVE AND REGULATORY REVIEW
Appendices




   DID YOU
   KNOW?
 Where do Postal Inspectors and OIG
 Special Agents get their criminal law
 enforcement authority?
 Under Title 18 of the U.S. Code, Postal
 Inspectors and OIG Special Agents have the
 authority to make arrests, carry firearms,
 execute search warrants, serve subpoenas,
 and seize property.




                                              PAGE 79
          APPENDIX A

          Closed Congressional Inquiries
          This appendix represents the 48 congressional inquiries the Office of Inspector General closed
          during this reporting period (October 1, 1998 to March 31, 1999). We reviewed these 48
          inquiries to help identify systemic issues, and to determine the need for future Postal-wide audits.

          VOICE OF THE CUSTOMER
                                                                                                    Response
          Requestor               Allegation/Concern                          Location                   Date
          Representative,         Possible violation of federal Postal        Washington,            10/30/98
          Indiana                 regulations, including mail fraud.          District of
                                                                              Columbia
          Senator,                Inefficiencies with Priority Mail           Rock Island,          11/25/98
          Illinois                processing.                                 Illinois
          Senator,                Violations of antilobbying provisions of    Postal-wide           11/27/98
          Wyoming                 Title 18, Section 1913 of United States
                                  Code.
          Representative,         Violations of antilobbying provisions of    Postal-wide           11/27/98
          Pennsylvania            Title 18, Section 1913 of United States
                                  Code.
          Chairman                Thoroughness of an investigation into the   New Castle,           12/28/98
          Postal Subcommittee     Postal Service mishandling of election      Pennsylvania
                                  campaign mail.
          Representative,         Violation of Postal regulations regarding   Washington,           12/28/98
          Illinois                Nonprofit Standard Mail rates on            District of
                                  political mailings.                         Columbia
          Representative,         Improper activities in processing mail to   New York,               3/2/99
          New York                inflate External First-Class performance    New York
                                  scores.
          Chairman                Improper activities in processing mail to   Atlanta,                3/2/99
          Postal Subcommittee     inflate External First-Class performance    Georgia
                                  scores.
          Representative,         Improper activities in processing mail to   South Florida           3/2/99
          Florida                 inflate External First-Class performance    Postal District
                                  scores.
          Representative,         Improper activities in processing mail to   South Florida           3/2/99
          Florida                 inflate External First-Class performance    Postal District
                                  scores.
          Senator,                Quality of Postal services and a Freedom    Greenville,            3/10/99
          Mississippi             of Information Act request.                 Mississippi
          Chairman                Inspection Service investigation into       Waycross,              3/10/99
          Postal Subcommittee     allegations of “improper criminal conduct   Georgia
                                  and conspiracy” involving a publisher and
                                  the Postal Service.
          Representative,         Mail fraud regarding computer software.     Mobile,                3/26/99
          Alabama                                                             Alabama




          VOICE OF THE EMPLOYEE
                                                                                                    Response
          Requestor               Allegation/Concern                          Location                   Date
          Chairman                Working conditions at a Postal station.     Bronx,                 10/30/98
          Postal Subcommittee                                                 New York
          Representative,         Referral from the Postal Service            Arlington,            11/27/98
          Virginia                Government Relations regarding OIG          Virginia
                                  employment practices.



PAGE 80   APPENDICES
                                                                                       Response
Requestor             Allegation/Concern                             Location              Date
Senator,              Unfair removal of a Postal Service              Island Pond,     12/21/98
Vermont               employee for not following “illegal orders”     Vermont
                      and lack of investigation of reports of
                      physical threats.
Representative,       Unfair removal of a Postal Service             Island Pond,      12/21/98
Vermont               employee for not following “illegal orders”    Vermont
                      and lack of investigation of reports of
                      physical threats.
Senator,              Abuse of power and other misconduct by         Malvern,          12/28/98
Pennsylvania          Postal Service officials, Postal inspectors,   Pennsylvania
                      and Assistant United States Attorneys.
Representative,       Abuse of power and other misconduct by         Malvern,          12/28/98
Pennsylvania          United States officials, Postal inspectors,    Pennsylvania
                      and Assistant United States Attorneys.
Representative,       Illegal activity by Postal management and      North Florida     12/28/98
Florida               Postal inspectors.                             Postal District
Representative,       Violations of both the Privacy and             Jordan,             1/8/99
New York              Freedom of Information Acts by the             New York
                      Postal Service.
Senator,              Violations of both the Privacy and             Jordan,             1/8/99
New York              Freedom of Information Acts by the             New York
                      Postal Service.
Chairman              Sexual harassment, retaliation, and            St. Petersburg,    1/15/99
Postal Subcommittee   mishandling of equal employment                Florida
                      opportunity complaints by the Postal
                      Service.
Senator,              Sexual harassment, retaliation, and            St. Petersburg,    1/15/99
Florida               mishandling of equal employment                Florida
                      opportunity complaints by the Postal
                      Service.
Representative,       Sexual harassment, retaliation, and            St. Petersburg,   1/15/99
Florida               mishandling of equal employment                Florida
                      opportunity complaints by the Postal
                      Service.
Senator,              Sexual harassment, retaliation and             St. Petersburg,    1/15/99
Florida               mishandling of equal employment                Florida
                      opportunity complaints by the Postal
                      Service.
Chairman              Abusive mismanagement.                         Warren,            1/19/99
Postal Subcommittee                                                  Pennsylvania
Senator,              Harassment by Postal management.               Williston,         1/19/99
Vermont                                                              Vermont
Representative,       Harassment and discrimination by Postal        Warren,            1/19/99
Maine                 management.                                    Maine
Senator,              Federal Labor Standards Act violations         Raleigh,           1/19/99
North Carolina        and discrimination and retaliation for         North Carolina
                      prior Equal Employment Opportunity
                      complaints.
Senator,              Unfair treatment of former employment          Greensboro,        1/19/99
North Carolina        by management and employees at a Postal        North Carolina
                      facility.
Representative,       Injury compensation claim and labor            Clementon,         1/20/99
New Jersey            relations problems with Postal managers.       New Jersey
Senator,              A Postal Service employee who was              Cedar Rapids,      3/11/99
Indiana               denied a Merit Systems Protection Board        Indiana
                      hearing after termination.
Chairman              Discrimination, assault, and retaliation by    Montclair,         3/22/99
Postal Subcommittee   the Postal Service.                            New Jersey




                                                                                                  PAGE 81
                                                                                               Response
          Requestor             Allegation/Concern                           Location              Date
          Chairman              Misconduct and corruption by Postal          Athens,            3/24/99
          Postal Subcommittee   managers.                                    Tennessee
          Representative,       Labor management-related complaints of       Long Island,       3/31/99
          New York              Postal Service employees.                    New York
                                                                             Postal District
          Chairman              Labor-management-related complaints of       Long Island,       3/31/99
          Postal Subcommittee   Postal Service employees.                    New York
                                                                             Postal District
          Chairman              Misconduct, abuse, and mismanagement.        Garden Grove,      3/31/99
          Postal Subcommittee                                                California
          Representative,       Unfair relocation of a postmaster.           Garden Grove,      1/19/99
          California                                                         California
          Representative,       Misconduct, abuse, and mismanagement.        Garden Grove,      3/31/99
          California                                                         California
          Senator,              Discrimination, harassment, and abusive      Springfield,       3/31/99
          Missouri              management.                                  Missouri
          Senator,              Discrimination, harassment, and abusive      Springfield,       3/31/99
          Missouri              management.                                  Missouri
          Representative,       Improper hiring practices and                Texarkana,         3/31/99
          Texas                 discrimination.                              Texas
          Chairman              Discrimination, mistreatment, and            Ponca City,        3/31/99
          Postal Subcommittee   harassment.                                  Oklahoma
          Chairman              Sexual harassment, discrimination, and       San Antonio,       3/31/99
          Postal Subcommittee   retaliation.                                 Texas
          Representative,       Salary expenses incurred by the Postal       Postal-wide        3/31/99
          Texas                 Service for administrative leave with pay,
                                reinstatements, and back pay awards.




          VOICE OF THE BUSINESS
                                                                                               Response
          Requestor             Allegation/Concern                           Location              Date


          Chairman              Mechanical work performed on Postal          Wilmington,       12/17/98
          Postal Subcommittee   vehicles at a Vehicle Maintenance            Delaware
                                Facility.
          Chairman              Mismanagement at the Bulk Mail Center.       Cincinnati,       12/28/98
          Postal Subcommittee                                                Ohio




PAGE 82   APPENDICES
APPENDIX B

Reports Issued to Postal Management
OVERVIEW
Office of Inspector General
The Office of Inspector General (OIG) audit teams are aligned to conduct performance and
financial audits, evaluations, and other reviews to address the business processes of the Postal
Service. Each directorate issues audit reports (AR), letter advisory reports (LA), or manage-
ment advisory reports (MA) in accordance with the identified needs of the project.

Inspection Service
The Inspection Service audit groups are aligned by the type of audits performed, primarily
performance and financial, and include developmental, opinion, and contract auditing. The
Inspection Service has continued to provide Postal-wide attention in selected areas until these
functions are fully transitioned to the OIG.


SUMMARY
The following is a summary by principal areas of reports issued to Postal management between
October 1, 1998 and March 31, 1999.
                                                                                         Recommend
                                          Number of      Questioned     Unsupported     Funds Put to
Principal Area                        Reports Issued          Costs           Costs       Better Use
Contract Audit                                   40     $ 3,113,396     $ 5,841,563    $ 54,715,624
Delivery/ Support                                 7       1,097,395               0               0
Developmental Audit                               2               0               0               0
Developmental Audit                               3               0               0               0
District Accounting Office Audit                  8               0               0               0
Employee Relations                                2               0               0               0
Expenditure Investigation                         3               0               0               0
Facilities Audit                                  2       5,600,000               0               0
Facility Program Audit                            4               0               0               0
Financial Installation Audit                     89               0               0               0
Financial Investigation                          25               0               0               0
Financial Opinion Audit                          34               0               0               0
Financial Review                                  6               0               0               0
Health Care                                       1               0               0               0
Information Systems                               2               0               0               0
Labor Management                                  2               0               0               0
Labor Relations                                   9               0               0               0
Oversight                                         1               0               0               0
Performance Audit                                24               0               0          92,200
Quick Response                                    1               0               0               0
Revenue Generation                                2               0               0               0
Revenue Investigation                            89               0               0               0
Service Investigation                            16               0               0               0

GRAND TOTAL                                    372     $ 9,810,791     $ 5,841,563    $ 54,807,824




                                                                                                       PAGE 83
          REPORT LISTING
          The following is a list of each audit, grouped by the Postal Service CustomerPerfect! Voice of the
          Customer, Voice of the Employee, and Voice of the Business.


          OIG REPORTS
          October 1, 1998 through March 31, 1999
          VOICE OF THE CUSTOMER
                                                                                                Un- Recommend
          Case/Report       Subject Title/               Location/           Questioned   supported Funds Put to     Issue
          Number            Project Type                 Contract                 Costs       Costs Better Use        Date
          DA-LA-99-001      Priority Mail Network -      Postal-wide               $0           $0          $ 0 11/24/98
                            Christmas Plan 1998
          DS-LA-99-001      Survey Results of the        South Florida District      0            0           0 12/23/98
                            So. Fla. District
                            EXFC Test Mail
          DS-LA-99-002      Survey Results of the        Atlanta, GA                 0            0           0    3/26/99
                            Atlanta District
                            EXFC Test Mail
          DS-MA-99-001      Review of USPS               Postal-wide                 0            0           0    3/26/99
                            Compliance with GPRA
          DS-MA-99-004      Review of USPS               Postal-wide                 0            0           0    3/30/99
                            Compliance with GPRA -
                            Phase II
          DS-MA-99-003      Revenue Deficiencies for     St. Louis, MO               0            0           0    3/31/99
                            Mailing of the St. Louis/
                            Southern Illinois
                            Labor Tribune

          TOTAL                                                                    $0          $0           $0


          VOICE OF THE EMPLOYEE
                                                                                                Un- Recommend
          Case/Report       Subject Title/               Location/           Questioned   supported Funds Put to     Issue
          Number            Project Type                 Contract                 Costs       Costs Better Use        Date
          LM-MA-99-002      Effectiveness of USPS        Postal-wide               $0           $0          $0     3/26/99
                            Grievance-Arbitration
                            Procedures
          LR-AR-99-001      Labor and Management         Postal-wide                 0            0           0    3/30/99
                            Workplace Disputes
          DS-MA-99-002      Accident Reporting Process Postal-wide                   0            0           0    3/31/99
          LR-MA-99-001      Grievance & Arbitration      Postal-wide                 0            0           0    3/31/99
                            Management Information
          OV-MA-99-001      Review of USPS Personnel     Postal-wide                 0            0           0    3/31/99
                            Security Program -
                            Process for Updating
                            Sensitive Clearances
          LR-AR-99-006      Allegations of Retaliation   Garden Grove, CA            0            0           0    3/30/99
                            at the Garden Grove
                            Post Office
          LR-AR-99-008      Follow-up on USPS          Garden Grove, CA              0            0           0    3/31/99
                            Recommendations to
                            Investigate Sexual
                            Harassment Allegations and
                            to Reassign a Supervisor
                            from His Position
                            of Authority


PAGE 84   APPENDICES
                                                                                  Un- Recommend
Case/Report    Subject Title/               Location/          Questioned   supported Funds Put to     Issue
Number         Project Type                 Contract                Costs       Costs Better Use        Date
LR-AR-99-009   Administration of the        Garden Grove, CA            0           0           0    3/31/99
               Advance Sick Leave
               Program and Health &
               Safety Issues at the
               Garden Grove Post Office
LM-LA-99-001   EEO Complaint Processing     Mid Carolinas District      0           0           0    11/9/98
ER-MA-99-002   Employee Allegations at      Manhattan, NY               0           0           0    3/30/99
               the Church St. Station
LR-MA-99-005   Employee Allegations in      Long Island, NY             0           0           0    3/26/99
               the Long Island District
LR-MA-99-006   Employee Allegations at      Ponca City, OK              0           0           0    3/30/99
               the Ponca City Post Office
LR-AR-99-010   San Antonio District         San Antonio, TX District    0           0           0    3/30/99
               Delays in Processing of
               EEO Complaints
LR-AR-99-007   Allegations of               Texarkana, TX               0           0           0    3/30/99
               Discriminatory Hiring
               Practices, Harassment,
               and Intimidation of
               Employees at the
               Texarkana, TX. Post Office

TOTAL                                                                  $0        $0           $0

VOICE OF THE BUSINESS
                                                                                  Un- Recommend
Case/Report    Subject Title/               Location/          Questioned   supported Funds Put to     Issue
Number         Project Type                 Contract                Costs       Costs Better Use        Date
IS-AR-99-001   Year 2000 Initiative         Postal-wide                $0         $0          $0     2/18/99
               Program Management
               Office Reporting
IS-TR-99-001   Postal Service               Postal-wide                 0           0           0    2/23/99
               Year 2000 Initiative
               (Testimony)
DS-AR-99-001   Performance Audit of the     Postal-wide         1,097,395           0           0    3/31/99
               National Change of
               Address Program
HC-MA-99-001   Medical Records              Postal-wide                 0           0           0    3/29/99
               Contained in Workers’
               Compensation Files
FR-AR-99-001   Audit of Board of            Postal-wide                 0           0           0 12/28/98
               Governors’ Travel
               and Meeting Expenses
FR-AR-99-002   Audit of USPS Officers’      Postal-wide                 0           0           0 12/28/98
               Travel and
               Representation Expenses
FR-AR-99-004   Subsidization of             Postal-wide                 0           0           0 12/30/98
               International Mail Service
FR-AR-99-005   Corporate Treasury           Postal-wide                 0           0           0    2/23/99
               Cash Management
DA-MA-99-001   Tray Management              Postal-wide                 0           0           0    3/15/99
               System Deliverables
FR-MA-99-001   Validity of Employees’ SSN   Postal-wide                 0           0           0    3/26/99
QR-MA-99-001   USPS Management of          Postal-wide                  0           0           0    3/29/99
               Personal Services Contracts
RG-MA-99-002   Review of the Sales         Postal-wide                  0           0           0    3/30/99
               Force Augment Pilot
               Project Phase II

                                                                                                               PAGE 85
                                                                                                   Un- Recommend
          Case/Report         Subject Title/              Location/             Questioned   supported Funds Put to     Issue
          Number              Project Type                Contract                   Costs       Costs Better Use        Date
          ER-MA-99-003        Salary Expenses and         Postal-wide                   0            0           0    3/31/99
                              Admin Leave &
                              Back Pay Awards
          RG-AR-99-001        Review of USPS Economic     Postal-wide                   0            0           0    3/31/99
                              Analysis and Forecasting
          FA-LA-99-001        Facility Depreciation       Washington, DC                0            0           0 11/25/98
          DA-LA-99-002        Liability Insurance         Washington, DC                0            0           0    3/31/99
                              Coverage for USPS
                              Officers and Governors
          FA-AR-99-001        Review of the Atlanta       Atlanta, GA            5,600,000           0           0    3/31/99
                              Olympic Facility
                              Improvement Plan
          FR-AR-99-003        Withholding and             Minneapolis, MN               0            0           0 12/15/98
                              Contribution for Health     55401
                              Benefits, Life Insurance,
                              and Employee
                              Headcount Data
                              (OPM Request)

          TOTAL for the Voice of the Business                              $ 6,697,395            $0           $0

          GRAND TOTAL                                                      $ 6,697,395            $0           $0


          INSPECTION SERVICE REPORTS
          October 1, 1998 through March 31, 1999
          VOICE OF THE CUSTOMER
                                                                                                   Un- Recommend
          Case/Report         Subject Title/              Location/             Questioned   supported Funds Put to     Issue
          Number              Project Type                Contract                   Costs       Costs Better Use        Date
          022-1244541-PA(1) Priority Mail                 Postal-wide                  $0          $0          $0     3/17/99
          019-1223382-AX(1) Mail Transport                Postal-wide                   0            0           0    3/26/99
                            Equipment Service
          023-1223496-PA(1) Logistics and Transportation Postal-wide                    0            0           0 12/30/98
          0071-1254358-SI(2) Observations of              Postal-wide                   0            0           0    3/30/99
                             Mail Conditions
          096-1257649-SI(3)   Observations of             Pelham, AL 35124              0            0           0 10/23/98
                              Mail Conditions
          314-1250791-PA(3) Registered Mail Operations    Long Beach District           0            0           0 12/21/98
          314-1250792-PA(3) Registered Mail Operations    Los Angeles District          0            0           0    1/22/99
          050-1240192-PA(2) Mail Operations               Pasadena, CA 91102            0            0           0 10/26/98
          052-1242213-PA(3) Mail Preparation,             Pasadena, CA 91102            0            0           0    11/3/98
                            Distribution and Flow
          314-1250789-PA(3) Registered Mail Operations    San Diego District            0            0           0 12/16/98
          314-1250790-PA(3) Registered Mail Operations    Santa Ana District            0            0           0    2/25/99
          314-1250793-PA(3) Registered Mail Operations    Van Nuys District             0            0           0 12/29/98
          072-1211466-SI(2)   Observations of             Miami, FL 33152               0            0           0 10/26/98
                              Mail Conditions
          052-1234653-PA(3) Commercial Mail               Miramar, FL 33027             0            0           0 10/28/98
                            Receiving Agencies
          070-1236715-SI(1) Nixie and Loop Mail           Pembroke Pines, FL 33029 0                 0           0 12/9/98
          072-1211467-SI(2) Observations of               W. Palm Beach, FL 33406 0                  0           0 12/17/98
                            Mail Conditions
          314-1254913-PA(3) Delivery Units                Detroit, MI 48232             0            0           0 12/30/98


PAGE 86   APPENDICES
                                                                                         Un- Recommend
Case/Report         Subject Title/               Location/           Questioned    supported Funds Put to      Issue
Number              Project Type                 Contract                 Costs        Costs Better Use         Date
052-1272404-PA(3) Mail Operations                Kansas City, MO 64111        0            0           0     2/26/99
073-1264079-SI(2)   Observations of              St. Louis, MO 63199          0            0           0     1/22/99
                    Mail Conditions
096-1220703-SI(3)   Observations of              Raleigh, NC 27676            0            0           0 12/10/97*
                    Mail Service
311-1262203-PA(3) Registered Mail Operations     Edison, NJ 08899             0            0           0     2/18/99
072-1248914-SI(2)   Priority Mail Service        South Jersey, NJ 08031       0            0           0 10/27/98
037-1258944-PA(2) Aviation Security Program      New York, NY 10116           0            0           0     2/11/99
040-1241168-PA(2) Special Services               New York, NY 10116           0            0           0     2/22/99
071-1227769-SI(2)   Mail Handling Procedures     Cincinnati, OH 45234         0            0           0      3/5/99
071-1267297-SI(2)   Intra-island Priority Mail   San Juan, PR 00936           0            0           0      3/1/99
038-1243860-PA(2) Two-Day and                    Memphis, TN 38107            0            0           0     11/6/98
                  Three-Day Mail
091-1253470-SI(2)   Observations of              Nashville, TN 37229          0            0           0     11/2/98
                    Mail Conditions
072-1269061-SI(2)   Arrow Lock and               Coppell, TX 75099            0            0           0     2/12/99
                    Key System
039-1246840-PA(2) Impact of Air Contracts        Houston, TX 77205            0            0           0 11/18/98
                  on Service
037-1254431-PA(2) Aviation Security Program      Houston, TX 77315            0            0           0 10/30/98
096-1251108-SI(3)   Mail Processing Operations   Norfolk, VA 23504            0            0           0     10/8/98

TOTAL                                                                       $0          $0           $0

VOICE OF THE EMPLOYEE
                                                                                         Un- Recommend
Case/Report         Subject Title/               Location/           Questioned    supported Funds Put to      Issue
Number              Project Type                 Contract                 Costs        Costs Better Use         Date
318-1260961-PA(3) Hiring Practices               San Bernardino,             $0          $0          $ 0 12/17/98
                                                 CA 92423
072-1257106-SI(2)   MVS Drivers                  Newark, NJ 07101             0            0           0 10/23/98
                    Drug Screening

TOTAL                                                                       $0          $0           $0

VOICE OF THE BUSINESS
                                                                                         Un- Recommend
Case/Report         Subject Title/               Location/           Questioned    supported Funds Put to      Issue
Number              Project Type                 Contract                 Costs        Costs Better Use         Date
022-1232391-PA(1) Group of Twenty                Postal-wide                 $0          $0          $0      3/12/99
                  Automation
020-1230990-PA(1) Advertising & Sales of         Postal-wide                  0            0           0     3/24/99
                  Products and Services
018-1122461-AX(1) Financial Systems              Postal-wide                  0            0           0 03/17/98*
004-1264054-AD(1) Imprest Fund Audit             Washington,                  0            0           0     1/19/99
                                                 DC 20260
184-1253428-AC(1) Contract Audit                 Christensen                  0            0           0     10/5/98
                                                 Associates, Inc.
181-1252323-AC(1) Contract Audit                 Siemens                      0            0   6,166,150 10/13/98
                                                 ElectroCom, L.P.
181-1247177-AC(1) Contract Audit                 William M. Karr &            0            0                10/16/98
                                                 Associates, Inc.
181-1252326-AC(1) Contract Audit                 Siemens                      0            0 42,889,337 10/16/98
                                                 ElectroCom, L.P.
186-1253122-AC(1) Contract Audit                 Pavilion                 29,289           0           0 10/21/98
                                                 Management, Inc.

                                                                                                                       PAGE 87
                                                                                       Un- Recommend
          Case/Report        Subject Title/   Location/             Questioned   supported Funds Put to      Issue
          Number             Project Type     Contract                   Costs       Costs Better Use         Date
          181-1253381-AC(1) Contract Audit    SELCO Steel Erectors          0            0       5,072 10/23/98
                                              Company, Inc.
          193-1252325-AC(2) Contract Audit    Siemens                       0            0           0 10/26/98
                                              ElectroCom, L.P.
          181-1252372-AC(1) Contract Audit    The Freeman Companies         0            0   1,710,680 10/30/98
          192-1254969-AC(2) Contract Audit    Remitco Management 1,548                   0           0 10/30/98
                                              Corporation
          185-1265628-AC(1) Contract Audit    DMK Investment                0            0                11/12/98
          181-1252266-AC(1) Contract Audit    Remitco Management            0            0     544,519 11/18/98
                                              Corporation
          181-1254405-AC(1) Contract Audit    Dearborn Mid-                 0            0                11/19/98
                                              West Conveyor, Inc.
          181-1258675-AC(1) Contract Audit    Siemens                       0            0     256,377 11/20/98
                                              ElectroCom, L.P.
          181-1254410-AC(1) Contract Audit    Dearborn Mid-                 0            0     137,480 11/24/98
                                              West Conveyor, Inc.
          181-1254812-AC(1) Contract Audit    North American                0            0     171,823 11/25/98
                                              Conveyor, Inc.
          184-1243166-AC(1) Contract Audit    Emery Worldwide 1,245,475 5,841,563                    0     12/7/98
                                              Airlines
          186-1261357-AC(1) Contract Audit    Partners in                   0            0           0     12/8/98
                                              Brainstorms, Inc.
          192-1237967-AC(2) Contract Audit    Tad Resources                 0            0           0     12/8/98
                                              International, Inc.
          181-1251878-AC(1) Contract Audit    Key Handling                  0            0     516,256 12/11/98
                                              Systems, Inc.
          181-1247014-AC(1) Contract Audit    Sandvik Sorting               0            0     946,887 12/17/98
                                              Systems, Inc.
          184-1251788-AC(1) Contract Audit    The Austin Company            0            0                12/17/98
          181-1253441-AC(1) Contract Audit    Motion System, L.C.           0            0     145,532 12/18/98
          182-1254485-AC(1) Contract Audit    Payco-General                 0            0                12/24/98
                                              American Credits, Inc.
          184-1251785-AC(1) Contract Audit    The Austin Company            0            0                12/24/98
          181-1262079-AC(1) Contract Audit    The Freeman Companies         0            0     347,246      1/8/99
          181-1262969-AC(1) Contract Audit    Remitco Management            0            0     250,252      1/8/99
                                              Corporation
          183-1261236-AC(1) Contract Audit    Fremont Die Cut       1,550,857            0           0     1/15/99
                                              Products, Inc.
          184-1228152-AC(1) Contract Audit    Marriott Corporation 28,437                0           0     1/21/99
          181-1268524-AC(1) Contract Audit    Gauthier, Alvarado &          0            0           0      2/1/99
                                              Associate
          187-1224876-AC(1) Contract Audit    Midcon Gas Services           0            0           0     2/17/99
                                              Corporation
          181-1270327-AC(1) Contract Audit    Rapistan Systems              0            0     274,540      3/5/99
          181-1273828-AC(1) Contract Audit    URS Greiner                   0            0     118,650      3/5/99
                                              Woodward Clyde
          185-1269272-AC(1) Contract Audit    Trammell Crow Co.           615            0           0      2/8/99
          181-1270335-AC(1) Contract Audit    Rapistan Systems              0            0     131,347      3/8/99
          182-1267498-AC(1) Contract Audit    Rudolph/Libbe, Inc.           0            0           0      3/8/99
          181-1265241-AC(1) Contract Audit    GFI Genfare                   0            0     103,476      3/9/99
          182-1267500-AC(1) Contract Audit    Rudolph/Libbe, Inc. 189,226                0           0     3/12/99
          182-1267502-AC(1) Contract Audit    Rudolph/Libbe, Inc.           0            0           0     3/12/99


PAGE 88   APPENDICES
                                                                                       Un- Recommend
Case/Report         Subject Title/              Location/           Questioned   supported Funds Put to     Issue
Number              Project Type                Contract                 Costs       Costs Better Use        Date
184-1265466-AC(1) Contract Audit                Marriott Corporation     5,576           0           0    3/18/99
184-1274619-AC(1) Contract Audit                Barsh Company           62,373           0           0    3/26/99
061-1260310-RI(1)   Postage Meter               Anchorage, AK 99518         0            0           0    1/27/99
016-1256585-AF(2) Financial Installation Audit Birmingham, AL 35203         0            0           0    2/22/99
009-1265350-AD(1) Cost and Revenue Analysis     Birmingham, AL 35203        0            0           0     3/5/99
011-1256584-AF(1) Financial Installation Audit Birmingham, AL 35203         0            0           0     3/5/99
012-1256582-AF(1) Financial Installation Audit Huntsville, AL 35813         0            0           0    3/30/99
062-1252335-RI(1)   Nonprofit Mail              Montgomery, AL 36119        0            0           0 10/30/98
062-1260835-RI(1)   Standard Mail               Montgomery, AL 36119        0            0           0 11/16/98
014-1257695-AF(1) Financial Installation Audit Augusta, AR 72006            0            0           0 12/18/98
178-1254107-AF(2) Financial Installation Audit Phoenix, AZ 85026            0            0           0 09/25/98*
013-1256119-AF(1) Financial Installation Audit Brentwood, CA 94513          0            0           0     3/8/99
011-1255654-AF(1) Financial Installation Audit Folsom, CA 95630             0            0           0 11/20/98
066-1271610-RI(1)   Standard Mail               Glendora, CA 91740          0            0           0    2/17/99
069-1266708-RI(2)   Presort Bureaus             Los Angeles, CA 90058       0            0           0 12/18/98
012-1256726-AF(1) Financial Installation Audit Mission Hills, CA 91345      0            0           0 12/18/98
065-1256752-RI(1)   Periodical Mail             Newport Beach, CA 92660 0                0           0    3/17/99
069-1266709-RI(2)   Presort Bureaus             Orange, CA 92868            0            0           0 12/18/98
659-1218890-RI(1)   Financial Instruments       Sacramento, CA 95821        0            0           0 12/21/98
001-1219706-AD(1) ASC Opinion Audit             San Mateo, CA 94497         0            0           0    3/12/99
924-1254111-RI(1)   Presort Bureaus             Santa Ana, CA 92702         0            0           0 10/27/98
061-1262128-RI(1)   Postage Meter               Santa Ana, CA 92704         0            0           0     1/7/99
014-1256128-AF(1) Financial Installation Audit Tres Pinos, CA 95075         0            0           0    12/4/98
011-1256294-AF(1) Financial Installation Audit Van Nuys, CA 91409           0            0           0    12/4/98
011-1256727-AF(1) Financial Installation Audit W. Sacramento, CA 95799 0                 0           0    2/24/99
012-1256126-AF(1) Financial Installation Audit Walnut Creek, CA 94596       0            0           0    12/8/98
066-1262318-RI(1)   Standard Mail               Boulder, CO 80302           0            0           0 11/30/98
065-1244505-RI(1)   Periodical Mail             Denver, CO 80202            0            0           0    10/9/98
061-1234435-RI(1)   Postage Meter               Denver, CO 80202            0            0           0    11/3/98
061-1277504-RI(1)   Postage Meter               Denver, CO 80202            0            0           0    3/16/99
066-1258682-RI(1)   Standard Mail               Denver, CO 80202            0            0           0    3/23/99
013-1256134-AF(1) Financial Installation Audit Monument, CO 80132           0            0           0 12/22/98
065-1275345-RI(1)   Periodical Mail             Windsor, CO 80550           0            0           0    2/25/99
014-1256400-AF(1) Financial Installation Audit Andover, CT 06232            0            0           0 11/12/98
012-1255748-AF(1) Financial Installation Audit Danbury, CT 06810            0            0           0 12/22/98
009-1270869-AD(1) Cost and Revenue Analysis     Danielson, CT 06239         0            0           0 12/22/98
009-1273544-AD(1) Cost and Revenue Analysis     East Hartford, CT 06118     0            0           0    2/17/99
011-1256087-AF(1) Financial Installation Audit Hartford, CT 06101           0            0           0    12/8/98
009-1265598-AD(1) Cost and Revenue Analysis     Hartford, CT 06101          0            0           0 12/22/98
017-1203598-FI(2)   Financial Investigation     Hartford, CT 06101          0            0           0     1/5/99
013-1256391-AF(1) Financial Installation Audit Litchfield, CT 06759         0            0           0    3/17/99
014-1256399-AF(1) Financial Installation Audit Moodus, CT 06469             0            0           0 11/10/98
013-1256386-AF(1) Financial Installation Audit New Canaan, CT 06840         0            0           0 3/3/99
061-1262023-RI(1)   Postage Meter               Southington, CT 06489       0            0           0 12/30/98
063-1259093-RI(2)   Periodical Mail             Washington, DC 20066        0            0           0    11/6/98
046-1245790-PA(2) Business Mail Entry Units     Washington, DC 20066        0            0      92,200 11/24/98
068-1254318-RI(1)   Standard Mail               Boca Raton, FL 33431        0            0           0    10/1/98
016-1256826-AF(2) Financial Installation Audit Jacksonville, FL 32203       0            0           0     3/1/99


                                                                                                                    PAGE 89
                                                                                                 Un- Recommend
          Case/Report          Subject Title/             Location/           Questioned   supported Funds Put to     Issue
          Number               Project Type               Contract                 Costs       Costs Better Use        Date
          013-1256422-AF(1) Financial Installation Audit MacClenny, FL 32063          0            0           0 12/17/98
          061-1258946-RI(1)    Postage Meter              Miami, FL 33016             0            0           0    1/29/99
          195-1247869-EI(1)    Review Procurement         Miami, FL 33152             0            0           0 11/23/98
                               Activities
          006-1250049-RI(1)    Business Mail Entry Unit   Miami, FL 33152             0            0           0 12/23/98
          016-1256375-AF(2) Financial Installation Audit Mid Florida, FL 32799        0            0           0 12/14/98
          013-1256419-AF(1) Financial Installation Audit Middleburg, FL 32068         0            0           0 12/17/98
          011-1256376-AF(1) Financial Installation Audit Orlando, FL 32862            0            0           0 12/14/98
          064-1257809-RI(1)    First-Class Mail           Tallahassee, FL 32302       0            0           0    3/22/99
          384-1257343-RI(1)    Express Mail Corporate     Tampa, FL 33699             0            0           0 11/25/98
                               Account System
          090-1221915-RI(1)    Official Mail              West Palm Beach,            0            0           0 07/31/98*
                               Accounting System          FL 33406
          062-1266375-RI(1)    Standard Mail              Athens, GA 30608            0            0           0    2/11/99
          064-1281435-RI(1)    Business Mail Entry Unit   Atlanta, GA 30304           0            0           0    3/15/99
          062-1280798-RI(1)    Standard Mail              Atlanta, GA 30304           0            0           0    3/22/99
          062-1277468-RI(1)    Standard Mail              Atlanta, GA 30326           0            0           0    3/10/99
          012-1256580-AF(1) Financial Installation Audit Duluth, GA 30096             0            0           0 12/22/98
          062-1268245-RI(1)    Standard Mail              Fayetteville, GA 30214      0            0           0    1/11/99
          066-1283197-RI(1)    Standard Mail              Fayetteville, GA 30214      0            0           0    3/25/99
          012-1256371-AF(1) Financial Installation Audit Gainesville, GA 30501        0            0           0     3/8/99
          015-1256574-AF(1) Financial Installation Audit Good Hope, GA 30641          0            0           0 12/31/98
          009-1265360-AD(1) Cost and Revenue Analysis     Macon, GA 31213             0            0           0     3/5/99
          014-1256578-AF(1) Financial Installation Audit Scottdale, GA 30079          0            0           0     3/5/99
          016-1257635-AF(2) Financial Installation Audit Honolulu, HI 96820           0            0           0    2/17/99
          014-1256121-AF(1) Financial Installation Audit Waimea, HI 96796             0            0           0    2/19/99
          011-1257196-AF(1) Financial Installation Audit Mount Pleasant, IA 52641 0                0           0    1/20/99
          015-1255385-AF(1) Financial Installation Audit Harrison, ID 83833           0            0           0    3/11/99
          384-1258739-RI(1)    Postage Meter              Alsip, IL 60803             0            0           0     2/4/99
          063-1226216-RI(2)    Nonprofit Mail             Bensenville, IL 60106       0            0           0 12/22/98
          063-1205293-RI(2)    Nonprofit Mail             Chicago, IL 60607           0            0           0     2/2/99
          063-1212094-RI(2)    Standard Mail              Chicago, IL 60611           0            0           0 12/17/98
          092-1215615-FPA(1) National Priority System     Chicago, IL 60669           0            0           0     1/8/99
          009-1264541-AD(1) Cost and Revenue Analysis     Chicago, IL 60669           0            0           0    3/10/99
          014-1256004-AF(1) Financial Installation Audit Christopher, IL 62822        0            0           0 10/28/98
          011-1256275-AF(1) Financial Installation Audit Downers Grove, IL 60515      0            0           0    2/12/99
          012-1256284-AF(1) Financial Installation Audit Elmhurst, IL 60126           0            0           0 12/23/98
          066-1265079-RI(1)    Bulk Mail Acceptance Unit Forest Park, IL 60130        0            0           0 12/10/98
          011-1256273-AF(1) Financial Installation Audit Franklin Park, IL 60131      0            0           0    2/26/99
          011-1256279-AF(1) Financial Installation Audit Mattoon, IL 61938            0            0           0 12/17/98
          012-1257195-AF(1) Financial Installation Audit Moline, IL 61265             0            0           0 12/22/98
          011-1256277-AF(1) Financial Installation Audit Mount Morris, IL 61054       0            0           0    3/12/99
          017-1254059-FI(2)    Financial Investigation    Peoria, IL 61614            0            0           0    10/6/98
          015-1257193-AF(1) Financial Installation Audit Plymouth, IL 62367           0            0           0 12/21/98
          065-1258714-RI(1)    Periodical Mail            Indianapolis, IN 46204      0            0           0 10/15/98
          065-1258716-RI(1)    Periodical Mail            New Paris, IN 46553         0            0           0 10/15/98
          237-1223153-FPA(1) Facilities Service Office    Kansas City, KS 66110       0            0           0     2/8/99
          014-1256007-AF(1) Financial Installation Audit Meade, KS 67864              0            0           0 11/25/98



PAGE 90   APPENDICES
                                                                                        Un- Recommend
Case/Report         Subject Title/              Location/            Questioned   supported Funds Put to     Issue
Number              Project Type                Contract                  Costs       Costs Better Use        Date
069-1270294-RI(2)   Postage Due                 Shawnee Mission,             0            0           0    2/12/99
                                                KS 66202
064-1267287-RI(1)   First-Class Mail            Covington, KY 41019          0            0           0     2/5/99
014-1255367-AF(1) Financial Installation Audit Taylorsville, KY 40071        0            0           0 12/18/98
064-1274991-RI(1)   Official Mail               Boston, MA 02114             0            0           0     3/2/99
                    Accounting System
064-1279490-RI(1)   First-Class Mail            Boston, MA 02114             0            0           0    3/18/99
064-1268059-RI(1)   First-Class Mail            Boston, MA 02201             0            0           0     2/5/99
017-1253384-FI(2)   Financial Investigation     Edgartown, MA 02539          0            0           0    10/9/98
017-1281286-FI(2)   Financial Investigation     Hanover, MA 02339            0            0           0    3/17/99
013-1256390-AF(1) Financial Installation Audit Hopedale, MA 01747            0            0           0 12/10/98
012-1256382-AF(1) Financial Installation Audit Natick, MA 01760              0            0           0 11/20/98
090-1246564-RI(1)   Official Mail               North Reading,               0            0           0     3/9/99
                    Accounting System           MA 01889
013-1256393-AF(1) Financial Installation Audit Spencer, MA 01562             0            0           0 12/14/98
090-1246565-RI(1)   Official Mail               Springfield, MA 01101        0            0           0    3/12/99
                    Accounting System
061-1231057-RI(1)   Postage Meter               Waltham, MA 02154            0            0           0    12/4/98
065-1260264-RI(1)   Periodical Mail             Baltimore, MD 21203          0            0           0    12/2/98
013-1257159-AF(1) Financial Installation Audit Burtonsville, MD 20866        0            0           0    3/19/99
061-1217421-RI(1)   Postage Meter               Linthicum Heights,           0            0           0 12/31/98
                                                MD 21290
061-1263962-RI(1)   Postage Meter               Salisbury, MD 21804          0            0           0    1/22/99
198-1235428-FPA(2) New Construction Owned       Upper Marlboro,              0            0           0    2/19/99
                                                MD 20772
012-1257073-AF(1) Financial Installation Audit Westminster, MD 21157         0            0           0 11/23/98
017-1256420-FI(2)   Financial Investigation     Westbrook, ME 04092          0            0           0    11/9/98
830-1265476-FI(1)   Financial Investigation     Detroit, MI 48223            0            0           0    1/25/99
009-1264025-AD(1) Cost and Revenue Analysis     Detroit, MI 48232            0            0           0     1/4/99
016-1253582-AF(2) Financial Installation Audit Detroit, MI 48233             0            0           0    10/9/98
011-1256430-AF(1) Financial Installation Audit Detroit, MI 48233             0            0           0     2/5/99
062-1226027-RI(1)   Standard Mail               East Lansing, MI 48826       0            0           0    11/6/98
065-1255305-RI(1)   Periodical Mail             Grand Rapids, MI 49599       0            0           0    1/12/99
014-1261763-AF(1) Financial Installation Audit Manton, MI 49663              0            0           0 12/30/98
017-1263184-FI(2)   Financial Investigation     Maybee, MI 48159             0            0           0    12/7/98
009-1265280-AD(1) Cost and Revenue Analysis     Royal Oak, MI 48067          0            0           0    3/15/99
011-1261754-AF(1) Financial Installation Audit Royal Oak, MI 48068           0            0           0    3/29/99
065-1249099-RI(1)   Periodical Mail             South Haven, MI 49090        0            0           0 10/21/98
062-1254546-RI(1)   Nonprofit Mail              Warren, MI 48092             0            0           0    2/12/99
014-1261364-AF(1) Financial Installation Audit Clearwater, MN 55320          0            0           0    3/16/99
001-1225936-AD(1) IS/ASC Opinion Audit          Eagan, MN 55164              0            0           0    3/12/99
062-1273535-RI(1)   Nonprofit Mail              Maple Grove, MN 55369        0            0           0    2/26/99
090-1203705-RI(1)   Official Mail               Minneapolis, MN 55401        0            0           0 10/19/98
                    Accounting System
063-1198181-RI(2)   Nonprofit Mail              Minneapolis, MN 55401        0            0           0    11/9/98
061-1262211-RI(1)   Postage Meter               Minneapolis, MN 55437        0            0           0     2/9/99
062-1254493-RI(1)   Nonprofit Mail              Rochester, MN 55901          0            0           0 10/14/98
062-1250428-RI(1)   Nonprofit Mail              St. Paul, MN 55101           0            0           0    10/2/98
015-1257194-AF(1) Financial Installation Audit Arcola, MO 65603              0            0           0    2/12/99



                                                                                                                     PAGE 91
                                                                                                 Un- Recommend
          Case/Report         Subject Title/             Location/            Questioned   supported Funds Put to     Issue
          Number              Project Type               Contract                  Costs       Costs Better Use        Date
          064-1272221-RI(1)   First-Class Mail           Cape Girardeau,              0            0           0     2/4/99
                                                         MO 63701
          017-1261670-FI(2)   Financial Investigation    Harviell, MO 63945           0            0           0 11/23/98
          013-1256008-AF(1) Financial Installation Audit Hermann, MO 65041            0            0           0 11/25/98
          319-1206621-PA(3) Express Mail Corporate       Kansas City, MO 64108        0            0           0 10/30/98
                            Account Activity
          066-1272800-RI(1)   Standard Mail              O’Fallon, MO 63366           0            0           0     2/8/99
          015-1260054-AF(1) Financial Installation Audit Ponce De Leon,               0            0           0    2/16/99
                                                         MO 65728
          009-1265371-AD(1) Cost and Revenue Analysis    St. Louis, MO 63155          0            0           0    3/26/99
          001-1224758-AD(1) ISC Opinion Audit            St. Louis, MO 63177          0            0           0    3/12/99
          014-1256006-AF(1) Financial Installation Audit Stockton, MO 65785           0            0           0 10/29/98
          063-1253486-RI(2)   Nonprofit Mail             Olive Branch, MS 38654       0            0           0 11/18/98
          017-1253849-FI(2)   Financial Investigation    Pearlington, MS 39572        0            0           0    10/2/98
          823-1235506-FI(1)   Financial Investigation    Missoula, MT 59801           0            0           0 12/10/98
          013-1257151-AF(1) Financial Installation Audit Blowing Rock, NC 28605       0            0           0    12/9/98
          384-1247475-RI(1)   First-Class Mail           Charlotte, NC 28211          0            0           0    9/23/98
          064-1220308-RI(1)   First-Class Mail           Charlotte, NC 28228          0            0           0    10/5/98
          920-1203791-RI(1)   First-Class Mail           Charlotte, NC 28228          0            0           0    10/5/98
          009-1270412-AD(1) Cost and Revenue Analysis    Greensboro, NC 27495         0            0           0    2/17/99
          015-1257735-AF(1) Financial Installation Audit Longwood, NC 28452           0            0           0    1/15/99
          015-1257734-AF(1) Financial Installation Audit Roaring Gap, NC 28668        0            0           0     1/5/99
          012-1257153-AF(1) Financial Installation Audit Wilson, NC 27893             0            0           0    1/11/99
          015-1260053-AF(1) Financial Installation Audit Bellwood, NE 68624           0            0           0    2/16/99
          061-1268503-RI(1)   Postage Meter              Omaha, NE 68137              0            0           0    1/20/99
          012-1255820-AF(1) Financial Installation Audit East Hanover, NJ 07936       0            0           0    3/10/99
          004-1266043-AD(1) Imprest Fund Audit           Edgewater, NJ 07020          0            0           0     1/6/99
          072-1278578-SI(2)   Bank Secrecy Act           Edison, NJ 08899             0            0           0    3/11/99
          009-1279204-AD(1) Cost and Revenue Analysis    Fords, NJ 08863              0            0           0    3/29/99
          069-1272194-RI(2)   Business Mail Entry Unit   Fort Lee, NJ 07024           0            0           0    2/22/99
          012-1255821-AF(1) Financial Installation Audit Freehold, NJ 07728           0            0           0     1/4/98
          009-1276045-AD(1) Cost and Revenue Analysis    Freehold, NJ 07728           0            0           0    3/29/99
          010-1206570-AD(1) International Revenue        Jersey City, NJ 07096        0            0           0    1/11/99
                            Piece and Weight Review
          045-1248616-PA(2) Tort Claims                  New Brunswick, NJ 08906 0                 0           0     1/4/99
          009-1278434-AD(1) Cost and Revenue Analysis    Newark, NJ 07101             0            0           0    3/29/99
          009-1279200-AD(1) Cost and Revenue Analysis    Old Bridge, NJ 08857         0            0           0    3/29/99
          013-1255824-AF(1) Financial Installation Audit Pennington, NJ 08534         0            0           0     3/1/99
          009-1279202-AD(1) Cost and Revenue Analysis    Perth Amboy, NJ 08861        0            0           0    3/29/99
          009-1278439-AD(1) Cost and Revenue Analysis    Plainfield, NJ 07060         0            0           0    3/29/99
          009-1278437-AD(1) Cost and Revenue Analysis    South Plainfield, NJ 07080 0              0           0    3/29/99
          924-1281479-RI(1)   Presort Bureaus            Trenton, NJ 08618            0            0           0    3/19/99
          009-1274943-AD(1) Cost and Revenue Analysis Trenton, NJ 08650               0            0           0    3/17/99
          011-1255816-AF(1) Financial Installation Audit Trenton, NJ 08850            0            0           0     3/2/99
          009-1278436-AD(1) Cost and Revenue Analysis Union, NJ 07080                 0            0           0    3/29/99
          069-1256845-RI(2)   Special Services           West Orange, NJ 07052        0            0           0 10/14/98
          004-1266042-AD(1) Imprest Fund Audit           Whippany, NJ 07999           0            0           0    2/21/99
          013-1256150-AF(1) Financial Installation Audit Taos, NM 87571               0            0           0     2/5/99
          061-1263807-RI(1)   Postage Meter              Las Vegas, NV 89119          0            0           0    2/17/99


PAGE 92   APPENDICES
                                                                                       Un- Recommend
Case/Report         Subject Title/             Location/            Questioned   supported Funds Put to     Issue
Number              Project Type               Contract                  Costs       Costs Better Use        Date
013-1255750-AF(1) Financial Installation Audit Beacon, NY 12508             0            0           0     3/5/99
004-1265886-AD(1) Imprest Fund Audit           Flushing, NY 11351           0            0           0 12/23/98
017-1221549-FI(2)   Financial Investigation    Hauppauge, NY 11760          0            0           0 10/14/98
017-1260936-FI(2)   Financial Investigation    Keeseville, NY 12944         0            0           0 12/10/98
017-1221548-FI(2)   Financial Investigation    Mt. Vernon, NY 10551         0            0           0 10/14/98
065-1279288-RI(1)   Periodical Mail            New York, NY 10036           0            0           0    3/17/99
013-1255754-AF(1) Financial Installation Audit Sea Cliff, NY 11579          0            0           0     3/5/99
065-1250957-RI(1)   Periodical Mail            Syracuse, NY 13202           0            0           0 10/15/98
839-1253048-FI(2)   Financial Investigation    Syracuse, NY 13220           0            0           0    10/2/98
071-1255363-SI(2)   Time and Attendance        Cincinnati, OH 45234         0            0           0 11/17/98
924-1257646-RI(1)   Bulk Mailing Entry Unit    Cleveland, OH 44101          0            0           0    12/1/98
011-1255365-AF(1) Financial Installation Audit Cleveland, OH 44101          0            0           0    12/9/98
384-1263867-RI(1)   Specialized Programs       Columbus, OH 43212           0            0           0 12/10/98
063-1218219-RI(2)   Periodical Mail            Columbus, OH 43216           0            0           0    10/5/98
090-1253246-RI(1)   Official Mail              Columbus, OH 43216           0            0           0    10/5/98
                    Accounting System
015-1255368-AF(1) Financial Installation Audit Cuba, OH 45114               0            0           0     1/7/99
011-1255369-AF(1) Financial Installation Audit Dayton, OH 45401             0            0           0     3/5/99
014-1255370-AF(1) Financial Installation Audit Oak Hill, OH 45656           0            0           0    3/17/99
015-1257760-AF(1) Financial Installation Audit Meno, OK 73760               0            0           0    2/23/99
009-1265359-AD(1) Cost and Revenue Analysis    Oklahoma City, OK 73125 0                 0           0    3/15/99
011-1257699-AF(1) Financial Installation Audit Oklahoma City, OK 73125 0                 0           0    3/30/99
014-1257758-AF(1) Financial Installation Audit Yale, OK 74085               0            0           0 12/18/98
842-1263842-FI(1)   Financial Investigation    Portland, OR 97206           0            0           0 12/28/98
924-1255583-RI(1)   Nonprofit Mail             Portland, OR 97208           0            0           0    2/22/99
017-1259512-FI(2)   Financial Investigation    Springfield, OR 97477        0            0           0 11/27/98
013-1259880-AF(1) Financial Installation Audit Apollo, PA 15813             0            0           0    1/21/99
012-1259867-AF(1) Financial Installation Audit Blue Bell, PA 19422          0            0           0    3/15/99
012-1259868-AF(1) Financial Installation Audit Ephrata, PA 17522            0            0           0     3/5/99
066-1253187-RI(1)   Standard Mail              Meadville, PA 16335          0            0           0 10/15/98
011-1259853-AF(1) Financial Installation Audit Norristown, PA 19401         0            0           0     2/5/99
017-1256030-FI(2)   Financial Investigation    Philadelphia, PA 19101       0            0           0 10/29/98
065-1234781-RI(1)   Periodical Mail            Pittsburgh, PA 15290         0            0           0 12/11/98
062-1256229-RI(1)   Standard Mail              Pittsburgh, PA 15290         0            0           0 07/31/98*
017-1259737-FI(2)   Financial Investigation    Toughkenamon, PA 19374 0                  0           0    10/9/98
011-1256331-AF(1) Financial Installation Audit York, PA 17402               0            0           0 11/27/98
013-1255829-AF(1) Financial Installation Audit Isabela, PR 00662            0            0           0 12/18/98
062-1226049-RI(1)   Standard Mail              San Juan, PR 00920           0            0           0    12/1/98
061-1259539-RI(1)   Postage Meter              San Juan, PR 00920           0            0           0    2/19/99
009-1273240-AD(1) Cost and Revenue Analysis Providence, RI 02901            0            0           0     2/9/99
011-1256089-AF(1) Financial Installation Audit Providence, RI 02904         0            0           0     3/3/99
016-1256413-AF(2) Financial Installation Audit Providence, RI 02904         0            0           0 3/3/99
061-1258803-RI(1) Postage Meter                Mount Pleasant,              0            0           0 12/11/98
                                               SC 29464
012-1257141-AF(1) Financial Installation Audit Gallatin, TN 37066           0            0           0    1/15/99
012-1257142-AF(1) Financial Installation Audit Jackson, TN 38301            0            0           0    12/9/98
009-1265210-AD(1) Cost and Revenue Analysis    Memphis, TN 38101            0            0           0     3/8/99
065-1266706-RI(1)   Periodical Mail            Memphis, TN 38101            0            0           0 12/18/98



                                                                                                                    PAGE 93
                                                                                                 Un- Recommend
          Case/Report         Subject Title/             Location/            Questioned   supported Funds Put to     Issue
          Number              Project Type               Contract                  Costs       Costs Better Use        Date
          004-1265212-AD(1) Imprest Fund Audit           Memphis, TN 38166            0            0           0 12/15/98
          462-1272145-EI(1) Insured Parcel Review        Memphis, TN 38173            0            0           0 1/4/99
          009-1265203-AD(1) Cost and Revenue Analysis    Nashville, TN 37229          0            0           0 12/29/98
          012-1256575-AF(1) Financial Installation Audit Conroe, TX 77301             0            0           0    3/26/99
          017-1252825-FI(2)   Financial Investigation    Corpus Christi, TX 78401     0            0           0 10/14/98
          067-1259760-RI(1)   Manifest Mailing           Dallas, TX 75247             0            0           0 10/22/98
          017-1252739-FI(2)   Financial Investigation    El Paso, TX 79910            0            0           0 10/15/98
          009-1265906-AD(1) Cost and Revenue Analysis    Houston, TX 77202            0            0           0    1/19/99
          061-1262707-RI(1)   Postage Meter              Houston, TX 77251            0            0           0    1/25/99
          015-1257763-AF(1) Financial Installation Audit Pettus, TX 78146             0            0           0     2/1/99
          013-1257752-AF(1) Financial Installation Audit Silsbee, TX 77656            0            0           0    1/25/99
          012-1257693-AF(1) Financial Installation Audit Waco, TX 76702               0            0           0 12/18/98
          013-1256149-AF(1) Financial Installation Audit St. George, UT 84770         0            0           0    3/17/99
          063-1269428-RI(2)   Standard Mail              Gordonsville, VA 22942       0            0           0     2/3/99
          017-1252709-FI(2)   Financial Investigation    Great Falls, VA 22066        0            0           0    10/9/98
          004-1263833-AD(1) Imprest Fund Audit           Merrifield, VA 22082         0            0           0    3/19/99
          015-1257733-AF(1) Financial Installation Audit Sedley, VA 23878             0            0           0     1/7/99
          013-1257154-AF(1) Financial Installation Audit Tappahannock, VA 22560 0                  0           0    2/18/99
          061-1247365-RI(1)   Postage Meter              Burlington, VT 05401         0            0           0 12/11/98
          014-1256137-AF(1) Financial Installation Audit Brush Prairie, WA 98606      0            0           0 12/18/98
          017-1268268-FI(2)   Financial Investigation    Carbonado, WA 98323          0            0           0    1/13/99
          197-1230607-FPA(2) New Construction Owned      Olympia, WA 98501            0            0           0 12/29/98
          566-1260750-EI(1)   USPS Purchasing Contracts Seattle, WA 98109             0            0           0     3/8/99
          866-1266019-ICM(3) Financial Installation Audit Seattle, WA 98115           0            0           0    1/29/99
          017-1268269-FI(2)   Financial Investigation    Silvercreek, WA 98585        0            0           0    1/29/99
          016-1254207-AF(2) Financial Installation Audit Spokane, WA 99299            0            0           0 10/21/98
          833-1254184-FI(1)   Financial Investigation    Tacoma, WA 98413             0            0           0 12/16/98
          014-1256138-AF(1) Financial Installation Audit Toledo, WA 98591             0            0           0     3/8/99
          061-1262210-RI(1)   Postage Meter              LaCrosse, WI 54603           0            0           0    1/22/99
          011-1256269-AF(1) Financial Installation Audit Madison, WI 53714            0            0           0    12/1/98
          014-1256005-AF(1) Financial Installation Audit Winneconne, WI 54986         0            0           0 10/26/98
          065-1260414-RI(1)   Periodical Mail            Charleston, WV 25305         0            0           0    12/7/98

          TOTAL FOR THE VOICE OF THE BUSINESS                            $ 3,113,396             $ 54,807,824
                                                                                       $ 5,841,563



          GRAND TOTAL                                                    $ 3,113,396             $ 54,807,824
                                                                                       $ 5,841,563


          * Reports with an asterisk(*) were issued in a prior semiannual reporting period; however, they were not
          entered into the Inspection Service Database Information System until the current reporting period. To
          ensure all reports issued to management are reported to Congress, they are being included during this
          reporting period.




PAGE 94   APPENDICES
APPENDIX C

Findings of Questioned Costs                                                   1


For Period Ending March 31, 1999
                                                                                                    Unsupported
                                                                                                           Costs
                                                                                            TOTAL     Included In
                                                                 Number of             Questioned    Questioned
Description                                                        Reports                  Costs          Costs
Reports for which no management decision
was made at the beginning of the reporting period                        27        $161,989,656      $7,142,623
Reports requiring a management decision that
were issued during the reporting period                                  11         $15,652,354      $5,841,563

TOTAL                                                                  38          $177,642,010
Reports for which a management decision was
made during the reporting period (i + ii)                                10          $9,574,825        $42,813
(i) Dollar value of disallowed costs                                                 $2,552,389
(ii) Dollar value of costs not disallowed                                            $7,022,436
Reports for which no management decision was
made by the end of the reporting period.                                 28        $168,067,185     $12,941,373
Reports for which no management decision
was made within six months of issuance (Table A)                           9         $1,619,747       $854,830
Reports for which no management decision
was made within one year of issuance (Table B)                           11        $157,493,094      $6,244,980

Table A – Reports for which no management decision was made within six months of issuance
                                                                                                    Unsupported
                                                                                                           Costs
                                                                                           Total      Included In
                                                                                     Questioned      Questioned
Report Date   Case Number             Subject                                             Costs            Costs
08/17/98      183-1246298-AC(1)       Xeno Technix, Inc.                             $314,768         $236,559
08/17/98      183-1246324-AC(1)       Xeno Technix, Inc.                              241,647          217,599
06/16/98      184-1218249-AC(1)       First Data Merchant Services Corp.              515,521          398,675
06/10/98      184-1235718-AC(1)       Sandvik Sorting Systems, Inc.                   139,163                0
09/18/98      184-1244332-AC(1)       King-Casey, Inc.                                 57,213                0
09/18/98      184-1244333-AC(1)       King-Casey, Inc.                                 70,668                0
09/18/98      184-1244335-AC(1)       King-Casey, Inc.                                 31,805                0
04/14/98      184-1248703-AC(1)       Christensen Associates, Inc.                      4,940                0
09/11/98      192-1238574-AC(1)       PhotoAssist, Inc.                               244,022            1,997

TOTAL                                                                              $1,619,747         $854,830

Table B – Reports for which no management decision was made within one year of issuance
                                                                                                    Unsupported
                                                                                                           Costs
                                                                                           Total      Included In
                                                                                     Questioned      Questioned
Report Date   Case Number             Subject                                             Costs            Costs
03/12/98      182-1224877-AC(1)       MidCon Gas Services Corporation                 $ 14,920              $0
12/29/97      183-1180270-AC(1)       Pi Electronic Corporation                    156,241,716        6,241,716
05/30/97      182-1213081-AC(1)       The Roybal Corporation                            47,084            3,264
06/20/97      183-1214057-AC(1)       UNARCO Material Handling                          39,897                0
01/12/96      184-1171743-AC(1)       Greenleaf Steel Rule & Die Corp.                  67,399                0
05/20/96      184-1183079-AC(1)       King Casey, Inc.                                 353,962                0
02/28/97      184-1203149-AC(1)       King Casey, Inc.                                  14,542                0
02/28/97      184-1203150-AC(1)       King Casey, Inc.                                 247,133                0
02/28/97      184-1203153-AC(1)       King Casey, Inc.                                  42,946                0
01/27/97      190-1182814-AC(2)       Hines Square 678, Inc.                           404,418                0
07/22/97      190-1212424-AC(2)       Kyla, Inc.                                        19,077                0

TOTAL                                                                          $157,493,094         $6,244,980

1 ReflectsFindings of Questioned Costs reported by the OIG and the Inspection Service.
Individual agency case listings are included in Appendix B, Reports Issued to Postal management.

                                                                                                                    PAGE 95
          APPENDIX D

          Recommendations That Funds
          Be Put to Better Use1
          For Period Ending March 31, 1999
                                                                                          Number of
          Description                                                                       Reports      Dollar Value
          Reports for which no management decision
          was made at the beginning of the reporting period                                     85    $172,746,838
          Reports requiring a management decision that
          were issued during the reporting period                                               18     $54,807,824

          TOTAL                                                                                103    $227,554,662

          Reports for which a management decision was made during the reporting period:         22     $97,613,596
          (i) Value of recommendations implemented by management                                       $88,085,611
          (ii) Value of recommendations that management did not recover                                 $9,527,985
          (iii) Value of recommendations that management did not agree to implement                             $0
          Reports for which no management decision was
          made by the end of the reporting period                                               81    $129,941,066
          Reports for which no management decision was
          made within six months of issuance (Table A)                                          19     $70,356,142
          Reports for which no management decision was
          made within one year of issuance (Table B)                                            46     $47,758,637



          Table A - Reports for which no management decision was made within six months of issuance
                                                                                                         Recommend
          Report        Case                                                                            Funds Put to
          Date          Number                     Subject                                                Better Use
          06/10/98      181-1226701-AC(1)          New Breed Leasing Corporation                       $26,910,584
          04/15/98      181-1231813-AC(1)          Motion Systems, L.C.                                    696,113
          04/23/98      181-1231819-AC(1)          Motion Systems, L.C.                                     82,384
          04/21/98      181-1231825-AC(1)          Motion Systems, L.C.                                    871,745
          08/27/98      181-1233815-AC(1)          Siemens ElectroCom, L.P.                              1,975,850
          04/14/98      181-1237199-AC(1)          Siemens ElectroCom, L.P.                             14,156,740
          08/26/98      181-1238483-AC(1)          New Breed Leasing Corporation                         6,764,521
          04/17/98      181-1238604-AC(1)          Siemens ElectroCom, L.P.                                505,224
          06/05/98      181-1242545-AC(1)          Mannesmann Dematic Rapistan Corporation                 118,882
          07/15/98      181-1244136-AC(1)          Motion Systems, L.C.                                    756,910
          09/25/98      181-1246015-AC(1)          MOS International                                       773,938
          08/28/98      181-1246017-AC(1)          MOS International                                       280,277
          08/14/98      181-1248027-AC(1)          Siemens ElectroCom, L.P.                              5,541,722
          08/17/98      181-1248178-AC(1)          Siemens ElectroCom, L.P.                             10,687,390
          08/20/98      181-1249368-AC(1)          Key Handling Systems, Inc.                              189,668
          09/21/98      181-1249372-AC(1)          Key Handling Systems, Inc.                               13,851
          09/18/98      181-1249374-AC(1)          Key Handling Systems, Inc.                               14,895
          09/18/98      181-1249375-AC(1)          Key Handling Systems, Inc.                                8,768
          09/18/98      181-1249376-AC(1)          Key Handling Systems, Inc.                                6,680

          TOTAL                                                                                        $70,356,142




PAGE 96   APPENDICES
Table B - Reports for which no management decision was made within one year of issuance
                                                                                               Recommend
Report       Case                                                                             Funds Put to
Date         Number                    Subject                                                  Better Use
01/03/97     181-1200819-AC(1)         Mid-West Conveyor Company, Inc.                         $564,583
01/15/97     181-1201891-AC(1)         ElectroCom Automation, L.P.                               338,760
03/21/97     181-1205609-AC(1)         Fanuc Robotics North America, Inc.                        280,966
05/30/95     181-1165940-AC(1)         ElectroCom Automation, L.P.                             8,370,460
05/31/96     181-1171732-AC(1)         King-Casey, Inc.                                          174,475
01/31/96     181-1181291-AC(1)         Cortron, Inc.                                             355,978
05/23/96     181-1187389-AC(1)         ElectroCom Automation, L.P.                             2,799,714
07/25/96     181-1192269-AC(1)         ElectroCom Automation, L.P.                                89,068
09/25/96     181-1194800-AC(1)         ElectroCom Automation, L.P.                             9,178,587
09/20/96     181-1195161-AC(1)         ElectroCom Automation, L.P.                                34,876
06/06/97     181-1191292-AC(1)         Accu-Sort Systems, Inc.                                10,312,313
07/03/97     181-1204341-AC(1)         Key Handling Systems, Inc.                                129,326
07/03/97     181-1204343-AC(1)         Key Handling Systems, Inc.                                134,283
07/03/97     181-1204348-AC(1)         Key Handling Systems, Inc.                                336,308
05/20/97     181-1204350-AC(1)         Key Handling Systems, Inc.                                722,503
04/22/97     181-1208530-AC(1)         ElectroCom Automation, L.P.                               283,626
06/24/97     181-1211002-AC(1)         SELCO Steel Erectors Company, Inc.                        185,371
08/12/97     181-1211016-AC(1)         SELCO Steel Erectors Company, Inc.                        182,818
08/20/97     181-1211026-AC(1)         SELCO Steel Erectors Company, Inc.                        258,122
08/05/97     181-1211033-AC(1)         SELCO Steel Erectors Company, Inc.                        280,106
07/30/97     181-1211038-AC(1)         SELCO Steel Erectors Company, Inc.                        833,456
06/09/97     181-1211514-AC(1)         Siemens ElectroCom L.P.                                    20,151
06/30/97     181-1212404-AC(1)         Carter Control Systems, Inc.                              118,058
07/22/97     181-1212407-AC(1)         Carter Control Systems, Inc.                               21,578
07/22/97     181-1212414-AC(1)         Carter Control Systems, Inc.                               11,071
07/22/97     181-1212417-AC(1)         Carter Control Systems, Inc.                               10,595
09/10/97     181-1213327-AC(1)         Motion Systems, L.C.                                      491,132
09/10/97     181-1213328-AC(1)         Motion Systems, L.C.                                      545,692
09/10/97     181-1213329-AC(1)         Motion Systems, L.C.                                      561,088
09/08/97     181-1213332-AC(1)         Motion Systems, L.C.                                      569,652
08/22/97     181-1214294-AC(1)         Mid-West Conveyor Company, Inc.                            62,330
08/22/97     181-1214303-AC(1)         Mid-West Conveyor Company, Inc.                            44,112
08/14/97     181-1215545-AC(1)         Carter Control Systems, Inc.                               52,347
09/12/97     181-1218347-AC(1)         Siemens ElectroCom L.P.                                   196,086
01/23/98     181-1214298-AC(1)         Mid-West Conveyor Company, Inc.                           135,198
01/23/98     181-1214305-AC(1)         Mid-West Conveyor Company, Inc.                           167,714
12/03/97     181-1215690-AC(1)         K&T Electrical Contractors                                481,301
03/06/98     181-1216419-AC(1)         Siemens ElectroCom L.P.                                    66,317
11/26/97     181-1216446-AC(1)         North American Conveyor Inc.                              517,017
01/06/98     181-1225136-AC(1)         Ashton-Potter, Ltd.                                       104,757
03/06/98     181-1229831-AC(1)         Siemens ElectroCom L.P.                                 3,215,867
03/06/98     181-1231556-AC(1)         Siemens ElectroCom L.P.                                    24,179
03/27/98     181-1231807-AC(1)         Motion Systems, L.C.                                      892,256
01/09/98     181-1213123-AC(1)         Sandvik Sorting Systems, Inc.                           1,844,457
01/09/98     181-1213127-AC(1)         Sandvik Sorting Systems, Inc.                             828,956
01/09/98     181-1213128-AC(1)         Sandvik Sorting Systems, Inc.                             931,027

TOTAL                                                                                       $47,758,637
1 Reflects Recommendations That Funds Be Put to Better Use reported by the OIG and the Inspection Service.
Individual agency case listings are included in Appendix B, Reports Issued to Postal management.

                                                                                                             PAGE 97
          APPENDIX E

          Unresolved Reports
                                                                                 Number of           Total
                                                            Number of    Inspection Service     Number of
          Description                                      OIG Reports              Reports       Reports
          Unresolved at Beginning of Period                         1                  118            119
          Resolved from Prior Period                              (0)                 (61)           (61)
          Unresolved from Prior Period                              1                   57             58
          Unresolved from This Period1                              7                   69             76
          Total Unresolved1                                         8                  126            134

          Unresolved by Prior Periods:
            More than Six Months, 09/30/98 (Table A)                1                   47             48
            More than One Year, 04/01/98 (Table B)                  0                   10             10



          1 Excludes
                  audits previously reported in Appendix C, Findings of Questioned Costs and Appendix D,
          Recommendations That Funds Be Put to Better Use.




PAGE 98   APPENDICES
Table A - List of reports pending more than six months
OFFICE OF INSPECTOR GENERAL
Report     Case
Date       Number          Condition
09/17/98   CA-AR-98-002    Fiscal Year 1998 Congressional Mail Accounting and Billing, Washington, DC -
                           All recommendations have been resolved. Some of the recommendations were
                           jointly resolved with alternative management actions. Management is working
                           to implement corrective actions.

INSPECTION SERVICE
Report     Case
Date       Number          Condition
09/30/98   1225145-AD(1)   Electronic Data Processing Controls, San Mateo, CA - Management is finalizing
                           procedures regarding sensitivity classifications and completing security reviews.
09/30/98   1225935-AD(1)   Electronic Data Processing Controls, St. Paul, MN - Management is concluding
                           administrative security issues.
09/30/98   1231082-AD(1)   Electronic Data Processing Controls, St. Louis, MO - Management is finalizing
                           contractual security procedures and physical security improvements.
05/05/98   1169074-AD(1)   Inbound International Statistical Systems, Jersey City, NJ - Management is
                           strengthening controls of international and military mail operations.
09/03/98   1222661-AF(1)   Financial Installation Audit, Greenville, SC - Work is in progress to move opera-
                           tions and provide the additional space needed to properly perform operations.
06/30/98   1223267-AF(1)   Financial Installation Audit, Boston, MA - Management is reviewing procedures
                           and providing training to ensure proper financial management of the Bulk Mail
                           Entrance Unit.
08/13/98   1223405-AF(1)   Financial Installation Audit, Washington, DC - Management is implementing
                           the Meter Accounting Tracking System. Procedures are being developed for the
                           Bulk Mail Entrance Unit to strengthen internal controls.
07/01/98   1223482-AF(1)   Financial Installation Audit, Cincinnati, OH - Management is providing training
                           to ensure proper administration of the Bulk Mail Entrance Unit.
06/04/98   1225186-AF(1)   Financial Installation Audit, Atlanta, GA - Management is providing attention
                           to ensure proper administration and collection of fees on mailings.
09/04/98   1225189-AF(1)   Financial Installation Audit, Norcross, GA - Management is in the process of
                           completing training in post office box/caller service mail.
07/08/98   1229345-AF(1)   Financial Installation Audit, Wilmington, DE - Management is providing
                           additional attention in the shrink-wrap area.
09/10/98   1229346-AF(1)   Financial Installation Audit, Wilkes-Barre, PA - Management is developing
                           procedures regarding window operations.
08/19/98   1223262-AF(1)   Financial Installation Audit, New London, CT - Management is developing
                           procedures and conducting training in business mail acceptance.
06/12/98   1223339-AF(1)   Financial Installation Audit, Lafayette, LA - Management is providing attention
                           to internal controls in postage due/business reply mail.
08/28/98   1223423-AF(1)   Financial Installation Audit, McLean, VA - Management has taken actions in
                           Collect on Delivery mail and Postal Retail Store areas. Documentation needs to
                           be submitted for completion.
08/11/98   1223485-AF(1)   Financial Installation Audit, Liberty, MO - Management is developing proce-
                           dures in office accountability.
06/01/98   1223708-AF(1)   Financial Installation Audit, Lancaster, CA - Management is implementing
                           procedures in Bulk Mail Entrance Unit operations.
05/26/98   1224031-AF(1)   Financial Installation Audit, Kirkland, WA - Management has begun employee
                           training in Collect on Delivery mail.
04/07/98   1229348-AF(1)   Financial Installation Audit, Conshohocken, PA - Management has begun
                           implementing numerous Bulk Mail Entrance Unit procedures.
08/03/98   1240585-AF(1)   Financial Installation Audit, Sioux City, IA - Management is developing proce-
                           dures to ensure proper financial management of the Bulk Mail Entrance Unit.
09/02/98   1222998-AF(1)   Financial Installation Audit, South Elgin, IL - Management is acquiring new
                           equipment for Collect on Delivery operations. Training is being given in Bulk
                           Mail Entrance Unit operations.


                                                                                                               PAGE 99
           Report       Case
           Date         Number          Condition
           04/27/98     1223429-AF(1)   Financial Installation Audit, Severna Park, MD - Management is providing
                                        training to ensure proper administration of the Bulk Mail Entrance Unit.
           07/02/98     1224025-AF(1)   Financial Installation Audit, Clearlake, CA - Management is providing training
                                        in business mail acceptance operations.
           05/05/98     1229351-AF(1)   Financial Installation Audit, Temple, PA - Management is implementing proce-
                                        dures in business mail operations.
           08/25/98     1224037-AF(1)   Financial Installation Audit, Haines, AK - Management is implementing proce-
                                        dures in business mail operations.
           08/13/98     1235951-AF(2)   Financial Audit Special Review, Washington, DC - Management is preparing
                                        procedures and reviewing instructions to ensure proper accountability of
                                        Postal assets.
           07/20/98     1242959-AF(2)   District Accounting Review, Las Vegas, NV - Management has developed an
                                        action plan to address information systems deficiencies.
           07/13/98     1217081-AX(1)   Operational Systems, Washington, DC - Management is addressing automation
                                        issues and procedures for implementing security controls.
           09/15/98     1220283-PA(1)   National Audit on Postal Retail Stores - Management is developing procedures
                                        in retail operations, and a handbook and instructions are being updated.
           05/12/98     1209811-PA(1)   National Audit on Air Transportation Networks - Management is preparing
                                        operating plans, and corrective actions are being taken.
           06/05/98     1214098-PA(1)   National Audit on City Route Inspections and Adjustment Process -
                                        Management is developing instructions to review, train, and increase supervision
                                        for the route inspection and adjustment process and the associated monitoring of
                                        savings.
           05/11/98     1204380-PA(1)   National Audit on Effectiveness of Employee Reassignments - Management is
                                        developing integrated policies and procedures on reassignment processes and
                                        providing attention in complement planning initiatives.
           04/30/98     1217904-PA(1)   National Audit on External First-Class Collections - Management is providing
                                        attention to testing induction methods of mail and is issuing instructions restrict-
                                        ing the use of the e-mail system to update databases.
           06/04/98     1234520-PA(2)   Flats Automation, Denver, CO - Management is developing implementation
                                        plans to address flat sorting machine utilization, flat automation processing, per-
                                        formance targets, staffing, and maintenance.
           08/20/98     1241721-PA(2)   Carrier Transportation, St. Louis, MO - Management is continuing to provide
                                        attention to vehicle maintenance and operations.
           08/11/98     1233190-PA(2)   Injury Compensation and Safety Programs, Kansas City, MO - Management is
                                        finalizing training material and providing attention to medical contracts and case
                                        management issues.
           09/16/98     1238815-PA(2)   Limited and Light Duty Program, Dallas, TX - Management is developing
                                        instructions on claim management.
           08/10/98     1231591-PA(2)   Two-Three Day Mail and Priority Mail, Washington, DC - Management indi-
                                        cates reviews are ongoing and training is being conducted on mail operations.
           09/02/98     1241806-PA(3)   Priority Mail Operations, Denver, CO - Management is developing an operating
                                        plan, and transportation schedules are being finalized and published.
           07/10/98     1244116-PA(3)   Service and Efficiency Mail Condition Reporting System, Anchorage, AK -
                                        Management indicated all training is complete and reviews are ongoing.
           09/11/98     1243831-PA(3)   Highway Contract Route Driver Screening Process, New Brunswick, NJ -
                                        Management stated the driver screening process is in place and action to
                                        implement other recommendations is ongoing.
           07/01/98     1245454-PA(3)   Commercial Mail Receiving Agencies, Van Nuys District - Management indicat-
                                        ed that training will be provided and a new agreement form is being developed.
           07/28/98     1245455-PA(3)   Commercial Mail Receiving Agencies, San Diego District - Management agreed
                                        with most of the recommendations and will be working to improve
                                        controls.
           06/30/98     1245456-PA(3)   Commercial Mail Receiving Agencies, Long Beach District - Management
                                        agreed with the recommendations and will provide attention to improve
                                        controls.
           06/18/98     1244805-RI(2)   Periodical Mail, La Junta, CO - Management needs to provide training on
                                        periodical mail operations.



PAGE 100   APPENDICES
Report     Case
Date       Number          Condition
06/05/98   1240865-RI(1)   Periodical Mail, Englewood, CO - Management needs to provide training on
                           periodical mail operations.
07/28/98   1244516-RI(1)   Periodical Mail, La Junta, CO - Management needs to provide training on
                           periodical mail operations.


Table B - List of reports pending more than one year
INSPECTION SERVICE
Report     Report/Case
Date       Number          Condition
1/21/94    1130250-AD(1)   Fiscal Year 1994 Financial Opinion Audit, San Mateo, CA - Management is
                           preparing instructions on Free on Board Origin payments that will place more
                           accountability at local offices for reconciliation procedures.
08/12/97   1199652-AD(1)   Electronic Data Processing Controls, San Mateo, CA - Management is progress-
                           ing in testing critical applications and providing off-site storage for critical files.
07/31/97   1217968-PA(1)   Excessive Overtime Usage, Washington, DC - Management has not implement-
                           ed all recommendations regarding contractual constraints, leave control, and
                           employee scheduling.
10/10/97   1204520-PA(1)   National Audit on Marketing and Customer Research - Management is develop-
                           ing plans to strengthen marketing communications and increase district revenue
                           contributions.
02/03/98   1198313-PA(1)   National Audit on Office of Workers’ Compensation Program Medical Payments
                           - Management is awaiting a decision for national implementation of the Nurse
                           Coordination Program.
11/21/97   1211013-PA(3)   Registered Mail Operations Review, San Francisco, CA - Management is devel-
                           oping procedures for handling remittances and improving registry case security.
11/28/97   1196577-AD(1)   Fiscal Year 1997 Financial Opinion Audit, San Mateo, CA - Management is in
                           the process of developing procedures for the inventory contract payment and
                           reconciliation process.
12/09/97   1200362-AD(1)   Fiscal Year 1997 Financial Opinion Audit, Minneapolis, MN - Management has
                           not implemented all recommendations regarding reconciling general ledger
                           accounts.
12/31/97   1188871-RI(1)   Inbound Verification Procedures, Jersey City, NJ - Management is continuing to
                           develop action plans on verifying inbound foreign and Canadian mail.
02/13/98   1155587-RI(1)   Nonprofit Mailing, Boston, MA - Management has not implemented findings
                           regarding the Nonprofit Permit System.




                                                                                                                     PAGE 101
           APPENDIX F

           Summary of Inspection Service Actions
           Under 39 USC 3005 and 3007
           For the Period of October 1, 1998 through March 31, 1999
                                                                                         Final   Cease &
           Type of Scheme                                Complaints      Consent   Restraining     Desist
           (Definitions of schemes follow)                    Filed   Agreements       Orders     Orders

           Advance fee                                           1            1             1          1
           Boiler rooms/Telemarketing                            1            1                        1
           Contest/Sweepstakes                                   2            5             3          7
           Rebate fraud                                         20           20                       20
           Directory solicitations
           Distributorships
           Employment
           False billings                                        5            2             3          4
           Fraud against government agencies                     1            1                        1
           Fraud against USPS
           Insurance
           Investments
           Loans                                                 1                          1          1
           Lotteries (Foreign and Domestic)                     39            3            36          3
           Medical                                               1            2                        2
           Memberships
           Merchandise:
              Failure to furnish                                              1
              Failure to pay                                     5            4             4          5
              Misrepresentation                                  1            2             2          2
           Miscellaneous                                         2            2             2          2
           Solicitations                                         1
           Travel
           Work at home                                          4            5             3          4

           TOTAL                                                84           48            56         53

           Other Administrative Actions
           Administrative Action Requests                       79
           Temporary Restraining Orders Requested                4
           Temporary Restraining Orders Issued                   4
           Civil Injunctions (1345) Requested                    2
           Civil Injunctions (1345) Issued                       2
           Cases Using Direct Purchase Authority                 0
           Refusals of Direct Purchase Authority                 0
           Civil Penalties (Section 3012) Imposed                0
           Expenditures Incurred for:
             Test Purchases                               $205.82
             Expert Testimony                               $1,254
             Witness Travel                              $2,370.88
           Withholding Mail Orders Issued                       43
           Voluntary Discontinuances                           261



PAGE 102   APPENDICES
DEFINITIONS OF SCHEMES
Advance fee. Obtaining fees purporting to secure buyers or obtain loans.
Boiler rooms/Telemarketing. An office or suite of offices with banks of telephones and
telephone solicitors who use high-pressure techniques to persuade consumers to respond to
phony offers.
Contest/Sweepstakes. Schemes in which the respondent is required to pay a fee to obtain
prizes of money, gifts or other items of value. “Prizes” either are never shipped or are inferior
to what was promised.
Rebate fraud. Redeeming cents-off coupons or manufacturers’ rebates when no merchandise
was actually purchased; establishing fictitious stores, clearing houses, or addresses; submitting
counterfeit coupons or rebates by consumers.
Directory solicitations. Fraudulent solicitations in the guise of invoices for advertisement or
renewal in business directories.
Distributorships. Pyramid schemes in which it is mathematically impossible for all participants
to recoup their investments. The emphasis is not on the sale of the product, but on getting
others to participate.
Employment. Soliciting money for information or assistance in obtaining nonexistent or
misrepresented jobs.
False billings. Mailing solicitations in the guise of billings.
Fraud against government agencies. Any scheme that attempts to defraud a government
agency except the Postal Service.
Fraud against Postal Service. Any scheme that attempts to defraud the Postal Service.
Insurance. Investigation of insurance-related fraud involving false claims, false advertising on
the availability of insurance, or the collection of premiums for nonexistent policies.
Investments. Misrepresented opportunities to invest in commodities, gems, metals, stocks,
bonds, certificates of deposit, mutual funds, IRAs, coins, stamps, art, etc.
Loans. Mailings soliciting money for information on nonexistent or misrepresented loans.
Lottery. Advertisements seeking money or property by mail for participation in schemes to win
prizes through chance.
Medical. Sales by mail of misrepresented health products or services, including fraudulent
medical degrees.
Memberships. Failure to provide services advertised in connection with organization
membership.
Merchandise failure to furnish. A mail order operator that does not provide ordered
merchandise.
Merchandise failure to pay. Mail order merchandise that is acquired without providing
payment.
Merchandise misrepresentation. Mail order merchandise or services are materially misrepre-
sented in advertising.
Miscellaneous. Any other scheme not described in a specific category.
Solicitations. Fraudulent solicitation of funds through the mail for alleged charitable, religious,
or minority-oriented groups and similar causes or organizations.
Travel. Fraudulent vacation or travel opportunities.
Work at home. Schemes, such as envelope stuffing, that do not provide home employment.




                                                                                                      PAGE 103
           APPENDIX G

           Criminal Statistics
           For Period Ending March 31, 1999
           OFFICE OF INSPECTOR GENERAL
           Type of Investigation                                                          ARRESTS         CONVICTIONS1
           Revenue & Cost Containment
           Revenue Protection                                                                  1              2
           Contracts                                                                           1              0
           OIG Total2                                                                          2              2


           INSPECTION SERVICE
           Type of Investigation                                                          ARRESTS         CONVICTIONS1
           Revenue & Asset Protection Program
            Expenditure Investigations                                                         4                     6
            Financial Investigations                                                         157                   146
            Workers’ Compensation Fraud                                                       29                    29
            Revenue Investigation                                                             47                    40
           Robbery                                                                            57                    55
           Burglary                                                                           90                    75
           Miscellaneous External Crimes                                                     287                   213
           (includes counterfeit and contraband postage,
           money order offenses, vandalism, and arson)
           Assaults Against Employees                                                        227                   189
           (includes threats and assaults against on-duty Postal employees)
           Employee Narcotics Cases                                                           14                    13
           (includes employees and nonemployees selling narcotics on Postal property)
           Mail Theft by Employees                                                           272                   271
           (includes theft and possession of stolen mail)
           Mail Theft by Nonemployees or Contractors                                       2,317                  1,941
           (includes theft and possession of stolen mail)
           Miscellaneous Employee Crimes                                                      41                    34
           (includes theft of Postal property and sabotage of equipment)
           Bombs/Explosive Devices                                                            34                    34
           Mailing of Controlled Substances                                                  735                   640
           (includes narcotics, steroids, drug-related proceeds and drug paraphernalia)
           Child Exploitation, Mailing of Obscene Matter and                                  67                    80
           Sexually Oriented Advertisements
           Mailing of Miscellaneous Nonmailables                                              16                    36
           (includes hazardous material, firearms and weapons, intoxicants,
           explosives other than bombs, extortion, and false documents)
           Mail Fraud                                                                        748                   664

           Inspection Service Total2                                                       5,142                  4,466

           GRAND TOTAL                                                                     5,144                  4,468


           1 Convictions reported in this time frame may be related to arrests made in prior reporting periods.
           2 Arrests    and convictions include joint investigations with other federal law enforcement agencies.




PAGE 104   APPENDICES
Exhibits




  DID YOU
  KNOW?
 Are Hotline contacts confidential?
 The identities of employees who make
 complaints or provide information
 regarding alleged wrongdoing are held
 confidential unless the individual gives
 permission to disclose their identity or
 disclosure is unavoidable.




                                            PAGE 105
                                           This exhibit describes the
                                           designation of audit and
                                           investigative functions
                                                                           Exhibit A
                                           agreed to by the OIG and        Designation of Functions
                                           Inspection Service upon         OFFICE OF INSPECTOR GENERAL                                     INSPECTION SERVICE
                                           passage of the 1996
                                                                             REVENUE                                                         REVENUE
                                           amendments to the
                                                                           ● Bribery, Kickback, and Conflict of                            -Revenue Loss Detection
                                           Inspector General Act.              Interest
THIS PAGE TEARS OUT FOR YOUR CONVENIENCE




                                           The designation, which          ● Systemic Reviews
                                           was approved by the Board         HEALTH CARE FRAUD                                               WORKERS’ COMPENSATION
                                                                           ● Provider Fraud                                                -Recipient Cases
                                           of Governors, identifies        ● Workers’ Compensation Program
                                           work already transitioned;          Oversight
                                           work in transition; and           EMBEZZLEMENTS                                                   EMBEZZLEMENTS
                                           new functions now being         ● Conduct/Partner on cases of $100K or More                     -Under $100 K
                                           performed by the OIG.             EXPENDITURES                                                    EXPENDITURES
                                                                           ● Bribery, Kickback and Conflict of Interest                    -As Referred by IG
                                                                           ● Systemic Reviews                                              -IMPAC Cards
                                           TRANSITION OF                                                                                   -Local Purchases/Procurements

                                           INVESTIGATIVE                   ● CONDUCT/PARTNER ON CASES INVOLVING EXECUTIVES                   EMERGENCY RESPONSE ON CASES INVOLVING EXECUTIVES

                                           FUNCTIONS                                                                                         INTERNAL/EXTERNAL CRIMES
                                                                                                                                             PROTECTION OF EMPLOYEES
                                                                                                                                             SECURITIES FRAUD AND PROHIBITED MAILINGS
                                                                           ✖ TORT CLAIMS: SERIOUS INCIDENTS                                  TORT CLAIMS
                                                                           ● INSPECTION SERVICE INTERNAL AFFAIRS                             INSPECTION SERVICE INTERNAL AFFAIRS
                                                                           ● Executives                                                    -Non-executives
                                                                           ● COMPUTER FORENSICS                                              FORENSIC AND TECHNICAL SERVICES
                                                                           ● HOTLINE


                                           TRANSITION OF                   OFFICE OF INSPECTOR GENERAL                                     INSPECTION SERVICE
                                           AUDIT                             FACILITIES                                                      FACILITIES
                                           FUNCTIONS                       ✖ New Facilities Construction
                                                                               of $10M or More
                                                                                                                                           -New Facilities Construction
                                                                                                                                             of $5M or Less
                                                                           ✖ New Facilities Right of First                                 -New Facilities Between $5 – $1 M
                                                                               Choice Between $5 – $1 M                                      if not chosen by IG
                                                                           ✖ Leases of $1M or More                                         -Leases under $1M
                                                                           ✖ Repair and Alterations of $1M or More                         -Repair and Alterations under $1M
                                                                             REVENUE FOCUSED
                                                                           ✖ International Mail
                                                                           ● FINANCIAL STATEMENT - OVERALL OPINION                           FINANCIAL STATEMENT - INSTALLATION AND DISTRICT
                                                                           ● POSTAL-WIDE PERFORMANCE                                         AREA DISTRICT AND LOCAL PERFORMANCE
                                                                           ● CONTRACTS, EXCEPT PRE-AWARD AND POST-AWARD                      SERVICE INVESTIGATION
                                                                           ● ALL DEVELOPMENTAL                                               CONTRACTS PRE-AWARD AND POST-AWARD

                                                                           OFFICE OF INSPECTOR GENERAL
                                           ADDITIONAL/                     ✇ REVENUE GENERATION
                                                                           ✇ OVERSIGHT OF INSPECTION SERVICE
                                           EXPANDED OIG
                                                                           ✇ RATE-MAKING REVIEWS
                                           FUNCTIONS
                                                                           ✇ SELF-INITIATED AND PROACTIVE WORK (CONTRACTING/PERFORMANCE)
                                                                           ✇ LABOR-MANAGEMENT
                                                                           ✇ ELECTRONIC COMMERCE
                                                                                                                                           Key: FY 1999 Status
                                                                           ✇ COMPUTER INTRUSION                                            ● Transitioned        ✖ In Transition     ✇ New Function
                                                                PAGE 106
                                                                   NERAL                                          ASS
                                                                                                                     ISTANT I
                                                                 GE                                                          NS
                                                                                                                               P
                                                                R
                                                                                                                 STRATEGIC




                                                                                                                                               EC
                                                              TO PERFORMANCE




                                                         EC
                                                                                                                 PLANNING




                                                                                                                                                 TO
                                                                  Colleen McAntee
                                                                  Deputy Richard Chambers
                                                                                                                 & QUALITY




                                                                                                                                                   RG
                                                                  Transportation
                                                                                                                 MANAGEMENT
                                                                  Debra Ritt                                     Ronald Merryman
                                                                  Delivery/Support                               Internal Quality
                                                                                                                                                                                                                  Exhibit B


                                                                  Debbie Pettitt                                 Jim Nugent
                                                                  Financial Statements                           Electronic Commerce




                                                                                                                                                     ENERAL
                                                                  John Seeba                                     Strategic Planning




                                             SISTANT INSP
                                                                                                                 Forensic & Technical Services
                                                                  Developmental                                  Information Technology




                                           AS
                                                                  Tracy LaPoint                                  Quality Assurance/Internal Affairs
                                                                  Accepting/Processing

                            AL
                          ER
                        EN REVENUE
                       G & COST                                                                                                                 EMPLOYEE




                             R
                                 CONTAINMENT                                                                                                    Billy Sauls
                                                                                                                                                                                    L




                                 Sylvia Owens
                                                                                         INSPECTOR                                              Deputy Ronnie Wainwright
                                 Deputy Richard Trinidad
                                                                                         GENERAL                                                Administrative Resources
                                                                                         Karla Corcoran                                         Alan Lamoreaux
                                 Revenue Generation
                                 Wayne Goleski                                           Special Assistant                                      Human Resources
                                                                                         Laura Whitaker                                         Connie Ambush
                                 Revenue Protection
                                                                                                                                                                                    GE NER A




                                 Mike Shiohama                                           Executive Assistant                                    Information Systems
                                                                                         Cindy Monahan                                          Dave Berran




                  NT INSPECTO
                                 Dan O'Rourke
                                                                                                                                                                                    OR




                                 Contracts                                                                                                      Policy & Procedures




                TA
                                                                                                                                                                                   T




                                 Kim Stroud                                                                                                     Karen Shaffer




              IS
                                                                                                                                                                                EC




                                 Facilities                                                                                                     Labor Management




            SS
                                                                                                                                                                            P




           A
                                 Bob Buettgens                                                                                                                                  S
                                 Health Care Fraud                                                                                                                         IN
                                 Kathy Johnson                                                                                                                        NT
                                                                                                                  CUSTOMER                              ASSISTA
                                                                                                                  Norm Hancock
                                                               GENERAL                                            Computer Intrusion
                                                               COUNSEL TO THE                                     Howard Cox
                                                               INSPECTOR                                          Executive Investigations
                                                               GENERAL                                            Tommy Hampton
                                                               Thomas Coogan                                      Oversight
                                                                                                                  Bob Pemberton
                                                               Legal Counsel
                                                               Kirt West                                          Hotline, Security & Safety




PAGE 107
                                                                                                                                                        G E N ER AL




                                                                                                                  Joe Oliva
                                                               Congressional
                                                                                                                                                       R




                                                               and Public Relations                               Consulting
                                                                                                                  Quick Response
                                                                                                                                                 C  TO




                                                                                                                                                                                    Office of Inspector General
                                                                                                                                                    E
                                                                                                                                               SP                                      1735 N. Lynn Street
                                                                                                                                N
                                                                                                                    ASSISTANT I                                                     Arlington, VA 22209-2020
                                                                                                                                                                                          (703) 248-2300
                                                                                                                                                                                        Fax: (703)248-2291
                                                                                                                                                                                    Internet: www.uspsoig.gov


                                                                                                               THIS PAGE TEARS OUT FOR YOUR CONVENIENCE
                                                                                                                     THIS PAGE TEARS OUT FOR YOUR CONVENIENCE



                                                                                                                 Facilities Program Team - conducts audits, management reviews, and investigations of all aspects of
OFFICE OF INSPECTOR GENERAL                                                                                      facilities including repair, renovation, and new construction.
The OIG is organized along the three voices of the Postal Service CustomerPerfect! program: Voice of the         Contract Audit Team - assists Postal contracting by conducting audits and investigations of purchasing
Customer, Voice of the Employee, and Voice of the Business. The Inspector General, Counsel, and the              activities and operations.
five Assistant Inspectors General form the OIG Management Committee.
                                                                                                                 Health Care Fraud Team - identifies and investigates medical providers that have falsely billed the Postal
                                                                                                                 Service for work-related injury claims, and systemic issues involving the Workers’ Compensation Program.
ASSISTANT INSPECTOR GENERAL FOR STRATEGIC PLANNING
& QUALITY MANAGEMENT                                                                                             ASSISTANT INSPECTOR GENERAL FOR EMPLOYEE
Forensic and Technical Services Team - provides technical support in such areas as surveillance,                 Information Systems Review Team - audits major automated Postal management and information systems
evidence recovery, firearms, computer forensics and polygraph examinations; maintains close liaison with         to determine whether applications are properly established and systems are properly designed to provide
technical experts in the law enforcement community.                                                              accurate data to management; provides computer-assisted audit techniques to support OIG staff.
Quality Assurance/Internal Affairs Team - conducts internal reviews of OIG operations and procedures             Labor-Management Team - audits and evaluates labor and employee relations issues within the Postal
to ensure that they are effective and appropriate, and provides advice on improving operations; conducts         Service to foster and maintain a healthy organizational climate for employees and to improve operational
reviews of allegations made against OIG employees.                                                               efficiency.
Strategic Planning Team - anticipates and plans for current and future changes in the Postal Service,            Human Resources Team - delivers full-service human resources programs for the OIG in the areas of
OIG operations, and technology by identifying workload, providing research and statistical analysis,             employee relations, pay and benefits, retirement, awards, performance management, counseling, diversity
informing Postal Service employees and customers about the OIG mission, and promoting the vision of              opportunities, and training.
the OIG.
                                                                                                                 Administrative Resources Team - provides OIG staff with facilities, procurement, financial, budget, and
Internal Quality Team - instills continuous internal improvement processes and facilitates internal              other services necessary to accomplish the OIG mission.
communications through orientation, teambuilding, and mentoring.
                                                                                                                 Policy and Procedures Team - coordinates internal policies and procedures; reviews and comments on all
Electronic Commerce Team - conducts reviews of Postal Service initiatives in the emerging field of               Postal policies and procedures.
electronic commerce, including areas such as information-based indicia and electronic bill payment.
Information Technology Team - manages computer operations and telecommunications within the OIG;                 ASSISTANT INSPECTOR GENERAL FOR CUSTOMER
operates the local- and wide-area networks; provides computer security and technical support to OIG staff;
and manages agency-wide information systems.                                                                     Oversight Team - conducts audits and evaluations of Postal Inspection Service programs and operations.
                                                                                                                 Hotline, Safety, and Security Team - operates the OIG Hotline and assists in resolution of issues, where
ASSISTANT INSPECTOR GENERAL FOR PERFORMANCE (AUDIT)                                                              possible. Provides personnel security services to the OIG and assists OIG in assessing physical security
                                                                                                                 within the Postal Service.
Financial Audit Team - conducts audit work in support of the independent public accounting firm’s
annual financial audit opinion and conducts other financial-related audits and investigations to identify        Executive Investigations Team - investigates allegations of criminal activities and misconduct involving
areas for financial improvement.                                                                                 Postal Service Career Executive Service employees.
Developmental Team - conducts audits, reviews, and investigations of new or redesigned Postal Service            Computer Intrusion Team - detects and investigates “computer hacking” and other high-technology
systems, programs, and operations that are under development.                                                    crimes involving Postal Service computers and telecommunications systems; assists in the identification of
                                                                                                                 computer systems vulnerabilities so that appropriate counter-measures may be implemented by Postal
Accepting/Processing Team - conducts audits, reviews, and investigations focusing on mail acceptance             Service management.
and collection operations, and mail processing and distribution processes.
                                                                                                                 Consulting Services Team - assists Postal Service management by identifying “best practices” for improv-
Transportation Team - conducts audits, reviews, and investigations focusing on inter- and                        ing the effectiveness of Postal Service operations. (Will be established in FY 2000.)
intra-transportation and logistics operations, specifically addressing Postal Service fleet operations, and
contracts for airline, highway, and rail services.                                                               Quick Response Team - evaluates factual issues promptly when time is of the essence.
                                                                                                                 (Will be established in FY 2000.)
Delivery/Support Team - conducts audits, reviews, and investigations covering delivery service processes
and operations for delivering the mail.
                                                                                                                 OFFICE OF GENERAL COUNSEL TO THE INSPECTOR GENERAL
ASSISTANT INSPECTOR GENERAL FOR REVENUE & COST                                                                   Legal Counsel Team - provides legal advice to the Inspector General and OIG staff on criminal, civil, and
CONTAINMENT (INVESTIGATIONS)                                                                                     administrative issues. Researches legal issues, processes subpoenas, reviews legislation, handles Freedom of
                                                                                                                 Information and Privacy Act requests, provides ethics advice, and serves as liaison with the Postal Service
Revenue Protection Team - investigates bribery, kickbacks, embezzlement, and other cases involving               Law Department and Department of Justice legal staffs.
revenue losses and contract fraud, such as defective pricing, product substitution, and cost mischarging.
                                                                                                                 Congressional and Public Relations Team - serves as a liaison with members of Congress and their staffs,
Revenue Generation Team - examines and evaluates the major sources of revenue from the marketing,                the Board of Governors, and the media. Responds to written and oral inquiries, coordinates congressional
advertising, stamp services, retail, and international mail business operations, as well as Postal rate cases.   testimony given by the Inspector General and OIG staff, facilitates OIG responses to congressional, Board
                                                                                                                 of Governors’, and media requests, and prepares the Semiannual Report to Congress.
OFFICE OF INSPECTOR GENERAL
        1735 N. Lynn Street
    Arlington, VA 22209-2020
          (703) 248-2300
        Fax: (703)248-2291
     Internet: www.uspsoig.gov
